i
INDEX TO APPENDICES OF PETITION FOR
WRIT OF CERTIORARI
APPENDIX A: Supreme Court, State of Connecticut,
Order on Petition for Certification, PSC 18-0441,
5/22/2019 ………..……………………………....………A-1
APPENDIX B: Appellate Court, State of Connecticut
(187 Conn. App. 902), 2/12/2019, AC 41455 (Heller, J),
AC 41598 (Genuario, J), and AC 42118 (Truglia,
J).................................................................................A-2
APPENDIX C: Appellate Court, State of Connecticut
(189 Conn. App. 448), 4/23/2019, AC 42118 (Truglia,
J)….............................................................................A-3
APPENDIX D: Superior District Court of Stamford /
Norwalk, State of Connecticut, FST-FA-18-4031046-S,
9/12/2018 (Truglia, J)…………….………………..…A-27
APPENDIX E: Superior Disctrict Court of Stamford /
Norwalk, State of Connecticut, FST-FA-18-4031046-S,
8/29/2018 Ex-parte Petition for Relief from Abuse
(Sommer, J)…………………………………………….A-31
APPENDIX F: Superior District Court of Stamford /
Norwalk, State of Connecticut, FST-FA-18-4031046-S,
Excerpts from Official Transcripts, Hearing of
9/12/2018 (Truglia, J)………….…..…………………A-34
APPENDIX G: Appellate Court, State of Connecticut,
AC 41455 (AC 41598), AC42118, Defendant’s Motion
for Reconsideration en banc (Amended Request for
Relief; Record before Appellate Court), 1/18/2019
(Alvord, Lavine, and Elgo, J) ……………………….A-49
APPENDIX H: Greenwich Public School, Greenwich,
Connecticut,
Office of Pupil Personnel Services
Summary, PPT/IEP Meeting, 5/13/2019………..…A-73

ii
INDEX TO APPENDICES OF PETITION FOR
WRIT OF CERTIORARI – Continued
APPENDIX I: Brunswick School, Official Letter of
May, 2019….…………………………………………...A-78
APPENDIX J: Superior District Court of Stamford
/Norwalk, State of Connecticut, CRO90165772S and
CRO90168728S, 1/30/2012, Order to Expunge
(Comeford, J)…………………………………………..A-80
APPENDIX K: Department of Children and Families,
State of Connecticut, 2/20/2013, Investigation,
Conclusion and Recommendation on Allegations of
Children Abuse and/or Neglect (Moore, E)………..A-83
APPENDIX L: Certificate of No Criminal Record,
7/10/2013, State of Connecticut,
Department of
Emergency Services and Public Protection Division of
State Police Bureau of Identification…………..….A-86
APPENDIX M: Superior District Court of Stamford
/Norwalk, State of Connecticut, FST-FA-18-4031046-S,
Stipulation of 10/20/2009 (Schofield, J) replacing Ex
Parte Restraining Order of 10/6/2009 (FST-FA-094017500-S; Schofield, J)………………………….….A-87
APPENDIX N: Petitioner’s Letter of 6/1/2009 to the
Greenwich Police Department, State of Connecticut
(Malone,
Judge;
Dolinsky,
State
Attorney;
others)………………………………………………..…A-89
APPENDIX O:
Superior District Court of
Stamford/Norwalk, State of Connecticut, FST-FA-094017497-S, Order Denying Plaintiff’s Motions for
Order, 4/25/2019 (Truglia, J)……………………...A-96

iii
INDEX TO APPENDICES OF PETITION FOR
WRIT OF CERTIORARI – Continued
APPENDIX
P:
Superior
District
Court
of
Stamford/Norwalk, State of Connecticut, FST-FA-094017487-S, Plaintiff’s Motions for Order, 3/20/2019
and 3/15/20191………………………………………....A-98
APPENDIX Q: Juzgado de Primera Instancia No. 3,
Granada, Spain, No. 758D/16, Request for Exequatur
and Dismissal of Fraudulent Divorce Proceedings,
6/9/2017……………………………………………….A-105
APPENDIX R: Juzgado de Primera Instancia No. 3,
Granada, Spain, No. 758D/16, Judgment of Nullity of
Fraudulent Divorce Proceedings, 6/29/2017 (Siles
Ortega, J)…………………………………………..…A-114
APPENDIX S: Juzgado de Primera Instancia No. 3,
Granada,
Spain,
No.
758D/16,
Plaintiff’s
Acknowledgment of Defendant’s Exequatur and
Court’s Judgment, 7/26/2017……………………....A-120
APPENDIX T: Juzgado de Primera Instancia No. 3,
Granada, Spain, No.1022/2018, Concealed Alternative
Exequatur Proceedings, 7/31/2018, Order Mandating
Defendant’s Appearance, 5/7/20192......................A-121
APPENDIX U:
Constitutional and Statutory
Provisions……………………………………………..A-124

1
2

See Appendix O.
See Appendices O, Q, R and S.

A-1
APPENDIX A
SUPREME COURT
STATE OF CONNECTICUT
PSC-18-0441
MARGARITA O.
v. FERNANDO I.
ORDER ON PETITION FOR
CERTIFICATION TO APPEAL
The defendant's petition for certification to appeal from
the Appellate Court, 189 Conn. App. 448 (AC 42118),
is denied.
Fernando I., self-represented, in support of the
petition.
Decided May 22, 2019.
By the Court,
/s/ Cory M. Daige
Assistant Clerk – Appellate
Notice Sent: May 22, 2019
Petition Filed: April 29, 2019
Clerk, Superior Court, FST-FA18-4031046-S
Hon. Anthony D. Truglia Jr.
Clerk, Appellate Court
Reporter of Judicial Decisions
Staff Attorneys’ Office
Counsel of Record

A-2
APPENDIX B
APPELLATE COURT
STATE OF CONNECTICUT
MARGARITA O. v. FERNANDO G. IRAZU
(AC 41455)
Lavine, Alvord and Elgo, Js.
Argued January 22—officially released February 12,
2019
Defendant’s appeal from the Superior Court in the
judicial district of Stamford-Norwalk, Heller, J.;
Genuario, J.; Truglia, J.*


Per Curiam. The judgments are affirmed.

* Post-denial of the Petition for Certification by the Supreme
Court of the State of Connecticut and this party’s Petition for Writ
of Certiorari before the Court dated 4/15/2019 (Docket No.
181376), the Appellate Court reversed its decision as to AC 42118
(Truglia, J) and rendered a new judgment dated 4/23/2019.


A-3
APPENDIX C
APPELLATE COURT
STATE OF CONNECTICUT
MARGARITA O. v. FERNANDO I.
(AC 42118)
Lavine, Alvord and Elgo, Js.
Syllabus
The defendant appealed to this court from the
judgment of the trial court granting the application for
relief from abuse filed by the plaintiff, his former wife,
pursuant to statute (§ 46b-15), and issuing a
restraining order against him. The trial court also
issued an additional order of protection that required
the defendant to stay 100 yards away from the
plaintiff, except ‘‘when both children are present.’’
Held:
1. The trial court did not abuse its discretion in
granting the plaintiff’s application for relief from abuse
and issuing a restraining order against the defendant,
as there was sufficient evidence to support a finding
that the defendant had subjected the plaintiff to a
pattern of threatening; in light of the lengthy,
repetitive and hostile nature of the defendant’s
communications with the plaintiff, which included
three e-mails and two text messages, and the trial
court’s ability to supplement the written exhibits with
its observation of the demeanor of the parties at the
hearing on the application, that court reasonably could
have concluded that the defendant’s written
threatening communications constituted a pattern of

A-4
threatening.
2. The trial court’s additional order of protection
requiring the defendant to stay 100 yards away from
the plaintiff except ‘‘when both children are present’’
was clearly erroneous; the order was ambiguous and
there was no evidence in the record to support it, as the
record revealed that the plaintiff did not request that
the restraining order extend to the parties’ children,
she did not testify at the hearing that she felt as though
she was in physical danger except in the presence of
both children, and when the court explained that the
order did not apply to certain circumstances with ‘‘the
minor child or when you are also in the presence of the
minor child,’’ with no mention of an additional child
being present, the plaintiff did not object or express
any concern.
Argued January 22—officially released April 23, 2019
Procedural History
Application for relief from abuse, brought to the
Superior Court in the judicial district of StamfordNorwalk, where the court, Truglia, J., granted the
application and issued a restraining order and a
certain additional order of protection, and the
defendant appealed to this court. Reversed in part;
further proceedings.
Fernando
I.,
(defendant).

self-represented,

the

appellant

Kevin F. Collins, for the appellee (plaintiff).
Opinion
ALVORD,

J.

The

self-represented

defendant,

A-5
Fernando I., appeals from the judgment of the trial
court granting the application of the plaintiff,
Margarita O., for relief from abuse and issuing a
restraining order pursuant to General Statutes § 46b15. The defendant claims that the court erroneously (1)
determined that he had subjected the plaintiff to a
recent pattern of threatening, and (2) ordered the
defendant to stay 100 yards away from the plaintiff
except ‘‘when both children are present.’’1 We conclude
that there was no evidence to support the court’s order
requiring the defendant to ‘‘stay 100 yards away from
the [plaintiff]’’ with an exception ‘‘for the 100 yard stay
away when both children are present.’’ Accordingly, we
reverse in part the judgment of the court as to the ‘‘stay
100 yards away’’ order and remand the case for a new
hearing with respect to any order of protection, if
proven necessary by the plaintiff, in situations where
the defendant seeks interaction with his children and
the plaintiff is present. We otherwise affirm the
judgment of the trial court.
The following facts and procedural history are relevant
to our analysis of the defendant’s claims. On August
29, 2018, the plaintiff, in a self-represented capacity,
filed an ex parte application for relief from abuse,
seeking immediate relief against her former spouse,
the defendant.2 In her application, the plaintiff
averred under oath that the defendant had
‘‘consistently
sent
[her]
very
distressing
communications for the past years but in the last few
months and weeks (particularly the last [forty-eight]
hours) his aggressive electronic communication has
been mounting to the point that [she was] very
concerned about [her] physical safety.’’ In addition, the
plaintiff stated that ‘‘[she is] a single woman, [she]
work[s] in [New York City] and many nights [she]

A-6
come[s] back late from work and feel[s] that [she is]
exposed [to] potential harm from [the defendant]’’ and
that ‘‘[t]he [defendant] has his residence in [New York
City] but spends almost every day in Greenwich,’’
which is the town where she resides. The court,
Sommer, J., denied the plaintiff’s application and
scheduled a hearing for September 12, 2018, in
accordance with § 46b-15 (b).
The parties appeared for the hearing before the court,
Truglia, J., on September 12, 2018. At the hearing, the
court heard testimony from both parties.3 The plaintiff
testified in relevant part: ‘‘[The defendant] keeps on
blaming me for everything that is going on in his life;
whether he loses a job, whether he cannot get a job, his
life has been destroyed by me. And the reason I’m
asking for this order now is because he’s more agitated.
I think the situation has deteriorated for him quite a
bit. He doesn’t have a job. He doesn’t have any money.
Still he blames me for everything that is happening to
[him]. . . . In the course of [thirty-six] or [forty-eight]
hours, I received three different communications, very
disturbing, from him in which some of them he clearly
said, you know, like there are implied threats in those
communications.’’ The plaintiff also testified that, nine
years earlier, the defendant had been arrested twice,
‘‘[once] for domestic abuse and [once] for death threats
. . . .’’4 The defendant did not dispute the fact of the
arrests. The plaintiff explained that she requested
relief under § 46b-15 on the basis of a pattern of
threatening by the defendant and stated that she
believed that she was in physical danger.
The defendant testified in relevant part: ‘‘I’ve been [in
the Superior Court] [ten] years, and I lost everything
in my life here. . . . [B]ut the good part of it is that her

A-7
claims
were
considered
false,
insufficient,
unsubstantiated and rejected by the civil court in the
divorce trial, by the criminal court twice, by the
Department of Children and Families from the state of
Connecticut. I was accused of abuse against my own
children. So, I was accused of being mentally insane. I
had to undergo ten evaluations with independent
psychiatrists and psychologists. One was appointed by
the court. They all expressed on the record that I’m not
a violent man. I never had any history of violence in my
life. . . . Furthermore, it was proven . . . and I have all
the records. Unfortunately it’s [ten] years and maybe a
snippet could be portrayed as something lethal, but is,
again, false. . . . [T]he plaintiff has a history of deceit,
fraud, entrapment, [and] provocations that it goes for
years.’’5
In addition to the foregoing testimony, the plaintiff
submitted several exhibits, including copies of text
messages and e-mails that the defendant had sent her.
The text messages and one of the e-mails had been
written in Spanish. The plaintiff, therefore, in addition
to providing copies of the original communications,
submitted as an exhibit during the hearing a certified
translation of these communications.
First, on March 29, 2018, the defendant had sent the
plaintiff an e-mail, written in English, which stated in
relevant part: ‘‘I had your associates in [G]reenwich all
over me, from firefighters, police officers, public
employees . . . . So I refrained myself from confronting
the scene, the last thing I wanted was to make a
different sort of scene in front of our kids’ doctor . . . .
But [I’m] telling you for you to think before you and
your attorney speak, what our kids should have
experienced and must experience is their parents

A-8
together, in front of them, telling them the very same
message, absolutely in sync, with love, clarity and
support, and this has not happened because of you, and
it’s still not happening because of you. You have
prevented this from happening for almost [ten] years,
against the law, common sense and their [well-being].
. . . And the reason for that to be the case, as I see it,
it’s that you don’t understand that our relationship
only exists due to them, as a result of them, because of
them. If they were not in this world, after what you’ve
done in my life until now, I wouldn’t even know
anything about you, whether you exist or not . . . your
conduct is irresolute, without changing tracks in
anything, without firing the unethical lawyer only you
decided to retain, without giving back to me,
reimbursing me, what you must in the name of decency
and justice . . . . You don’t get it. This is inconceivable
to me, the fact you don’t even understand what sort of
man I am. You do what I tell you, and you have a
positive response from me. Period. Why? Because what
I tell you is no other thing than what you should have
done and should do under the law and what’s right in
itself. And so happens that it is me saying it. Is there
some feminist and related belief against it? Stupidities
about control and inconveniences. They can go and
dominate themselves . . . we’ve got [ten] years of this
already. There’s a law to be obeyed, giving me control
over what I must control for being a father (natural law
and rights), an outstanding father as you said, and a
loving one per the opinion of the court. Yet, one who
has lost any and all authority because of you, my
parental rights have been curtailed and undermined
by you, in detriment of our kids . . . .’’
On April 27, 2018, the defendant sent the plaintiff
another e-mail. The certified translation reads in

A-9
relevant part: ‘‘On Monday I met with a group of
friends to pray, etc., and before I had prayed to God,
and I was thinking about what your attorney said: ‘you
lose . . .’, after accusing me of being a Nazi, crazy and
an abuser . . . . I have God, and the fact that you have
cheated me, robbed me, and swindled me in that way
and with that type of people, as well as everything that
that brought with it in my life for many years already,
it is what it is.
‘‘The fact that you have destroyed my life by accusing
me of being an abuser and crazy, the inherited good
name that your own children bear already stained forever, their father vilified by riffraff of all types, etc.,
and my own family harmed to an unthinkable extreme
. . . . Lack of intelligence and pure evil. . . .
‘‘You lack a minimum conscience to understand that
decent people don’t do what you did and have been
doing, they don’t hire attorneys and a certain type of
them at that—especially, when it was not necessary, it
never was . . . nor do they similarly use the police,
firemen, schools and ideologized social structures (in a
society fragmented by hate due of concepts of race,
social class, origin, religion, and questions of identity)
in order to harass and destroy the life of the father of
their children. Only someone morally and spiritually
sick can do such a thing. It’s already been almost ten
years of this craziness, exclusively carried on by you,
even though several groups have done their part due to
their respective motivations. You have decided not to
change your course, staying firm in the error, the
ignominy and the cheating . . . and as if this were not
enough, counter to your legal representations and
commitments.

A-10
‘‘The only thing I asked for from the beginning was coparenting, even after you refused to buy my part of the
house and consent to that, and it is specifically what
you have refused even until today. And we have all lost
so much, but especially on the human level our
children, who have not seen their parents greet each
other and interact civilly in almost ten years already
due to your own decision . . . all their infancy, to the
point that it no longer has relevance . . . while at times,
for moments and reciprocally you became tired of
stupidities like little smiles and that sort of thing in
churches and public sites . . . something frankly
lunatic. You robbed your children of the opportunity to
grow up with two parents, separated but acting civilly
toward each other, as ordered by the law according to
your own legal representatives.
‘‘What were you expecting? Smiles, welcoming and
nothing happened here . . . the subject for me has
always been our children, not my relationship with you
after everything I lived through. And I find it
incomprehensible that you don’t understand it. My
entire investment of love, time, effort, professional
decisions, deprivations of all types and resources
provided for our children, you have destroyed. You
have robbed and defrauded me. Of course, it is
important that such injustices cannot remain
unpunished. But the curious thing of everything is that
someone could think that they could destroy me and
dominate me through my relationship with you,
something sincerely demented and an exclusive recipe
for tragedy. In this sense, I thanked you and I thank
God for the good sense that you have given me.
‘‘It has not been nor is it easy for me, but my greatest
success is being happy in spite of this craziness.

A-11
Contemplating the possibility of my death many years
ago, I understood that the only one who loses here, if I
allow this to affect me, is me and those who love me.
This would be losing and allowing the bad things to
mortify me. I chose to be happy, and although I am very
tired and exhausted (deeply exhausted), I am a happy
person. The uncertainness of not knowing where I will
live tomorrow, in what country, not having a
relationship with my daughters and not living with my
children as much as I would wish . . . losing contact
with them over time . . . having doubts, or if I’m out of
work and a roof to live or die under, I don’t lose sleep.
In one way or another, justice will come, in this life or
in the next one. Contemplating eternity, our temporary
stay here on earth is ephemeral . . . and we are almost
[fifty] years old. Statistically speaking we have less
time left than we have lived. . . .
‘‘On the other hand, for the professional that I am,
beyond the destruction of my career. And in your case,
you only decided to be it seriously—support through
the subject of identity policies, which makes me happy
for my children—after destroying my life, professional
and in general, not when we were married and the
family needed it more than ever. You didn’t do more
than complain that you had to work part-time, and
weren’t worth anything at home or as a mother. . . .
Finally, a very serious mistake, for which I have paid
with interest in this world. And what have you gained?
Destroying the father of your children, robbing him,
and a job that you hate. Not even a mentally retarded
person acts that way. As I said, injustices will be paid
for. And I hope that you can do it for yourself in time,
because otherwise your debt will be eternal before
God.’’

A-12
On August 28, 2018, the defendant sent the plaintiff a
series of text messages. With respect to the first
message, the certified translation reads in relevant
part: ‘‘Sometimes I wonder how it is possible that a
person goes up to receive the Host after what you have
been doing and continue doing. For me it’s
incomprehensible. You have no conscience, that has
been the big problem. . . . I don’t have a job, I have to
assume debts to live (if I can) and probably I have to do
with nothing after your thefts, fraud, social, judicial,
and litigious persecutions—litigations that I will
continue until justice is done, until I die if necessary.
On the other hand, if you knew the garbage that I have
had to live with of harassment and the like by the
groups connected to your riffraff lawyer, whom I told
you that you have to get rid of in order to do things
right, so even someone like you would be surprised.
You must think that that short time is all it takes, that
time heals and stupidities like that. It’s been almost
[ten] years, since I made you a roadmap of what you
would have to do or not do justly, what is right and is
correct among good people. That is the only thing that
matters. And now the only thing that helps is to return
to me what is mine with interest, that you make right
all the harm you have done in the proper way, and
return to me my relationship with my daughters, in
addition to being sorry and asking for forgiveness. You,
as you have wrongly taught our daughters, do not
know how to ask for forgiveness, something
transcendental in life to be a good person, which also
means amending the harm caused. I cannot get over
my astonishment on seeing you walk to the altar and
receive the body of Christ. And you have been doing it
for over [ten] years. For me it’s something incredible.’’
In a subsequent text message, the defendant stated in

A-13
relevant part: ‘‘If you don’t intend to do what’s right,
we’ll continue in the courts—in one way or another, for
my children, I will have justice. And if I have to go, I
won’t hesitate, I’ll go. . . . It seems to me that you and
those who advise you don’t manage to understand the
type of man with which you are dealing with and the
consequences of what has been done here.’’
That same day, the defendant also sent the plaintiff an
e-mail, which stated in relevant part: ‘‘Despite the fact
I am currently forced to leave the country (as things
stand right now) because of you and your lawyer, since
I have no employment and savings (only debts, after
living paycheck to paycheck) as a result of what you’ve
been doing to me for years, it seems surreal to me. Why
don’t you do coparenting with me, knowing with full
certainty that this is the only path and way for us to
have any contact whatsoever in life? Instead, you keep
violating the law and generating deep frustration and
negativity in me. You tell me post facto of the issues
that arise in our children due to your lack of
coparenting . . . . It’s not only that you can’t see it, but
you don’t seem to comprehend the everlasting
irreparable damage in our relationship for it, beyond
the defamation, slander and libel that completely
destroyed my life because of criminal charges and
outrageous allegations of all sorts against me before
the police/judiciary and elsewhere. You destroyed my
life . . . and severely hurt your own children as well. My
power, authority and control as a father over my
children have always been reasonable and loving, but
you have taken them away from me against court
orders and due to the misdeeds uncovered before the
judiciary. If you wanted for me to hate you, let me tell
you that [you] have done all the right things for that to
be the case. Time does not heal anything, it only

A-14
aggravates things. You need to do what’s right. But you
don’t hear what I say, much less understand the
impact of what you do.’’
At the conclusion of the hearing, the court orally
rendered its decision.6 The court told the defendant:
‘‘Sir, I am very sympathetic to your situation. I can see
that things have been very difficult. It’s been a long,
high conflict divorce situation.’’ The court stated that
the plaintiff had ‘‘carried her burden of proof that she
has been subjected to a recent pattern of threats. I
think some of the language here does imply . . . does
carry implied threats that could be unsettling.’’ When
the defendant asked which statement was considered
a threat, the court explained: ‘‘Plaintiff’s Exhibit 2; as
I said, injustices will be paid for. Destroying . . . and
what you have gained? Destroying the father of your
children, robbing [him], and a job that you hate. Not
even a mentally retarded person acts that way. As I
said, injustices will be paid for.’’7 Thereafter, the court
explained the various limitations8 on the rights and
priv- ileges of the defendant that were part of its
restraining order, which, by its terms, expires on
September 12, 2019. In addition, the court ordered the
defendant to stay 100 yards away from the plaintiff,
except when ‘‘both children are present.’’ This appeal
followed. Additional facts and procedural history will
be set forth as necessary.
I
The defendant first claims that the trial court
erroneously determined that he had subjected the
plaintiff to a pattern of threatening. Specifically, he
argues that the court erroneously ‘‘deemed one single
out of context opinion, unsettling or not per third-party

A-15
views, as an implied threat,’’ and ‘‘found no valid
allegation of physical abuse, stalking and/or a direct
threat of any kind as a result of the plaintiff’s spurious
application for relief from abuse. Therefore, there is no
possibility of arguing a pattern of threats under
applicable law.’’ We disagree.
We begin by setting forth the standard of review and
legal principles that guide our analysis of the
defendant’s claim. ‘‘[T]he standard of review in family
matters is well settled. An appellate court will not
disturb a trial court’s orders in domestic relations cases
unless the court has abused its discretion or it is found
that it could not reasonably conclude as it did, based
on the facts presented.’’ (Footnote omitted; internal
quotation marks omitted.) Princess Q. H. v. Robert H.,
150 Conn. App. 105, 111–12, 89 A.3d 896 (2014). ‘‘It is
within the province of the trial court to find facts and
draw proper inferences from the evidence presented. .
. . In determining whether a trial court has abused its
broad discretion in domestic relations matters, we
allow every reasonable presumption in favor of the
correctness of its action.’’ (Internal quotation marks
omitted.) Powell- Ferri v. Ferri, 326 Conn. 457, 464, 165
A.3d 1124 (2017).
‘‘In pursuit of its fact-finding function, [i]t is within the
province of the trial court . . . to weigh the evidence
presented and determine the credibility and effect to
be given the evidence. . . . Credibility must be assessed
. . . not by reading the cold printed record, but by
observing firsthand the witness’ conduct, demeanor
and attitude. . . . An appellate court must defer to the
trier of fact’s assessment of credibility because [i]t is
the [fact finder] . . . [who has] an opportunity to observe
the demeanor of the witnesses and the parties; thus

A-16
[the fact finder] is best able to judge the credibility of
the witnesses and to draw necessary inferences
therefrom.’’ (Internal quotation marks omit- ted.)
Brown v. Brown, 132 Conn. App. 30, 40, 31 A.3d 55
(2011). ‘‘Appellate review of a trial court’s findings of
fact is governed by the clearly erroneous standard of
review. . . . A finding of fact is clearly erroneous when
there is no evidence in the record to support it . . . or
when although there is evidence to support it, the
reviewing court on the entire evidence is left with the
definite and firm conviction that a mistake has been
committed. . . . Our deferential standard of review,
however, does not extend to the court’s interpretation
of and application of the law to the facts. It is axiomatic
that a matter of law is entitled to plenary review on
appeal.’’ (Citation omitted; internal quotation marks
omitted.) Princess Q. H. v. Robert H., supra, 150 Conn.
App. 112.
Section 46b-15 (a), which governs this case, provides in
relevant part: ‘‘Any family or household member as
defined in section 46b-38a,9 who has been subjected to
. . . a pattern of threatening, including, but not limited
to, a pattern of threatening, as described in section
53a- 62, by another family or household member may
make an application to the Superior Court for relief
under this section. . . .’’ (Footnote added.)
To the extent that the defendant argues that the court
erred because its conclusion was based on a single
statement, namely, his statement that ‘‘injustices will
be paid for,’’ we are unpersuaded. Although the court
responded to the defendant’s question with just one
example from the evidence in support of its
conclusion,10 the court had before it several written
threatening communications that the defendant had

A-17
sent to the plaintiff, including three e-mails and two
text messages.
The defendant also argues that his statements were
taken ‘‘out of context’’ and that he had been referring
to justice within the legal system and within the
context of his religious beliefs. Specifically, he argues
that he was ‘‘manifesting his longing for justice within
the legal system for himself and his children.’’11 In
addition, he argues that he was referring to ‘‘[his] belief
in eternal justice, as long as such e-mail was sent after
a weekly Christian gathering of men where each of the
participants provides his life testimony, and all pray
together for themselves and their families in the
context of eternal life and justice before the Creator.’’
We repeat the well established linchpin of our role on
appeal: ‘‘[W]e do not retry the facts or evaluate the
credibility of witnesses.’’ (Internal quotation marks
omitted.) Krystyna W. v. Janusz W., 127 Conn. App.
586, 591, 14 A.3d 483 (2011). Moreover, as our
Supreme Court has repeatedly noted, ‘‘trial courts
have a distinct advantage over an appellate court in
dealing with domestic relations, where all of the
surrounding circumstances and the appearance and
attitude of the parties are so significant.’’ (Internal
quotation marks omitted.) Brody v. Brody, 315 Conn.
300, 306, 105 A.3d 887 (2015); see also Princess Q. H.
v. Robert H., supra, 150 Conn App. 116.
In Princess Q. H. v. Robert H., supra, 150 Conn. App.
116, this court viewed the trial court’s decision in light
of the surrounding circumstances and context of all the
evidence presented to the trial court. This court
determined that the plaintiff was entitled to a
restraining order pursuant to § 46b-15, on the ground

A-18
of stalking, when the defendant, her former spouse,
drove past her house two times.12 Id., 116–17. The trial
court in Princess Q. H., like the trial court in the
present case, ‘‘heard ample evidence about the parties’
stormy relationship and the fact that the plaintiff and
the defendant were adverse parties in a civil action at
the time of [the conduct giving rise to relief pursuant
to § 46b- 15].’’13 Id., 116.
This court concluded: ‘‘In light of the evidence and the
surrounding circumstances, we conclude that the court
did not abuse its discretion in concluding in the context
of all of the evidence presented to it that the
defendant’s conduct in driving past her home, turning
around, and immediately driving past her home a
second time constituted an act of stalking. The [trial]
court found after consideration of the evidence that
shortly before the plaintiff sought relief under § 46b15, the defendant acted in a manner that constituted
stalking as that term is commonly defined and applied.
The defendant did not testify as to any contrary
explanation for his presence near her home. In light of
the foregoing, the court’s decision does not contain
unsupported findings or reflect a misapplication of the
law.’’ Id., 116–17.
In the present case, although the defendant did, in his
communications to the plaintiff, refer back to the
parties’ legal proceedings and his religious beliefs, the
defendant also expressed, untethered, his negative
feelings, of hatred and anger, toward the plaintiff.14
More- over, he repeatedly emphasized, at length, how
he felt that the plaintiff had ‘‘completely destroyed his
life’’ and was to blame for the hardships he was
facing.15 Thus, in light of the lengthy, repetitive and
hostile nature of the defendant’s communications, and

A-19
the trial court’s ability to supplement the written
exhibits with its observation of the demeanor of the
parties at the hearing,16 the trial court reasonably
could have concluded that the defendant’s written
threatening communications constituted a pattern of
threatening.
Because the record establishes that there was
sufficient evidence to support a finding that the
defendant subjected the plaintiff to a pattern of
threatening, we conclude that the court did not abuse
its discretion in granting the plaintiff’s application for
relief from abuse and issuing a restraining order
against the defendant.
II
The defendant also claims that the court erroneously
ordered him to stay 100 yards way from the plaintiff
except ‘‘when both children are present.’’ The
defendant, in essence, claims that the effect of the
court’s order on his desire to have a relationship with
his children is to burden unreasonably that
relationship in that both children17 have to be present
with the plaintiff in order for the exception to apply.
Specifically, he argues that ‘‘the terms of his
restraining order do not allow [him] to attend school
events if ‘both children’ are not present jointly with the
plaintiff, namely: curriculum night—standard for
children not to be there, sports and school sponsored
events, high school graduation, concerts, church, and
others. The only exception to the restraining order
applies when ‘both children are present’—both U.S.
students. It is also unclear whether [he] can pick up
one, both or none of his children from their home.’’ In
other words, if only one, but not both, of his children

A-20
are with, or within 100 yards of, the plaintiff, he may
not have contact with that child. We conclude that
there is nothing in the record to support the court’s
additional order of protection as modified by the
exception requiring the presence of both children.
The record reveals the following additional facts and
procedural history. The parties have three children
together. At the time that the restraining order was
imposed, on September 12, 2018, one of the parties’
children attended college in Spain, and two of the
children attended high school and lived with the
plaintiff. At the hearing, the defendant explained that,
although the plaintiff was not requesting that the
restraining order extend to the parties’ children, a
court order to stay 100 yards away from the plaintiff
would affect his ability to see his children: ‘‘I could not
kiss my children if I happened to be in church. I cannot
pick up, still, my children from my own house . . . . I
cannot attend my son’s high school graduation if she’s
there. I cannot attend the high school barbecue if she’s
there.’’ The court responded: ‘‘I can always make an
exception for that.’’ The court, at the conclusion of the
hearing, explained its additional orders of protection
that it was going to impose as a result of the
restraining order: ‘‘The [defendant] is to stay at least
100 yards away from [the plaintiff] at all time[s],
however an exception is to be made when the parties
are in the presence of both children. So, in other words,
the order does not apply [for] pickup and drop-off for
the minor child or when you are also in the presence of
the minor child, say at a family gathering or church or
something like that.’’ In its written additional orders of
protection, the court provided that the defendant must
stay 100 yards away from the plaintiff, except when
‘‘both children are present.’’

A-21
As previously stated, ‘‘[i]n determining whether a trial
court has abused its broad discretion in domestic
relations matters, we allow every reasonable
presumption in favor of the correctness of its action. . .
. Appellate review of a trial court’s findings of fact is
governed by the clearly erroneous standard of review.
. . . A finding of fact is clearly erroneous when there is
no evidence in the record to support it . . . or when
although there is evidence to support it, the reviewing
court on the entire evidence is left with the definite and
firm conviction that a mistake has been committed.’’
(Internal quotation marks omitted.) Princess Q. H. v.
Robert H., supra, 150 Conn. App. 111–12.
First, we find ambiguity in the court’s additional order
of protection. Furthermore, we discern no evidence, set
forth in the plaintiff’s application or provided at the
hearing on September 12, 2018, to support such an
order, as modified by the exception requiring the
presence of both children. The plaintiff did not request
that her restraining order extend to the parties’
children. Moreover, she did not testify that she felt as
though she was in physical danger except in the
presence of ‘‘both children.’’ At the hearing, when the
court explained that ‘‘the order does not apply [for]
pickup and drop off for the minor child or when you are
also in the presence of the minor child,’’ with no
mention of an additional child being present, the
plaintiff did not object or express any concern.
Accordingly, the court’s order requiring the defendant
to stay 100 yards away from the plaintiff, and
providing an exception only when ‘‘both children’’ are
present, has no evidentiary basis.
The judgment is reversed only as to the order requiring
the defendant to stay 100 yards away from the plaintiff

A-22
with an exception when both children are present, and
the case is remanded for a new hearing with respect to
any order of protection, if proven necessary by the
plaintiff, in situations where the defendant seeks
interaction with his children and the plaintiff is
present. The judgment is affirmed in all other respects.
In this opinion the other judges concurred.
* In accordance with our policy of protecting the privacy interests
of the victims of family violence, we decline to identify the
applicant or others through whom the applicant’s identity may be
ascertained. See General Statutes § 54-86e.
1 The defendant also claims that the trial court ‘‘should have
exercised judicial restrain[t]’’ and that the restraining order
infringes on his parental rights, his right to freedom of speech,
and his right to freedom of religion. We decline to review these
claims, however, because they are inadequately briefed. See
Tonghini v. Tonghini, 152 Conn. App. 231, 239, 98 A.3d 93 (2014)
(‘‘It is well settled that [w]e are not required to review claims that
are inadequately briefed. . . . We consistently have held that
[a]nalysis, rather than mere abstract assertion, is required in
order to avoid abandoning an issue by failure to brief the issue
properly. . . . [F]or this court judiciously and efficiently to consider
claims of error raised on appeal . . . the parties must clearly and
fully set forth their arguments in their briefs. We do not reverse
the judgment of a trial court on the basis of challenges to its
rulings that have not been adequately briefed. . . . [A]ssignments
of error which are merely mentioned but not briefed beyond a
statement of the claim will be deemed abandoned and will not be
reviewed by this court.’’ [Internal quotation marks omitted.]).
The defendant additionally claims that the trial court erred by
ignoring ‘‘the plaintiff’s [pattern of] advancing civil claims
illegally’’ and violating his right to due process. Those claims,
however, are not supported by the record. See footnotes 3, 5, and
7 of this opinion.
2 The parties had been divorced since September, 2010. They have
three children together, one of whom is a minor.
3 On appeal, the defendant claims that, with respect to this
hearing, the trial court violated his right to due process.
Specifically, he argues that (1) ‘‘[he] was not allowed to ponder the
veracity, accuracy and completeness of the exhibits admitted by

A-23
the . . . court, which gave no consideration to the context, timing
of the allegation, history of the case, fraud, deceit, false
allegations, defamation, and falsehoods of all sorts by the
plaintiff,’’ (2) ‘‘[he] could not submit any evidence to make his case
. . . or to question the [plaintiff] under oath,’’ (3) ‘‘[j]udgment was
rendered from the bench without proper analysis of [his] timely
provided prehearing memorandum,’’ and (4) ‘‘[he] was not allowed
to review and compare [the plaintiff’s] Spanish-English
translation . . . and did not even receive copies of the exhibits.’’
The defendant’s contentions, however, are not supported by the
record.
First, the court specifically asked the defendant whether he had
any evidentiary objection to the documents submitted by the
plaintiff. The defendant objected on the grounds that the exhibits
were selective and that the contents were not relevant. The court
responded that the exhibits were relevant and that he would have
an opportunity to supplement the copies of the communications
provided by the plaintiff. Moreover, the defendant did not, at any
point in time, attempt to submit any evidence, nor did he seek to
question the plaintiff under oath. The court, therefore, did not
deprive him of an opportunity to do so. In addition, with respect
to the defendant’s prehearing memorandum, the record reflects
that the trial court reviewed this document before rendering its
decision. Finally, the record reflects that the defendant did receive
copies of the exhibits and was afforded the opportunity to view the
certified translation. See footnote 7 of this opinion.
4 The defendant refers to these incidents as ‘‘past false
allegations,’’ ‘‘false criminal charges’’ and ‘‘illegal arrests,’’ and
states that he had been arrested for strangulation, or attempted
murder, but the charges ‘‘never came to fruition after various
witnesses interviewed by the police at the time of [his] arrest
corroborated that there never was any violence or threats of any
sort from [him] toward the plaintiff.’’
5 On appeal, the defendant claims that the court erred by ignoring
‘‘the plaintiff’s [pattern of] advancing civil claims illegally . . . .’’
There is, however, nothing in the record to support this claim.
At the beginning of the hearing, the defendant provided the court
with a copy of his thirty-five page prehearing memorandum, with
attached exhibits. The defendant explained that the exhibits
included copies of sworn testimony of the parties from previous
proceedings and that the memorandum was intended to provide
the court with ‘‘the full picture of why this is happening right now;
what is the timing, the context, and the falsehood behind it.’’

A-24
Moreover, at the hearing, the defendant testified, at length, about
what he characterizes as the plaintiff’s ‘‘modus operandi of
advancing civil claims through extortion in the way of false
criminal charges and overall defamation . . . .’’
Nothing in the record supports the defendant’s assertion that the
court ignored his testimony or failed to consider his prehearing
memorandum. See footnote 3 of this opinion. Rather, at the
conclusion of the hearing, the court stated that it had ‘‘listened
very carefully to the testimony of both parties in this case,’’ and
‘‘carefully reviewed the prehearing memorandum submitted by
the defendant.’’
6 The record does not reflect that the trial court created a signed
memorandum of decision in compliance with Practice Book § 64-1
(a) or that the defendant took measures to perfect the record in
accordance with Practice Book § 64-1 (b). The defective record does
not hamper our ability to review the issues presented on appeal
because we are able adequately to ascertain the basis of the court’s
decision from the trial transcript of the court’s oral decision. See
Princess Q. H. v. Robert H., 150 Conn. App. 105, 109 n.2, 89 A.3d
896 (2014).
7 The defendant challenges the accuracy of the translation with
respect to his single statement ‘‘injusticias se pagan’’ which had
been translated into English as ‘‘injustices will be paid for.’’ The
defendant argues, on appeal, that the correct translation is
‘‘injustices are paid.’’ (Emphasis altered.) He argues that because
‘‘there is no future tense in it,’’ it supports his contention that he
made the statement in the context of his religious beliefs.
The defendant argues that ‘‘[he] was not allowed to review and
compare [the plaintiff’s] Spanish-English translation . . . and did
not even receive copies of the exhibits,’’ which violated his right to
due process. The record, however, reflects that, at the hearing, the
defendant was given a copy of the certified translation and
provided with the opportunity to review the plaintiff’s exhibits.
Moreover, to the extent that the defendant argues that he did not
receive advance notice of the plaintiff’s certified translation, he
does not cite any legal authority that entitles him to such notice
nor does he explain how the lack of such prehearing notice
amounted to a deprivation of due process. Therefore, we decline to
review such a claim. See footnote 1 of this opinion.
8 As the terms and conditions of protection, the court ordered that
the defendant must (1) surrender or transfer all firearms and
ammunition, (2) not assault, threaten, abuse, harass, follow,
interfere with, or stalk [the

A-25
plaintiff], and (3) stay away from the home of [the plaintiff] and
wherever [the plaintiff] shall reside.
9 General Statutes § 46b-38a (2) defines a ‘‘[f]amily or household
member’’ to include ‘‘[s]pouses or former spouses.’’
10 As previously stated, the defendant, at the hearing, asked the
court which of his statements constituted a threat, at which point
the court stated: ‘‘Plaintiff’s Exhibit 2; as I said, injustices will be
paid for. Destroying . . . and what you have gained? Destroying
the father of your children, robbing [him], and a job that you hate.
Not even a mentally retarded person acts that way. As I said,
injustices will be paid for.’’
11 At the hearing before the trial court, the defendant testified in
relevant part: ‘‘[I]n other communications simultaneously at the
same time that you don’t have, what I said is that I’m looking for
justice within the legal system. There is no threat of any nature
whatsoever.’’
12 The trial court had granted the plaintiff relief based, in part,
on a pattern of threatening, but, on appeal, this court did not
reach the issue of whether the defendant’s conduct constituted a
pattern of threatening under § 46b-15.
13 Specifically, in her application, the plaintiff averred under oath
that ‘‘the defendant had contacted her on the telephone on several
occasions in 2012; that over the past several weeks, she had
received prank calls from an unknown caller; that the defendant
put his hands around her neck ‘at one time’; that, when she was
married to the defendant, he once told her that ‘he can protect
himself if he had to’; and that she was fearful that the defendant
would try to hurt her or her daughter.’’ Princess Q. H. v. Robert
H., supra, 150 Conn. App. 107. The trial court recognized that
‘‘[t]his is not a case where [the plaintiff] is telling me about a
physical threat, or physical pain or physical injury . . . .’’ (Internal
quotation marks omitted.) Id., 110.
14 For example, as previously stated, he told the plaintiff: ‘‘If you
wanted for me to hate you, let me tell you that [you] have done all
the right things for that to be the case. Time does not heal
anything, it only aggravates things.’’ In addition, he told her that
she was ‘‘generating deep frustration and negativity in [him.]’’ He
also told the plaintiff that ‘‘[her] conduct is irresolute,’’ that she
had a ‘‘[l]ack of intelligence and [was] pure evil,’’ that ‘‘[she] lack[s]
a minimum conscience to understand that decent people don’t do
what [she] did,’’ and implied that she was ‘‘morally and spiritually
sick.’’
15 In addition to stating, several times, that the plaintiff had

A-26
destroyed his life, the defendant also told the plaintiff that he ‘‘had
lost any and all authority because of [her],’’ that she had ‘‘cheated
[him], robbed [him], and swindled [him],’’ ‘‘defrauded [him],’’ and
had destroyed his career. Moreover, the defendant blamed the
plaintiff for his being ‘‘forced to leave the country,’’ which he
describes, on appeal, as ‘‘self-deportation.’’
At the hearing before the trial court, the defendant’s testimony,
in a similar fashion, focused on what he viewed to be the plaintiff’s
‘‘history of deceit, fraud, entrapment, [and] provocations.’’ On
appeal, the defendant likewise dedicated a significant portion of
his brief to summarizing, what he views to be, the plaintiff’s
‘‘threats, abuse, deceit, concealment, fraud, and other misdeeds .
. . which also include perjury [and] false documentation,’’ as well
as the plaintiff’s ‘‘ulterior motives,’’ and ‘‘defamation.’’
16 At the hearing, the defendant acknowledged that he may have
sounded ‘‘frustrated or emotional.’’
17 Although the parties have three children together, their oldest
daughter attends college in Spain. Accordingly, the court’s order,
referring to ‘‘both children,’’ presumably refers to the two children
who live in the United States with the plaintiff.
_______________________________

A-27
APPENDIX D
SUPERIOR DISTRICT COURT OF
STAMFORD/NORWALK
STATE OF CONNECTICUT
STATE OF CONNECTICUT
SUPERIOR COURT
ORDER OF PROTECTION
JD-CL 099 Rev. 10-16
C.G.S. §§ 29-28, 29-32, 29-33, 29-36i, 29-36k, 46b-15,
46b-16a, 46b-38c(d)(e), 46b-38nn, 53a-28(f), 53a-36,
53a-42, 53a-217, 53a-217c, 53a-223, 54-1k, 54-86e, 18
U.S.C. §§ 922(g)(9), 2265 P.A. 16-34
Restraining Order – After Hearing [Order Type]
Family [Case Type]
Stamford J.D. [Superior Court location]
FST-FA18-4031046-S [Case number]
Protected Person
OLIVA SAINZ de AJA, Margarita [Last name/First
name]
7/30/1969 [Date of birth]
F [Sex]
White [Race]
10 Indian Pass, Greenwich, CT, 06830 [Home address]
10 Indian Pass, Greenwich, CT, 06830 [Mailing
address]
452 Fifth Avenue, New York, NY, 10018 [Work
address]

A-28
Respondent (Defendant)
IRAZU, Fernando G. [Last name/First name/Middle]
Respondent Identifiers
7/8/1968 [Date of birth]
M [Sex]
White [Race]
6.02 [Height]
2035708318 [Phone]
Bearded, dirty blond [Distinguishing features/other
identifiers]
X Intimate cohabitant [Relationship to protected
person
(Present or former)]
222 East 75th Street 6C, New York, NY 10021
[Address]

Terms and Conditions of Protection
You, the Repondent, must follow all the orders and
conditions checked or indicated by “X” below:
X
Surrender or transfer all firearms and
ammunition.
X Do not assault, threaten, abuse, harass, follow,
interfere with , or stalk the protected person. (CT01)
X
Stay away from the home of the protected person
and wherever the protected person shall reside. (CT03)
Additional terms and conditions are on the following
pages:

A-29
General Restraining Order Notifications (Family) –
JD-CL-104.; Additional Orders of Protection, JD-CL100.
9/12/2019 [Expiration date (if applicable)]
X
The court had jurisdiction over the parties and
the subject matter, and the respondent was provided
with reasonable notice and opportunity to be heard.
This order shall be enforced, even without registration,
by the courts of any state, the District of Columbia, any
US Territory, and may be enforced by Tribal lands (18
U.S.C §. 2265). Crossing state, territorial, or tribal
boundaries to violate this order may result in federal
imprisonment (18 U.S.C § 2262).
X State law provides penalties for unlawful possession
of firearms, ammunition, or electronic defense weapon
(Connecticut General Statutes § 53a-217(a)(4) and 53a217c(a)(5)). Federal law also providespenalties for
possessing, transporting, shipping, or receiving any
firearm or ammunition while subject to a qualifying
protection order and under the circumstances specified
in 18 U.S.C § 922(g)(8).
By the Court TRUGLIA [Name of Judge]
/s/ Kelly Obrien, AC [Signed (Judge/Assistant Clerk)]
9/12/2018 [Date signed]

A-30
STATE OF CONNECTICUT
SUPERIOR COURT
ADDITIONAL ORDERS OF PROTECTION
JD-CL 100 Rev. 10-14
C.G.S. §§ 29-28, 29-32, 29-33, 29-36i, 29-36k, 46b38c(d)(e), 46b-38nn, 53a-36, 53a-42, 53a-217, 53a-217c,
53a-223, 54-1k, 18 U.S.C. §§ 922(g)(9), 2265
P.A. 14-217 §§ 186-190
Restraining Order – After Hearing [Order Type]
Family [Case Type]
Stamford J.D. [Superior Court location]
FST-FA18-4031046-S [Case number]
Protected Person
OLIVA SAINZ de AJA, Margarita [Last name/First
name]
Respondent (Defendant)
IRAZU, Fernando G. [Last name/First name/Middle]
Respondent Identifiers
7/8/1968 [Date of birth] M [Sex] White [Race]
You, the Respondent, must follow all the orders and
conditions checked or indicated by “X” below:
X Stay 100 yards away from the protected person.
(CT16)
X Other: There is an exception for the 100 yard stay
away when both children are present.

A-31
APPENDIX E
SUPERIOR DISTRICT COURT
OF STAMFORD/NORWALK
STATE OF CONNECTICUT
AFFIDAVIT – RELIEF
FROM ABUSE*
JD-FM-138 Rev. 10-14
C.G.S. §§ 46b-15, 52-231a, P.B. § 25-57
__________________________________________________


Name of Applicant (Your name)
OLIVA SAINZ DE AJA, MARGARITA
Name of Respondent (Person you want a restraining
order against)
IRAZU, FERNANDO G.
__________________________________________________
Statement of Conditions From Which You Seek
Relief
I, the person signing below, duly depose and say that I
am the Applicant in the matter and state as follows:
(Explain for each incident: (1) what happened, (2) when
it happened, (3) where it happened, and (4) who was
there when it happened.)
…………………………………………………………………
I respectfully request the Court to grant the relief
requested in 1 (page 2 of 2 of the Application for Relief)
* This

sworn affidavit relates to the ex parte application for relief
from abuse which was denied on 8/29/2018 (FST-FA-18-4031046S; Sommer, J), granted on 9/12/2018 (Truglia, J), and quoted in
the ruling of the Appellate Court under review (AC 42118).


A-32
for the following incidents and reasons………………….
The Respondent has consistently sent me very
distressing communications for the past years but in the
last few months and weeks (particularly the last 48
hours) his aggressive electronic communication has
been mounting to the point that I am very concerned
about my physical safety. The Respondent has a past
violent history for which he was arrested for domestic
abuse charges and death threats, years ago. He has also
shown signs of mental issues, with an acute sense of
paranoia. The Respondent has not been able to hold a
steady job since our divorce 9 years ago. For all of these
reasons, I have not been alone with him under any
circumstances after our divorce……....……………..
His electronic communication is always hostile and
accusatory and blames me for all his problems,
including that he cannot keep a job or the “prosecution”
he is subject to by Greenwich Police, firefighters or even
the Church. A few months ago, as a consequence of the
escalation of this aggressiveness, I contacted the
Greenwich police department and they advised to
contact domestic abuse services at YWCA, which I did,
and a therapist there suggested a few safety procedures
to follow. I am a s single woman, I work in NYC and
many nights I come back late from work and feel that I
am exposed from potential harm from my ex-husband.
The last few communications from the Respondent
include sentences such as: “Despite that I am currently
forced to leave the country (as things stand right now)
because of you and your lawyer, since I have no
employment and savings (only debts, after living
paycheck by paycheck) as a result of what you have been
doing to me for years, it seems surreal to me”; “If you
wanted me to hate you, let me tell you that you have
done all the right things for that to be the case”; “You

A-33
destroyed my life”; “It’s been nearly 10 years since I
marked a road map for what you had to do and not to
do …. The only thing that would help now is that you
return all that is mine… in addition to repent yourself
and ask for forgiveness.”
(this last sentence as
translated from Spanish and only highlighting
relevant text). The Respondent has his residence in
NYC but spends almost every day in Greenwich.
Because the Respondent has stated that he hates me, his
progressive mental issues, his notorious mounting
frustration with me, lack of a job, and implicit (and not
so implicit) threats in [these] communications, I
respectfully ask the Court for protection as I feel I am in
danger of physical harm…………………………………...
Statement Concerning Temporary Custody of
Children
X I am not asking for temporary custody of any minor
child or minor children in this matter.
__________________________________________________
I certify that the statements above are true to the best
of my knowledge and believe.
Signature /s/ Margarita Oliva Sainz de Aja
Print name of person signing MARGARITA OLIVA
SAINZ DE AJA
Subscribed and sworn before me (Assistant Clerk,
Commissioner of Superior Court, Notary Public)
/s/ [Illegible] Date signed 8/29/2018

A-34
APPENDIX F
SUPERIOR DISTRICT COURT
OF STAMFORD/NORWALK
STATE OF CONNECTICUT
EXCERPTS FROM OFFICIAL TRANSCRIPTS,
FST-FA-18-4031046-S, HEARING OF 9/12/2018
BEFORE HONORABLE
ANTHONY TRUGLIA, JUDGE
Topics: Issue of recent pattern of threats versus
implied threat in Spanish; Plaintiff’s lack of
credibility and past events; Defendant’s
allegation of abusive pattern; inability to ponder
veracity, accuracy, and completeness of exhibits;
no copies of evidence provided, only posthearing via clerk’s office; ruling from the bench.
“THE COURT: Under oath, when did he send this
text? MS. OLIVA: So one of them was sent I believe
on August 28th. THE COURT: 2018? MS. OLIVA: Yes.
THE COURT: Okay. MS. OLIVA: …. basically, the
common line here, you have destroyed my life, you
have to pay for it. And this is just very, very disturbing
and concerning, Your Honor. THE COURT: He said
you have to pay for it. MS. OLIVA: Well, he doesn’t say
that specifically, but yeah, in some cases ----- [… ]
…THE COURT: … So I do see texts or the emails and
I certainly see how a person might feel that there is an
implied threat here; as I said, comma, injustices will be
paid for. MR. IRAZU: I don’t see the translation
reflects most likely accurately the Spanish version. So
I most likely -- it could be the case that they’re playing
with the words to --because in other communications

A-35
simultaneously,* at the same time that you don’t have,
what I said is that I’m looking for justice within the
legal system.
There’s no threat of any nature
whatsoever…[…]…So what I’m trying to say is that the
plaintiff has a history of deceit, fraud, entrapment,
provocations that it goes to years. THE COURT:
Perhaps she does, sir, but I also have in front of me
communications from you, which are very recent, in
which I could find, if I were her, unsettling…
[…]….THE COURT: ….the issue directly before the
Court right now, which is whether there has been a
recent pattern of threatening by you with respect to
her. I agree with you that there have been no direct
3

* In the Appellate Court’s ruling of 4/23//2019 three written
exchanges addmited by Judge Truglia are detailed. They are
dated 3/29/2018, 4/27/2018, and, four months later, 8/28/2019, the
day before the Responded filed her ex parte petition for relief from
abuse. On 8/26/2018 the parties saw each other in the presence of
their children at church in Greenwich –the Petitioner greeted his
children before her–, without anything out of the ordinary. Please
note such exhibit relates to an email sent after a weekly Christian
gathering of men where all participants provide their respective
life testimony and pray for themselves and their families in the
context of eternal life and justice before the Creator. In the
Appendices to the Defendant-Appellant’s Brief before the
Appellate Court, AC 42118, the complete written exchange could
be appreciated (not provided by the Plaintiff to the district court),
in which this party also requests from the Plaintiff not to defame
him any longer, as well as emails from the Plaintiff in anticipation
of her ex parte petition, even during such same day of 8/29/2018,
about unilateral parenting against court orders and others with
the mere goal generate inflammatory responses. In particular,
after such request was denied on 8/29/2019 (something unknown
to the Defendant until he was summoned to the 9/12/2018 hearing
on 9/5/2018), and including exchanges with his own son as a result
of his mother cancelling plans or making alternative
arrangements for this party not to see him after driving for an
hour from New York City to Greenwich during Labor Day
weekend in 2018.

A-36
threats, but I do find that the applicant has carried the
burden of proof that she has been subjected to a recent
pattern of threats. I think some of the language here
does imply -- does carry implied threats that could be
unsettling. And -- MR. IRAZU: Could you tell me
which one? … Because I don’t see any threats here.
THE COURT: Plaintiff’s Exhibit 2; as I said, injustices
will be paid for …. As I said, injustices will be paid for.
MR. IRAZU: What – she didn’t provide the copies of
them so I don’t know exactly --- MS. OLIVA: Your
Honor, that’s exactly the two emails he doesn’t have a
copy of because I didn’t. I gave him the translations of
the ones, but those ones was originally in English so he
didn’t have the copy of it, but you have it…. THE
COURT: … The Court finds that the applicant has
carried her burden of proof that she has been subjected
to a pattern of threatening by the respondent. The
Court makes the following orders. The respondent will
not assault, threaten, abuse, harass, follow, interfere
with, or stalk the protected person and the respondent
will stay away from the applicant’s home and wherever
she may reside. The respondent is to stay 100 yards
away from the applicant at all time …. MR. IRAZU:
Could I get copies of the exhibits so I can --- THE
COURT: Absolutely, sir. Absolutely. MR. IRAZU:
That’s appreciated...”, Hearing before Judge Truglia, p.
7, lines 1-15, 17-19, p. 13, lines 13-24, p. 16, lines 1420, p. 25, lines 8-22, 27, p. 26, lines 1-4, p. 28, lines 216, p. 30, lines 1-12.
Topic: Longing for justice within the legal
system, no threats; Defendant’s court-related
neuropsychological studies: sane individual,
peaceful, non-violent, no record of violence.

A-37
“MR. IRAZU: So what I’m saying -- if saying that I’m
pursuing justice within the legal system is considered
a threat, I wonder [about] criminal threats of me
paying, I have plenty of emails from her and this is the
way she’s supposedly making me pay; defaming me
and the Court taking as, in principle, I assume, true
facts that are false. Because [it’s been] already proven
before the Court that I’m a sane man, that I’m a
nonviolent, peaceful man, that I pose no threat to
anybody, and that I haven’t threatened anybody. So in
order to say that someone has threatened, there has to
be something concrete.”, Hearing before Judge Truglia,
p. 26, lines 8-19.
Topic:
Judgment
post-consideration
of
Greenwich-related illegalities; district court’s
inquiry about Plaintiff’s neighbor [Mr. Peter
Tesei, First Selectman of Greenwich] and
Defendant’s presence in Greenwich.
“MR. IRAZU: …. And I also -- I’d like to point out what
would [not] be in [a] sane mind after going through two
criminal cases, after the spurious allegations of
threats, telling me that I would be threatening her
again to have something of this sort and that I would
be putting my life in the hands of people who abused
me, persecuted me, followed me around town as if I
were a peril to the community, and for years. I honestly
can’t see any peril, Judge. THE COURT: Sir, you live
in New York right now, right? MR. IRAZU: I do. THE
COURT: So there’s no reason for you to come to
Connecticut other than to see your children, correct?
MR. IRAZU: With this [case]. I do have friends in
Greenwich. THE COURT: Okay. MR. IRAZU: Okay.
THE COURT: Do they live across the street from your
wife --- ex-wife?
MR. IRAZU: Say again? THE

A-38
COURT: Do they live across the street from your exwife [where Mr. and Mrs. Peter Tesei reside]? MR.
IRAZU: No.”, Hearing before Judge Truglia, p. 27, lines
4-27, p. 28, line 1.
Topic: No copies of evidence provided, only posthearing at clerk’s office; objections and further
claims as to evidence admitted by district court;
outstanding civil issues before the legal system.
“THE COURT: … As I said, injustices will be paid for.
MR. IRAZU: What – she didn’t provide copies of them
so I don’t know exactly ---- MS. OLIVA: Your Honor,
that’s exactly the two emails he doesn’t have a copy of
because I didn’t …”, Hearing before Judge Truglia, p.
25, lines 25-27, p. 26, lines 1-4.
“THE COURT: -- do you have an evidentiary objection
to admissibility of those documents into evidence so the
Court can see them. MR. IRAZU: Yes. I think the way
it was portrayed, it is inadmissible in the sense that it
its irrelevant because there is no implied threat if it
were not for the twisting appreciation of what’s
happening here, number one. And, number two, the
exchanges are not complete in the sense that if you
take this out of context of some communication that
we’ve had over the last several weeks, it is impossible
to fully comprehend and appreciate what this whole
thing is about. … […] … THE COURT: But if your
only objection is relevance or lack of completeness, I’m
going to overrule that objection because I think they
are relevant. …[…] … THE COURT: So I’m going to
overrule the objection. They’re full exhibits. … […] …
Do you have copies for Mr. Irazu of these exhibits? MS.
OLIVA: Sorry, no I don’t. THE COURT: Do you not?
MS. OLIVA: I’m more than happy -- oh, I have one of

A-39
the translations if he needs one, but --- [not the illegible
original used to concoct such translation]”, Hearing
before Judge Truglia, p. 10, lines 2-14, p. 11, lines 5-8,
14-15, p. 12, lines 24-27, p. 13, lines 1-2.
“MR. IRAZU: ….And, needless to say within this
pattern of falsehoods --- and I haven’t actually seen the
translation [Spanish versus English], which I can tell
you right now most likely has been concocted to reflect
that to you. I don’t have a copy for me to tell you, but I
certainly object the veracity of the translation if that’s
the case because I cannot recall in any way or fashion
whatsoever having told her specifically right now in
this context when they made offers in the past to pay
me. So when you talk about paying, you are certainly
talking about settling an outstanding civil issue.”,
Hearing before Judge Truglia, p. 26, lines 20-27, p. 27,
lines 1-3.
Topic: Risk of criminal charges, applicable
standard; co-parenting obligations to dialogue
and confer; illegal background of the case; abuse
of process and illegitimate advancement of civil
claims.
“THE COURT: Okay. Now, sir, you don’t’ have to fear
the police as long as you abide by this order. By if you
do violate the order, I’m advising you it is a class –
potentially a class D felony. MR. IRAZU: That’s my
fear. THE COURT: I know. So it’s very simple. Don’t
contact her. MR. IRAZU: But I have to. If I’m -- if she
contacts me …”, Hearing before Judge Truglia. p. 28,
lines 26-27, p. 29, lines 1-7.
“MR. IRAZU: So -- and she’s still actually working out
or [building] up simultaneously in different fronts,
with the help of different people, to be able to come up

A-40
with civil restraining order, which, if this is the
standard to grant it, I don’t know what will be the
standard taken to consider that restraining order
broken. And who will be the person to determine if
there is a crime as a result of that, the Greenwich
Police Department who arrested me twice illegally and
with police brutality? --- Who --- and everything was
discovered for what it was. So this is the entire
background of the case … THE COURT: I understand
that. Okay. I promised you that I would read your
brief and I’m going to do that right now.”, Hearing
before Judge Truglia, p. 19, lines 26-27, p. 20, lines 116.
Topic: Defamation and entrapment; courtrelated
neuropsychological
studies:
sane
individual, non-violent, peaceful, no record of
violence; pattern of abuse of process, falsehoods,
and deceit, as well as of illegitimate
advancement of civil claims; status quo of
contempt to court regarding co-parenting;
infringement on parental rights.
“MR. IRAZU: …. And if we talk about history, I want
to be really honest with you. I’ve been here 10 years
and I lost everything in my life here. And -- but the
good part of it is that her claims were considered false,
insufficient, unsubstantiated and rejected by the civil
court in the divorce trial, by the criminal court twice,
and by the Department of Children and Families of the
State of Connecticut. I was accused of abuse against
my own children. So I was accused of being mentally
insane.
I had to undergo ten evaluations with
independent psychiatrists and psychologists. One was
appointed by the Court. They all expressed on the
record that I’m not a violent man, I never had any

A-41
history of violence in my life. And they also said that I
was not a peril to either my wife at the time, to my
children, nor not anybody in society. I never had any
incident of any nature whatsoever in 10 years.
Furthermore, it was proven --- and I have all the
record. Unfortunately its 10 years and maybe a
snippet could be portrayed as something lethal, but is,
again, false.
That the other party had issued
numerous threats against [me]; criminal, but more
importantly, to advance civil claims by resorting to a
strategy that has worked very well for her within the
Court and outside the Court, which is using the
criminal angle, now with a civil restraining order, to,
in this case, prevent me at a critical stance from
exercising my parental rights and defending my
patrimony, the remaining whatever I have left right
now --- … […] … And then, furthermore, what I’m
trying to portray -- not portray, but certainly convey to
you before you rule, is that there is a pattern, a proven
pattern, of threats to use the legal system for improper
purposes. We have 10 years of this situation and this
is a core claim I’m making. I don’t know if you are
aware -- obviously not – in ten years that she filed a
divorce claim, fraudulent, in Spain last year, trying to
duplicate almost half a million dollars that she had
received here. She represented in Spain -- this is
exhibits admitted by the Court -- false documentation..
She claimed that we got married in Spain when we got
married in the United State. And she set our residence
and domiciles in Spain to activate Spanish jurisdiction
against U.S. jurisdiction, U.S laws, and U.S.
judgments. I got to learn this a year later because I
[was] declared in contempt of court by the Spanish
court for not answering summons I had never seen or
received. We’d litigated here, these things. There are

A-42
exhibits before the Court. So what I’m trying to say is
that the plaintiff has a history of deceit, fraud,
entrapment, provocations that it goes for years. THE
COURT: Perhaps she does, sir, but I also have in front
of me communications from you, which are very recent,
in which I could find, if I were her unsettling. MR.
IRAZU: How about the communications that I’d
received from her precisely trying to -- because it was
proven on the record -- not in my case, in her case -assault, criminal threats, and these same threats of
using the legal system to preclude the free mobility and
the exercising of my rights to advance civil claims.
This is the core claim that I’m making -- and I have
evidence of that … [ …] …. So as a result, the core issue
here is that she’s been violating these court orders for
a long time. And what she’s trying to do, by obviating
this, in my view, false and illegitimate order is not to
comply or purge, retroactively, saying that there’s been
a pattern of this for many years as the defense for
contempt to court, number one. And, also, to take as
valid a risk that is not there because there is no risk
historically of physical harm. There’s never been one.
And the civil restraining order that she got last time
was also false. And the purpose for that was to get a
stipulation by which she could [retain] exclusive
residence over the house. So she used that as a chip to
bargain that because a day prior to that I got financial
information proving her misdeeds from the house.
This is on the record. I have on the record threats of
extending [a] criminal process by her and her counsel.
THE COURT: But, sir, that was long time ago. What
I’m talking --- MR. IRAZU: What I’m trying to say is
that nothing has changed now as long time ago. See,
there was no criminal -- no physical danger or peril for
her of any kind then; there is none here, either. THE

A-43
COURT: Okay. MR. IRAZU: And there is a pattern
of falsehood, fraud, deceit, concealment --- ... […] … So
this angle of me being mentally insane, of me being
violent, of me being a risk where there is no risk of
anything. We have 10 years of tragedies that I endured
and we only saw each other, I believe, face to face in
proximity, with the exception of court appearances
that were obviously quite numerous, only four times
that I can recall. And also, when they had a chance to
make their case in multiple hearings, they never said
anything, anything about threats, about a risk of
physical harm. So my view of the [current] case, that
if you’re going to restrict someone’s freedom somehow
at this juncture under those allegations, they have to
be truthful. And I proved before the Court that there
is, on the other hand, a patter of deceit from the other
side. And a pattern of a nonviolent and innocent man,
who has been behaving within the parameters of the
law, who has done everything possible for his family.
And I just want what’s best for my children.’ Hearing
before Judge Truglia, p. 13, lines 25-27, p. 14, lines 127, p. 15, line 1-2, 18-27, p. 16, lines 1-27, p. 17, lines
1-3, p. 18, lines 9-27, p. 19, lines 1-10, p. 23, lines 6-26.
Topic: Plaintiff’s lack of recollection as to ongoing proceedings before Appellate Court;
outstanding litigation regarding minor children
and financial issues.
“THE COURT:
Ma’am, are there post-judgment
proceedings regarding your children going on right
now? MR. IRAZU: Yes. THE COURT: I’m talking to
her, Sir. MR. IRAZU: Oh, my apologies. MS. OLIVA:
Your Honor, I think -- in in his app --- I mean in his
original file his claims and appeal, there are some
points regarding the children. It’s more about him

A-44
complaining that I’m not co-parenting with him and
I’m not following the standards of co-parenting. I don’t
think there’s anything that I can recall in connection
with visitations or rights of the children. Because two
of our children are already over 18 and we have a minor
of 15-year-old. THE COURT: Okay. MS. OLIVA: So
in theory, the only in common here would be the minor.
But I don’t think, as far as I recall --- I may have
forgotten, but I don’t think there is anything specific in
those proceedings and those appeals related to -something specific related to the kids. THE COURT:
Okay. MS. OLIVA: That’s my recollection. THE
COURT: The memorandum of decision of Judge
Heller, March 2nd, 2018, I don’t have the text of that in
front of me. That concerns property division? MR.
IRAZU: To some extent, yes. THE COURT: Okay.
Does it concern the children? MR. IRAZU: Yes, in the
sense that I requested custody of the minor children.
At the time there were two and now time has obviously,
you know, expired [with] the case of two children that
are of legal age. And also is in question the residence
of the house and I ask for an equitable adjustment
because I paid for the location of my children in the
United States. And my daughter was sent to Spain and
I fear that could happen with my son next year. So
these issues, my three kids are American. It is very
likely she will probably try to relocate to Spain. It’s
been a threat and it’s been planned via a process in
Spain with custody orders from Spain over minor
children in violation of Chafin, which is a precedent
from the Supreme Court, unanimous.”, Hearing before
Judge Truglia, p. 21, lines 12-27, p. 22, lines 1-27, p.
23, lines 1-5.

A-45
Topic: Curtailment of Defendant’s fundamental
rights; inclusion of an exception to children of
the couple without party request.
“THE COURT: …. The respondent is to stay at least
100 yards away from the applicant at all time, however
an exception is to be made when the parties are in the
presence of both children. So, in other words, the order
does not apply where pick up and drop off for the minor
child or when you are also in the presence of the minor
child, say at a family gathering or church or something
like that. Okay? Sir, this order remains in effect for
one year, which is September 12th --- 2019? THE
CLERK: Yes.”, Hearing before Judge Truglia, p. 28,
lines 10-24.
Note: the aforesaid written exception reads as follows:
“There is an exception for the 100 yard stay away when both
children are present.” Please see Appendix D.

Topic: Defendant’s pre-hearing memorandum;
exhibits, evidence and witness testimonies;
judgment from the bench; Judge Heller’s ruling
on
Plaintiff’s hateful, disrespectful and
intemperate sayings toward Defendant.
“MR. IRAZU: I don’t know -- I don’t know if you
received it, but I flied a pre-hearing memorandum for
this occasion … addressing all the issues and my
position about it … So I don’t know if it was handed to
you. THE COURT: I do not have it at the moment.
MR. IRAZU: I think I have a copy. THE COURT:
Okay. All right. Have you seen this pre-hearing
memorandum, ma’am? MS. OLIVA: I have, Your
Honor, yes. Okay. Good. Okay. THE COURT: Okay.
Okay. The court has just received a pre-hearing
memorandum, which appears to 35 pages long, plus

A-46
exhibits. MR. IRAZU: The exhibits are the petition
from the plaintiff and also some sworn testimonies that
we had over the years before the Court. So the idea is
to give you a full background of the case for you to have
in your hands all the elements to make a decision. I
don’t know if you are aware, but the entire case is
under the Appellate Court right now. Multiple --- THE
COURT: I am not aware of, sir. MR. IRAZU: Multiple
issues that are, you know, pending of review by the
Appellate Court. And we might have, if the Appellate
Court so decides, an oral argument. Or the other way
around if the Appellate Court [ ] decides to rule on the
merits of the case as it is right now. So just to give you
further background.”, Hearing before Judge Truglia, p.
2, lines 1-27, p. 3, lines 1-11.
“MR. IRAZU: Yes. The first comment that I’d like to
make, probably for me to be able to plead my case, is
for you to fully read my memorandum that I submitted
to the Court two days ago so you can have the full
picture of why this is happening right now; what is the
timing, the context, and the falsehood behind it in the
sense that there’s never been any threats, there’s never
been --- any risk about it.”, Hearing before Judge
Truglia, p. 9, lines 11-20.
“MR. IRAZU: Let me tell you a little bit of the
simultaneous communications because you seem to be
ready to rule in that direction, although I would
appreciate, if you’re so kind, to read my memorandum.
THE COURT: Well, sir, it’s a 35 pages long plus
exhibits. MR. IRAZU: No, exhibits is just the -- the
affidavit filed by the other party and, actually, sworn
testimonies of people, who already testified before the
Court, saying that there has never been any threat,
that there’s never been any -- any violence, and that

A-47
the only reason for this to happen in the end at this
juncture is for me not to be able to exercise my parental
rights. Because under court orders we are mandated
to dialogue and confer. THE COURT: To do what? […]
MR. IRAZU: To confer. THE COURT: To confer.”,
Hearing before Judge Truglia p. 17, lines 16-27, p. 18,
lines 1-8.
“MR. IRAZU: --- what I could do also to provide you
[with] is, for instance, we had a hearing before Judge
Heller. Then she sent me an email saying that a
marshal had to be summoned by the judge for the
protection of [all people present]. That never happened
… There is nothing of such sort in the transcripts. So
what I’m trying to say is that the defamation and the
set up, it goes beyond perplexion to me. And obviously
there is a [concrete] risk in this context that I faced
before and I don’t want to face again. THE COURT:
I’m sure you don’t. MR. IRAZU: Because I don’t
deserve it.”, Hearing before Judge Truglia, p. 20, lines
19-27, p. 21, lines 1-5.
“MR. IRAZU: … And I can tell you right now that it is
frustrating to me that it was also incorporated and
justified by Judge Heller, despite me not having
received the relief that I thought was just, Judge Heller
said -- not only frustration, she said it is appropriate to
be outraged.
And she also said, in terms of
communication, that the plaintiff’s way of
communicating to me is disrespectful and intemperate.
So it’s very easy to cry wolf when you’re trying to. And
that’s the underlying problem that we are facing here.
This has been validated by witnesses before the Court.
They said that there were no allegations of violence,
there were not threats of any kind, people who
interacted as liaison between the two of us for many,

A-48
many years. And what I can tell you when I said that
my personal situation – personal situation at this
present time is harsh, it was significantly harsher
before. I was taken to the brink, I thought about my
life. And this strategy being deployed on both sides of
the Atlantic, I wouldn’t --- most likely I could have a
criminal case in Spain without me knowing about it. I
could have someone fighting for a restraining order in
Spain without me knowing about it because it
happened before. So I apologize if I sound frustrated
or emotional, but this is not --- we’re not talking about
minor things here. And if I express my frustration
based on my values -- and it is nothing more than that
– we have 10 years to prove for that.”, Hearing before
Judge Truglia, p. 23, line 27, p. 24, lines 1-27, p. 25,
lines 1-2.

A-49
APPENDIX G
APPELLATE COURT
STATE OF CONNECTICUT
AC 41455 (including AC 41598) /
AC 42118
)
APPELLATE COURT
MARGARITA O.
) STATE OF CONNECTICUT
V.
FERNANDO GABRIEL IRAZU ) January 18, 2019
MOTION FOR RECONSIDERATION EN BANC*



Fernando G. Irazu, Pro Se (the “DefendantAppellant” or “Defendant”), in the above-referenced
matters related to Margarita O. (the “PlaintiffAppellee” or “Plaintiff”) and pursuant to Practice Book
Sec. 66-2 (d) and 71-5, respectfully files this timely
Motion for Reconsideration En Banc regarding his
Amended Request for Relief of 12/19/2018 per order of
the Court of 1/9/2019, all in light of the Court’s final
judgment post-oral arguments next 1/22/2019.
I. BRIEF HISTORY OF THE SUBSTANTIVE
CASE

This is a father’s rights case within family
proceedings arising from the parties’ divorce at the
Superior District Court of Stamford last 9/2/2010. The
parties have three (3) children fruit of their union:
xxxx DOB 11/4/1998 (of legal age), xxxx DOB 7/31/2000
(of legal age), and xxxx DOB 5/26/2003 (of sixteen (16)
* The Appellant’s motion was denied on 1/22/2019, the very same
day oral arguments took place before the Appellate Court on
AC41455 (AC41598) and AC42118.


A-50
years old in four (4) months time). Due to litigation
ignited by the other side on 12/15/2015 and the
resulting Stipulation of 6/10/2016 (Tindill, J) (all
children were minor at the time), this instance is
reached as a result of timely appealed rulings during
2018 in connection with the prior and ancillary from
Heller, J. (motion for contempt to court and order postjudgment modification against the Plaintiff, alleging
fraud, and including a timely motion to open; last
3/2/2018 and 5/14/2018; AC 41455), Genuario J.
(motion for disqualification [Heller J] and to attest
federal jurisdiction; last 4/24/2018; AC 41598), as well
as Truglia J. (civil restraining order against the
Defendant; last 9/12/2018; AC 42118). Attorney Kevin
Collins has represented the Plaintiff-Appellee in all
proceedings since 2010. The Defendant-Appellant has
acted as a pro se father since 2009 –including most of
the divorce process as well as pre-trial and trial. The
Plaintiff misstated the aforesaid in a preposterous yet
false and malicious formal fashion:
“…. the Defendant attempts to raise issues and
appeal a stipulation entered on or before June
10, 2016 thus far exceeding the 20 days
limitation to appeal an issue by two and a half
years.”, Plaintiff’s Opposition to the Defendant’s
Amended Request for Relief, page, 5, Attorney
Kevin Collins.
II.
SUMMARY
FACTS
AS
PROCEDURAL HISTORY AND RECORD

TO

In line with the above-quoted lines, the PlaintiffAppellee has purposely and maliciously misstated the
procedural history and records of this overall case in

A-51
her own briefs and other filings, as if this party had
ignited a long-lasting litigation of a decade when in fact
he has never sued anybody in his entire life in any
court, either local or federal, at the domestic or
international levels. This overall abusive, vexatious,
unethical and destructive litigation is the exclusive
result of the other party’s reproachable behavior.
The other party falsely claimed the Defendant
pursued the appeal of the orders of marital dissolution
(Malone, J) and Memorandum of Decision (Harrigan,
J) of 9/2/2009 as follows:
“Within
five
days
thereafter,
the
Defendant/Appellant, Fernando Irazu, filed a
document which he entitled a Petition for
Certification which was ultimately denied by the
Court (Malone, J) on November 19, 2010.” ,
Plaintiff’s Opposition to the Defendant’s
Amended Request for Relief, page, 1, Attorney
Kevin Collins.
As highlighted in prior filings, the Defendant
never pursued such an appeal, he rather filed a
Petition for Clarifications (# 151) under applicable
normative, which was in fact denied by the lower court
(Malone, J) (please see Appendix I). The Defendant did
not need the consent of the lower court to appeal its
ruling of marital dissolution; he in fact consented to it,
complied with all of its financial orders in excess, and
requested a clarification of his own rights.
At this instance, in 11/2010 the lower court
(Malone J) decided: (i) not to clarify any orders; (ii) to
unexplainably sequester $27,000 from the Defendant

A-52
without his knowledge while he was “self-deported” in
Argentina, and after him complying will all financial
orders in the divorce decree in excess; (iii) to
personally appoint Attorney Kevin Collins as trustee of
those sequestered funds (not as a contentious party
counsel, the role he immediately assumed); and (iv) to
change the ownership of the Plaintiff’s $1,000,000 life
insurance policy (not the one of the Defendant, thus
once more displaying an unequal treatment of the
parties) in favor of her.1 4
Such petition for clarifications was filed
following the shared religious beliefs of both parties, as
also acknowledged on the record before the lower court
by the Plaintiff-Appellee, which is an issue of relevance
in connection with many aspects of this overall case,
needless to say the civil restraining order (Truglia J)
under appeal before the Court per AC 42118.
“MR. IRAZU: Does your husband have firm
religious commitments? MS. O.: I don’t know
what your position is at the moment. MR.
IRAZU: Over the last decade, has your husband
displayed very firm religious commitments. MS.
O.: Yes, you have; and they were all shared by
me.” Divorce Trial before late Judge Harrigan,
6/10/2010, page 58, lines 18-22.
On 7-8/2011, the Defendant was erroneously
declared in contempt to court (Wenzel, J) for nonexistent debts and under literal threats of
incarceration. Subsequently, the officiating magistrate

1 Appendix to the Defendant-Appellant’s Brief (AC 41455), IVc.,
Order # 153 [A 104-108].
4

A-53
honorably advised him on the record to appeal his own
ruling as follows:
“THE COURT: I must tell you that that relates to
the motion to contempt. That is something that
again, right or wrong, I made a decision. And if
that’s not a good decision, then you have your
right to appeal ... […] ... Well, if at any time you
think that any decision I make is wrong, you have
the right to appeal. And if I do make a bad
decision, an incorrect decision, I want that to be
fixed as much as anyone else. So please, feel free
if you need to take an appeal, you should do so. I
don’t take any offense at that. Many people, many
lawyers do it here. I get used to it. Okay?”, BY
THE COURT s/. Wenzel, William, J, 2/17/2012.2 5
The other party misleadingly stated:
“Subsequently, the Defendant/Appellant filed
an Appeal to the Appellate Court on February
24, 2012 and the Appellate Court affirmed the
trial court’s decisions.”, Plaintiff’s Opposition to
the Defendant’s Amended Request for Relief,
page, 1, Attorney Kevin Collins.
The Defendant followed Judge Wenzel’s
recommendation as to his own ruling of contempt (AC
34364), but the Court confirmed the ruling he
mistakenly entered into. More than a year later, this
party did not and could have not appealed the orders
of marital dissolution and Memorandum of Dissolution
of 9/2/2010, irrespective of what might have been
2 Exhibit QQ [Petition for Writ of Certiorari before the US Supreme
Court, Appendix D], Hearings of 7/11-13/2017 before Judge Heller.
5

A-54
affirmed or not regarding a specific and erroneous
ruling of contempt to court, and the illegal mechanism
of attempting to deprive this party of his hard-earned
patrimony of a lifetime in time. The other party
misleadingly stated:
“Not having found satisfaction with the
Appellate process in the Connecticut judicial
system [following the recommendation of Judge
Wenzel to appeal his own judgment of contempt],
the Defendant/Appellant took his family courtrelated grievances to the Federal level, also
without success. On February 12, 2013, the
Defendant/Appellant filed a Writ of Certiorari
with the US Supreme Court to which the
Plaintiff waived her right to respond. The
Petition was denied on April 13, 2013.”,
Plaintiff’s Opposition to the Defendant’s
Amended Request for Relief, page, 1, Attorney
Kevin Collins.
The Defendant never sued or litigated in
“federal court” as also falsely claimed by the other
party in prior briefs and filings, he rather followed the
recommendation of personnel from the Court’s law
clerk office to overturn the lower court’s ruling of
contempt that Judge Wenzel had specifically advised
him to pursue. This appeal ended up in such Petition
for Writ of Certiorari (the certification before the
Connecticut legal system operated within the same day
for that to be the case), which was also admitted as
evidence by Judge Heller during the hearings of 7/1113/2107.36

6

3

Id. 2.

A-55
On 12/19/2018 the Defendant filed an Amended
Request for Relief, which was denied by the Court on
1/9/2019.
In connection with such request, the
Plaintiff-Appellee erroneously stated:
“The Appellee’s ‘Amended Request for Relief’”,
filed without permission to amend his original
relief, stunningly misunderstands the function
of the Appellate Court. His filing views the
Appellate Court as a super trial court which will
enter relief for issues not properly before it and
relief this Court simply cannot produce due to
mootness, failure to appeal timely, and
jurisdictional concerns.”, Plaintiff’s Opposition
to the Defendant’s Amended Request for Relief,
page, 4, Attorney Kevin Collins.
As opposed to such misleading, false and
mistaken statement, please note that from a
procedural standpoint this filing does not actually
“amend, modify or alter” the relief properly sought
before the trial court and the Court itself, as a result of
timely appealed rulings via now three consolidated
cases for oral argument by the Court next 1/22/2019,
which was succinctly referenced in each of the
respective briefs, appendices and filings under the
concept of a directed judgment by the Court and not a
new trial.47 Such request for relief rather condenses in
one single document for the benefit of the Court all
relief duly sought by this party from the lower court,
which was denied and/or ignored in final rulings timely
4 Defendant Appellant’s briefs and reply-briefs per AC 41455, AC
41598, AC 42118, as well as specific relief sought at the trial court
level and the Court itself properly referenced in Appendix III:
Request for Relief, a, b and c. (AC 41455) [A 34-45; 46-66; 67-85].
7

A-56
appealed before the Court in 2018 through three
distinct though inevitably interconnected cases: AC
41455, AC 41598, and AC 42118. It is nonetheless true
that some of such initial relief contained items seeking
the sole physical custody of minor children who are by
now of legal age, sole residence over the family home,
as well as specific budgets related to their living
expenses and ancillary which are therefore
inapplicable at the present time for the mere passing
of time, including the fact the Defendant is being
prompted to relocate to Argentina because of the
targeted destruction of his professional life and
financial health. In this regard, the relief has in fact
been updated to reflect three combined cases before the
Court as well as such significant change of
circumstances and the passing of time in the lives of
three children due to unethical delays before the legal
system; not the substantive measures at stake related
to contempt to court, fraud, legal and equitable
financial remedies and adjustments, insurance policy
modifications, injunctions, lifting of a civil restraining
order, legal fees, restitution of funds, as well as
sanctions for unethical conduct and ancillary.
Under a de novo or plenary standard of review
the Court owes no deference to rulings from the lower
court, and per applicable normative it possesses all
necessary jurisdiction and competence to grant any
and all relief sought by this party. There is no evolving
trial before the Court, rather the judicial task at hand
of proper review and scrutiny of facts, evidence and
applicable law. Any reference to the contrary from the
other side is ludicrous and lacks any legal grounds.
With due respect before the Court, in light of the
outrageous recurrent falsehoods from the other side,

A-57
the Defendant is left to wonder what is left to entertain
of their claims and filings.
The Defendant relies on all filings on record;
rulings from the lower court; correspondence to and
from the lower court as well as party counsel; evidence
admitted and rejected by the lower court, which was
submitted to the Court; testimonial evidence and
representations from party counsel submitted to the
Court through official transcripts and specific quotes
in the Defendant’s briefs and appendices; rulings and
words from officiating magistrates submitted to the
Court through official transcripts and specific quotes
in the Defendant’s briefs and appendices; as well as all
proper filings and evidence submitted to the Court
itself, in particular:
(i)
Memorandum of Marital Dissolution of
9/2/2010 (#150).
(ii)
Defendant’s Petition for Clarifications of
9/7/2010 (#151) [not a petition for certification to
appeal].
(iii) Order # 153 of 11/5/2010 from Malone, J (#153).
(iv) Defendant’s Child Support Obligations Trust of
5/7/1214 (#202-3).
(v)
Plaintiff’s Motions for Contempt and Order of
12/15/2015 (#204).
(vi) Stipulation of 6/10/2016 (#210).
(vii) Defendant’s Amended Motion for Contempt and
Order – Post Judgment Modification of 6/19/2017
(#231).
(viii) Plaintiff’s Motion for Order (Abuse of process) of
4/5/2017 (#214); and Defendant’s Motion for Order
(Response to Abuse of Process) of 4/6/2017 (#215).

A-58
(ix) Formal written exchanges among Mr. Jeffrey
Diamond, Case-Flow Coordinator, Attorney Kevin
Collins and the Defendant displaying unethical delays
and practices.
(x)
Plaintiff’s Financial Affidavits [including a
fraudulent one handed to the Defendant before the
Stipulation of 6/10/2016 as if it had been filed with the
court], as well as subpoenas to the Plaintiff [to deliver
documentation; partially fulfilled] (#232) and various
witnesses.
(xi) Defendant’s Motion to Open and Order – Post
Judgment Modification of 10/5/2017 (#247).
(xii) Hearings of 7/11-13/2017 and 1/26/2018 before
Judge Heller: all documentary evidence submitted to
and admitted by the lower court –including letter to
the court attaching public certified translations of
admitted Spanish evidence–, as well as witness and
party testimonies. Almost 40 exhibits surrendered to
the Court, which were properly detailed by the
Defendant in his briefs, reply briefs, appendices, and
filings before the Court below.
(xiii) Defendant’s Post-Hearing Brief and Appendices
[official transcripts] (#243, #244, #248).
(xiv) Plaintiff’s Post-Hearing Brief (#250).
(xv) Defendant’s Post-Hearing Reply-Brief (#251/2).
(xvi) Defendant’s Pre-Custody Hearing Memorandum
of 12/28/2017 (#260 –excluded from case detail).
(xvii) Defendant’s Motion to Disqualify [Judge Heller]
and to Attest Federal Jurisdiction 3/12/2018 (# 262).
(xviii) Defendant’s Motion to Transfer to Supreme
Court from Appellate Court of 5/5/2018 with Appendix
filed before the Court.
(xix) Official transcripts submitted to the Court:
hearings of 6/10/16 (Tindill, J); 2/28/17 (Heller, J);
6/16/17 (Colin, J); 6/19/17 (Colin, J); 7/11/17 (Heller, J);

A-59
7/13/17(Heller, J); 9/18/17 (Heller, J); 11/27/17
(Heller,J); 1/16/18 (Heller,J); 4/3/18 (Genuario,J);
9/12/18 (Truglia,J).
(xx) Defendant’s Brief of 7/13/2018 and Reply Brief
of 8/22/2018, including Appendix, filed before the Court
(AC 41455 / 41598).
(xxi) Defendant’s Motion for Permission to File
Separate Brief of 7/15/2018 and Exhibits filed before
the Court (detailing issues, law and evidence, as well
as brief per AC 41598: Motion to Disqualify and to
Attest Federal Jurisdiction).
(xxii) Defendant’s Motion to Consolidate and Order –
AC 42118 of 9/24/2018 and Appendix filed before the
Court.
(xxiii) Defendant’s Brief of 10/2/2018 and Appendix
[cross-references with Appendix per (xxii) above] and
Reply Brief of 12/13/2018 filed before the Court (AC
42118).
(xxiv) Defendant’s Letter to the Office of the Law Clerk
of 11/8/2018 regarding Assignment of Cases for Oral
Argument and Change of Circumstances duly filed
before the Court (AC 41455 / 41598 / 42118).
The following exhibits were admitted by Judge
Heller last 7/11-13/2017 and 1/24/2018:
(i) 2014 BUDGET BY PLAINTIFF SUBJECT TO
ATTORNEY COLLINS’ APPROVAL. Child-Support
and College Related Expenses Budget dated 3/18/2014,
exclusively produced by Ms. Margarita O. and shared
with Mr. Julio Ojea Quintana and Mr. Fernando G.
Irazu (Exhibit A).
(ii)
2014
DEBT-RESTRUCRUTING
DOCUMENTATION. Documentation pertaining to

A-60
the Debt-restructuring Process carried out by Mr. Julio
Ojea Quintana on behalf of Mr. Fernando G. Irazu in
2014 –also with the participation of Mr. Gabriel
Bisio–, which culminated in various settlements with
creditors, and with the corresponding documentation
sent first to Mr. Julio Ojea Quintana and later to Mr.
Fernando G. Irazu, all included in his 2014 Tax Return
before the IRS (Exhibit B).
(iii) NULLITY OF FRAUDULENT SPANISH
DIVORCE PROCEEDINGS. Judgment of Nullity
issued by the District Court of Granada No. 3 on June
29, 2017 (Exhibit C).
(iv) FRAUDULENT SPANISH DIVORCE CLAIM
AND EXHIBITS BY THE PLAINTIFF. Contentious
Divorce Claim of the Plaintiff admitted by the District
Court of Granada No 3 on June 17, 2016 (Exhibit D).
(v)
SPANISH
POWER
OF
ATTORNEY
INDICATING THE PLAINTIFF IS DIVORCED.
Power of Attorney granted by Ms. Margarita O. to the
Spanish Attorney Emilio Viciana Tito on 7/24/2014
(Exhibit E).
(vi) FRAUD AND CONCEALMENT OF US MAIL:
ENVELOPE – SPANISH CONTEMPT TO COURT
ORDER. Envelope from the District Court of Granada
No. 3 to Mr. Fernando Irazu Zubillaga, addressed at 10
Indian Pass, Greenwich, CT, 06830 (New York), USA
(Exhibit F).
(vii) SPANISH CONTEMPT TO COURT ORDER
AGAINST THE DEFENDANT. Order from the
District Court of Granada No. 3 dated May 24, 2017 –
sent via the envelope per Exhibit F–, declaring Mr.
Fernando Irazu Zubillaga in contempt to court for not
answering summons he had never seen or received in
Spain, calling a Prosecutor into the process, and

A-61
setting a trial date with witnesses for June 29, 2017
(Exhibit G).
(viii) FRAUDULENT SPANISH CERTIFICATE
OF APPEARANCES. Certificate from the District
Court of Granada No. 3 indicating the domiciles of both
parties in Spain for purposes of service of process, at
the same domicile located at Camino Bajo de Huetor N
84 P2, Granada, Spain (Exhibit N).
(ix) REQUEST FOR EXEQUATUR AND NULLITY
OF SPANISH PROCEEDINGS. “Exequatur of
Foreign Divorce Judgment, Nullity of Divorce
Judgment per Motion to Dismiss, and Fines for
Malicious and Temerarious Conduct” –including
appendix with US marriage certificate, US divorce
decree and ancillary– filed before the District Court of
Granada No. 3 by Fernando G. Irazu on June 10, 2017
[Exhibit H, marked for identification, not admitted as
a full exhibit].
(x) COURTESY COPY OF COURT SUBPOENA.
Courtesy copy of Subpoena dated 12/14/2016, served on
12/15/2017 and with proof of service on 12/16/2016, in
connection with the hearing scheduled for 2/6/2017
(Exhibit I).
(xi) DISBODIENCE TO COURT ORDER: TEXT
MESSAGE
ABOUT
COURT
SUBPOENA
INVOLVING ATTORNEY KEVIN COLLINS. Text
message exchange dated 2/5/2016 between Ms.
Margarita O. and Mr. Fernando G. Irazu about the
hearing scheduled for 2/6/2017 (Exhibit J, marked for
identification, not admitted as a full exhibit).
(xii) SOPHISTICATED US AND SPANISH
ATTORNEY:
BAKER
MCKENZIE
ANNOUNCEMENT. Announcement from Baker
McKenzie LLP dated 1/19/2017, informing that Ms.
Margarita O. joined the Firm, including her

A-62
credentials, professional focus, and clientele (Exhibit
K).
(xiii) LACK OF CO-PARENTING: PLAINTIFF’S
UNILATERAL
SPANISH
COLLEGE
ENROLLMENT OF MINOR CHILD IN SPAIN.
Post-Stipulation of 6/10/2016, enrollment package of
Ms. xxxx Irazu Oliva to IE University in Spain dated
7/9/2016, as well as contract executed by Ms.
Margarita O. (Exhibit L).
(xiv) LACK OF CO-PARENTING: TEX MESSAGE
INDICATING REFUSAL TO DIALOGUE. PostStipulation of 6/10/2016, text message from Ms.
Margarita O. dated 6/7/2017 regarding her refusal to
talk to Mr. Fernando G. Irazu (Exhibit M).
(xv) COURT ORDER: MODIFICATION OF
INSURANCE
POLICY
OWNERSHIP,
SEQUESTRATION OF $27,000, APPOINTMENT
OF KEVIN COLLINS AS TRUSTEE. Court order #
152 from 11/22/2010 modifying Provision 5 of the
Memorandum in connection with the insurance policy
of Ms. Margarita O., as well as 2/22/2011 appointing
Attorney Collins as Trustee of the Court (Exhibit O).
(xvi)
INSURANCE
POLICIES
FRAUD–
REVOCABLE TRUST AGREEMET. Insurance
policies of Ms. Margarita O. and Mr. Fernando G.
Irazu, as well as “Revocable Trust Agreement”
established by Ms. Margarita O. on 2/11/2015 (Exhibit
P).
(xvii)
PLAINTIFF’S
THREATS
OF
REFORMATORY AND DISCIPLINING OF THE
PARTIES’ SON. Email exchange dated 11/2/2014
between Ms. Margarita O. and Mr. Fernando G. Irazu
about their son xxxx (xxxx) Irazu regarding Ms. Oliva’s
punishment of him with a potential reformatory

A-63
school, among other deprivations in his life (Exhibit
Q).
(xviii) LACK OF CO-PARENTING: PLAINTIFF’S
REFUSAL TO DISCUSS HEALTH, SPINE
INJURY OF THE PARTIES’ SON. Email exchange
dated 7/10/2017 between Ms. Margarita O. and Mr.
Fernando G. Irazu about their son xxxx’s spine injury
(Exhibit R).
(xix) LACK OF CO-PARENTING: PLAINTIFF’S
UNILATERAL APPOINTMENT OF THERAPIST.
Email exchange dated 2/27/2017 between Ms.
Margarita O. and Mr. Fernando G. Irazu about her
appointment of a therapist for the couple’s son xxxx
(Exhibit S).
(xx) LACK OF CO-PARENTNG: DEFENDANT’S
ACADEMIC INQUIRY AT THE SCHOOL OF THE
PARTIES’ SON. Email dated 2/28/2017 from Mr.
Fernando G. Irazu to officers of Brunswick School
inquiring about his own son xxxx due to lack of coparenting (Exhibit T).
(xxi) LACK OF CO-PARENTING: PLAINTIFF’S
DISCIPLINING OF THE PARTIES’ SON WITH
NOT GOING TO A MANDATED ROWING
SCHOOL CAMP DESPITE REQUEST FROM
COACH,
AND THREATS
OF FURTHER
LITIGATION TO APPROPRIATE DEFENDANT’S
PATRIMONY Email exchange dated 3/8/2016
between Ms. Margarita O. and Mr. Fernando G. Irazu
involving lack co-parenting (Exhibit U).
(xxii) LACK OF CO-PARENTING: PLAINTIFF’S
REFUSAL FOR THE PARTIES’ SON TO TRAVEL
TO ARGENTINA TO SEE HIS GRANDMOTHER
AND COORDINATION OF ACTIVITES DURING
CHRISTMAS TIME TO ANCHOR CHILDREN IN
CONNECTICUT WITH P HER. Email exchange

A-64
dated 12/13/2016 between Ms. Margarita O. and Mr.
Fernando G. Irazu involving lack co-parenting
(Exhibit V).
(xxiii)
LACK
OF
CO-PARENTING:
DEFENDANT’S REQUEST FOR COOPERATION
TO ACQUIRE ARGENTINEAN NATIONALITY
AND PASSPORTS [AMONG MANY OVER THE
YEARS]. Email dated 1/5/2015 between Mr. Fernando
G. Irazu and Ms. Margarita O. about the Argentinean
nationality and passports of the couple’s children
(Exhibit W, double via DD).
(xxiv) ILLEGITIMATE REAL ESTATE LIEN.
Judgment lien dated 5/17/2013 against Mr. Fernando
G. Irazu by Ms. Margarita O. on the family property
located at 10 Indian Pass, Greenwich, CT, 06830,
recorded on the Land Records of the Town of
Greenwich (Exhibit X).
(xxv) PERJURY BEFORE JUDGE HELLER TO
OBTAIN FAVORABLE RULING. Excerpts of the
testimony from Ms. Margarita O. before Honorable
Donna Heller, Judge, last 2/28/2017 (Exhibit CC).
(xxvi) PETITION FOR WRIT OF CERTIORARI
BEFORE THE US SUPREME COURT: OVERALL
CASE BACKFGROUND 2009-2013. Writ of
Certiorari before the Supreme Court of Justice of the
United States dated on 2/13/2013 by Mr. Fernando G.
Irazu (Exhibit QQ).
(xxvii)
LACK
OF
CO-PARENTING:
UNAUTHORIZED TRIP OF THE PLAINTIFF
WITH OLDEST DAUGHTER, HIGHLIGHTING
SHE WILL TAKE A GAP-YEAR AS OPPOSED TO
GO TO COLLEGE, ONLY FOR HER TO LATER
UNILATERALLY ENROL THE MINOR CHILD
FOR COLLEGE IN SPAIN. Email dated 2/22/2016

A-65
between Mr. Fernando G. Irazu and Ms. Margarita O.
about lack of co-parenting (Exhibit KK).
(xxviii)
LACK
OF
CO-PARENTING:
PLAINTIFF’S
REFUSAL
TO
SUPPORT
PARTIES’ CHILDREN AND ANCILLARY. Email
dated 2/28/2016 between Mr. Fernando G. Irazu and
Ms. Margarita O. about lack of co-parenting (Exhibit
LL).
(xxix)
LACK
OF
CO-PARENTING:
DEFENDANT’S REQUEST FOR CO-PARENTNG
1 DAY AFTER STIPULATION OF 6/10/2016. Email
dated 6/11/2016 between Mr. Fernando G. Irazu and
Ms. Margarita O. requesting co-parenting post
Stipulation dated 6/10/2016 (Exhibit EE).
(xxx) LACK OF CO-PARENTING: DEFENDANT’S
REQUEST FOR CO-PARENTING 16 DAYS
AFTER STIPULATION OF 6/10/2016. Email dated
6/26/2016 between Mr. Fernando G. Irazu and Ms.
Margarita O. requesting co-parenting post Stipulation
dated 6/10/2016 (Exhibit FF).
(xxxi) LACK OF CO-PARENTING: PLAINTIFF’S
REFUSAL
TO
COORDINATE
SUMMER
ACTIVITIES OF YOUNGEST DAUGHTER. Email
dated 7/6/2016 between Mr. Fernando G. Irazu and Ms.
Margarita O. about lack of co-parenting (Exhibit
MM).
(xxxii) LACK OF CO-PARENTING: ACADEMIC
FAILURES DUE TO LACK OF COPARENTING
AND
REFUSAL
TO
ENGAGE
IN
COPARENTING-. Email dated 8/5/2016 between Mr.
Fernando G. Irazu and Ms. Margarita O. about lack of
co-parenting (Exhibit HH, double via II).
(xxxiii)
LACK
OF
CO-PARENTING:
DEFENDANT’S
FRUSTRATION
DUE
TO
IGNORED REQUESTS FOR COPARENTING

A-66
AND INSULTS FROM THE PLAINTIFF. Email
exchange dated 9/8/2016 between Mr. Fernando G.
Irazu to Ms. Margarita O. about lack of co-parenting
(Exhibit AA).
(xxxiv) LACK OF CO-PARENTING: COACHES’S
INVITATION TO ROWING CAMP [FIRST
HEARING BEFORE JUDGE HELLER ON
2/28/2017]. Email exchange dated 2/19/2017 between
Mr. Fernando G. Irazu to Ms. Margarita O. about their
son xxxx’s invitation to a selective rowing camp in
Florida and lack of co-parenting (Exhibit JJ).
(xxxv) RELOCATION TO SPAIN: FACEBOOK
EXCHANGE. Exchanges about Ms. Margarita O.’s
potential relocation to Spain with someone by the
name of Sonia Torres (marked for identification and
not admitted as full exhibit).
(xxxvi) NEUROPSYCHOLOGICAL STUDIES:
2009-2010 neuropsychological studies at the local and
international level of Mr. Fernando Irazu, including a
court-appointed therapist (neither admitted for
identification nor as full exhibits).
(xxxvii)
HAGUE
CONVENTION
AND
GUIDELINES FROM US DEPARTMENT OF
STATE (submitted to the Trial Court at the Hearings).
(xxxviii)
LACK
OF
CO-PARENTING:
REFUSAL TO SURRENDER CUSTODY OF
MINOR CHILDREN DURING 2017 CHRISTMAS
SEASON (Exhibit A, hearing 1/26/2018).
(xxxix)
LACK
OF
CO-PARENTING:
REFUSAL TO COMPLY WITH COLLEGERELATED EXPENSES OBLIGATION PER
PROVISION 10 OF THE STIPULATION OF
6/10/2016 (Exhibit B, hearing 1/26/2018).

A-67
III.

LEGAL GROUNDS

This motion for reconsideration en banc is
requested as a matter of due process for the
Defendant’s basic relief sought before the lower court
and the Court itself to be considered in the latter’s final
judgment; Practice Book, Sec. 66-2 (d). “Motions which
are not dispositive of the appeal may be ruled upon by
one or more members of the court subject to review by a
full panel upon a motion for reconsideration pursuant
to Section 71-5.” The Defendant also relies on his legal
obligation to truthfully perfect the record before the
Court prior to its final judgment (Practice Book, Sec.
61-10 (a)), as well as all professional duties pertaining
to candor and veracity before the legal system. 58
IV.

REQUEST

DUE TO THE FOREGOING, the DefendantAppellant respectfully requests the Court to consider
and grant the relief sought in each of the points per his
Amended Request for Relief of 12/20/2018 (please see
Appendix II)* at its final directed judgment.
DATED at New York, New York, January 18, 2019.
/s/ Fernando G. IRAZU
By ____________________
Practice Book, Rules of Professional Conduct, Rule 4.4. Respect
for Rights of Third Persons; Rule 3.3. Candor toward the Tribunal;
Rule 4.1. Truthfulness in Statements to Others; Rule 3.4. Fairness
to Opposing Party and Counsel; Rule 3.5. Impartiality and
Decorum; Rule 4.3. Dealing with Unrepresented Person; and
ancillary.
85

A-68
Fernando G. IRAZU, Pro Se
Defendant-Appellant
Billinghurst 1656, 2A
Buenos Aires, 1425
ARGENTINA
fgirazu@gmail.com
__________________________________________________
* Amended Request of Relief per Appendix II due to a
significant change of circumstances and the fact two of the minor
children have become of legal age, among others.
“AS A RESULT OF THE FOREGOING, the Defendant
respectfully requests the Court to reverse the decisions of the
lower court under appeal, and to grant the following legal and
equitable relief:
1. AC 41455. Contempt to Court, Domestic and
International Fraud, Partial Nullity of Court Stipulation of
6/10/2016, Insurance Policy Fraud, Illegitimate Lien. Abusive,
Vexatious, and Fraudulent Lawsuit. Unethical Conduct. Legal
Fees and Ancillary. Legal Disbarment. (Heller, J).
(i)
Contempt to Court with Fraudulent Intent. To
declare the Plaintiff-Appellee in contempt to court for violation of
all court orders, in particular those of parenting and financial
kind, which includes the pursuit of a fraudulent and concealed
contentious divorce process in Spain against US judgments,
orders, laws and jurisdiction, as well as the fraudulent change of
beneficiaries in the parties’ life insurance policies.
(ii) Court Stipulation as well as Legal and
Equitable Remedies. To declare the Stipulation of 6/10/2016
partially null, and to grant the following legal and equitable
remedies as an addendum in order to keep it in full force and
effect:
“The following Orders of the Court modify and supersede
the aforesaid terms of the Stipulation of 6/10/2016 (Tindill, J.):
Child

Support,

College-Related,

Financial

and

A-69
Patrimonial Obligations. All child- support, college-related,
real estate taxes, insurance policy premiums and/or any other
financial and patrimonial obligations by the Defendant-Appellant
are deemed entirely fulfilled.
Post-Secondary
Education.
The
post-secondary
education of the parties’ children is exclusively assumed by and
paid for the Plaintiff-Appellee, which shall take place in the US
and/or UK. The Defendant-Appellant is excused of any such
payments, and no modification to this order can ever be pursued.
The Defendant-Appellant has honorably represented that he will
support his children based on his overall financial means, and it
is expected for him to do so under such commitment without any
legal recourse from the Plaintiff-Appellee.
Jointly Owned Real Estate. The obligations in connection
with the jointly owned real estate at 10 Indian Pass, Greenwich,
CT, 06830, remain in place pursuant to the terms of the
Memorandum of Decision of 9/2/2010. When such property is sold
at market value per those terms, the Defendant-Appellant shall
receive the proceeds equivalent to his 50% stake free and clear
from any interest, claims and/or deductions by the PlaintiffAppellee and/or her counsels.
Defendant-Appellant’s Life Insurance Policy. The
Defendant-Appellant’s life insurance policy with Northwestern
Mutual on his life is hereby placed under his own name, and it
will be converted from term life to whole or universal life at his
option, with a retirement benefit of $1,000,000 exclusively funded
by the Plaintiff-Appellant, if he were to live beyond 2026. The
Plaintiff-Appellant shall take all necessary steps and execute all
required documentation, make all due payments, and as a whole
maintain such policy in effect during the required time period.”
(iii) Foreign Legal Actions. To impose a cease and desist
order as well as a permanent injunction for the Plaintiff-Appellee
not to pursue legal actions in foreign jurisdictions against US
jurisdiction, laws, judgments and orders.
(iv) Real Estate Lien. To order the Plaintiff-Appellee to
lift the lien placed on the above-mentioned real estate property
against the Defendant-Appellant.

A-70
(v) Restitution of Funds from Attorney Kevin
Collins. To order Attorney Kevin Collins the restitution of
$27,000 to the Defendant-Appellant.
(vi) Vexatious, Abusive, Fraudulent, and Unethical
Actions. To order the legal proceedings initiated and conducted
by the other party vexatious, abusive and unethical, albeit any
concerns related to criminal fraud, perjury, criminal custodial
interference, conspiracy to commit custodial interference, and
other reproachable conduct.
(vii) Legal Fees and Ancillary. To award legal fees and
commensurate compensation for the damages inflicted on the
Defendant-Appellant during this long endured ordeal.
(viii) Disbarment from the Legal Profession. To
recommend commencement proceedings for the disbarment of
Attorney Kevin Collins.
2. AC 41598 (consolidated sua sponte by the Court
into AC 41455). Disqualification of Judge Heller. Biases and
Unequal Treatment Towards the Defendant-Appellant. Unethical
Conduct. Transfer to Federal Venue. Legal Fees. (Genuario, J).
(ix) Disqualification. To order the disqualification of
Honorable Donna Heller, Judge, from any case pertaining to the
parties herein.
(x) Venue. To order the transfer of further legal
proceedings to federal venue, if any.
(xi)
above.

Legal Fees and Ancillary. Idem (vi), (vii) and (viii)

3. AC 42118. Civil Restraining Order. Biases and Unequal
Treatment Towards the Defendant-Appellant. Unethical Conduct.
Legal Fees. (Truglia, J).
(xii) Civil Restraining Order. To lift the civil
restraining order entered into by the lower court against the
Defendant-Appellant.
(xiii) Foreign Legal Actions. Idem (iii).

A-71

(xiv) Legal Fees and Ancillary. Idem (x) and (xi).
DATED at New York, New York, December 19, 2018.
/s/
Fernando G. Irazu
.
Fernando G. IRAZU, Pro Se
Defendant-Appellant
222 East 75th Street, 6C
New York, NY 10021
(203) 570-8318
fgirazu@gmail.com”

CERTIFICATION PURSUANT TO SEC. 62-7
I hereby certify the following pursuant to Sec. 62-7,
Rules of Appellate Procedure:
(i) A copy of the aforesaid motion has been electroniccally delivered to:
Margarita O.
Plaintiff-Appellee
Kevin F. COLLINS
Counsel of Record for the Plaintiff-Appellee
1150 Summer Street
Stamford, CT 06905
kevin.f.collins@kfclegal.com
(203) 327-5400
(ii) The document has been redacted or does not
contain any names or other personal identifying
information that is prohibited from disclosure by rule,
statute, court order or case law.

A-72
(iii) The document complies with all applicable rules of
appellate procedure.
DATED at New York City, New York, January 18,
2019.
/s/ Fernando G. IRAZU
By ____________________
Fernando G. IRAZU, Pro Se
Defendant-Appellant
Billinghurst 1656, 2A
Buenos Aires, 1425
ARGENTINA
fgirazu@gmail.com

A-73
APPENDIX H
GREENWICH PUBLIC SCHOOLS
Greenwich, CT
OFFICE OF PUPIL PERSONNEL SERVICES
Summary – PPT/IET Meeting
Date: 5/13/2019
Dear Parent(s)/Guardian(s)/Student:
Thank you for attending the recent Planning and
Placement (PPT/Individualized Education Plan (IEP)
Team meeting held on 05/08/2019 regarding xxxx
Irazu.
Enclosed you will find:
X Written Prior Notice
Should you have any questions regarding your child’s
program, please feel free to contact Pat Rosen at the
following telephone number: 203-863-8854.
Respectfully,

Christina Shaw
Interim House Administrator
Planning and Placement Team Member

A-74
Student: Irazu, xxxx
DOB: xx/xx/xx mm/dd/yy
District: Greenwich High School
Meeting Date: 05/08/2019 mm/dd/yy
PLANNING AND PLACEMENT TEAM (PPT)
COVER PAGE
Current Enrolled School: Greenwich High School
Age: 15
Current Grade: 10
H.S. Credits: 8.38
Grade Next Yr: 11
Gender: Female
Current Home School: Greenwich High School
School Next Year: Greenwich High School
Home School Next Year: Greenwich High School
SASID#: 6185671372
If your school district does not have its own high school,
is the student attending the designated high school? x
NA
Student Address: xxxxxxxxx, Greenwich, CT 06830
Student Instructional Lang: x English
Parent/Guardian (Name): Margarita Oliva Sainz de
Aja(Mother) Home Dominant Lang: x Other (Specify)
Parent/Guardian (Address): x Same
Student Phone Number: xxx xxx-xxxx
Parent Home Phone: xxx xxx-xxxx
Misc. Phone: xxx xxx-xxxx
__________________________________________________
Reason for Meeting: x Review Referral x Plan
Eval/Reval
__________________________________________________
The next Projected PPT meeting date is: _______


Eligible as a student in need of Special
Education (The child is evaluated as having a

A-75
disability, and needs special education and
related services) x No
 Is this an Amendment to a current IEP using
Form ED 634 x No
_______________________________________________
Team Member Present (required)
Admin/Designee: Shaw, Christina
Spec. Edu. Teacher: Rosen, Patricia
Parent/Guardian: Sainz de Aja, Margarita Oliva
School Psych: Holzel, Ashley
Student’s Re. Ed. Teacher: Harriman, Sean
_______________________________________________
Student: Irazu, xxxx
DOB: xx/xx/xx mm/dd/yy
District: Greenwich High School
Meeting Date: 05/08/2019 mm/dd/yy
LIST OF PPT RECOMMENDATIONS
Introductions were made and the purpose of the
meeting stated: to review a referral to special
education and consider/plan an evaluation. Ms. Sainz
de Aja was given a hard copy of procedural safeguards
and transition bill of rights and her rights were
explained. The student was not present at the meeting.
Mr. Harriman shared that xxxx is an active student
who is sweet and smart. She struggles with work
completion and he would like to see her finish her
sophomore research paper. Ms. Mayo reviewed xxxx’
grades; she is struggling in all classes except

A-76
French. Ms. Sainz de Aja gave the team an update of
her daughter’s health and explained that currently her
daughter was placed at St. Vincent’s hospital for
care by her doctor. She explained her daughter is
suffering from anxiety and depression.* Her
concern was how to help her daughter finish out the
school year in good standing and what could be done to
help her daughter for the next school year. Ms. Sainz
de Aja does not see that the 504 accommodations are
working the way they should. Xxxx cannot focus and
does not seem to be taking advantage of her
accommodations. Mr. Harriman suggested that we
should have a meeting with all the teachers to review
the 504 and also discuss next steps for xxxx. Ms. Sainz
de Aja added that she is most concerned about math
where xxxx feels she cannot catch up on her own. The
team agreed to the following plan for xxxx:


-Ms. Holzel will be in contact with xxxx’ doctors to get
their input on any interventions and accommodations.
-Xxxx will continue with Humanities Learning Center
to work on her research paper.
-A meeting will be called with her teachers to find out
what is the necessary work that xxxx must complete to
finish the year in good standing.
-Xxxx will be placed in STARS to help her catch up.
-Xxxx will be given extensions on work completions,
and may be exempted from work where appropriate.
-Xxxx will work with her counselor on creating a final
exam schedule that will reduce stress.
After hearing from the doctors, a decision will be made
about whether to call another PPT meeting at the end
* Bold and italics added.


A-77
of this year, or at the beginning of next year. Ms. Sainz
de Aja also inquired about the LINKS program to see
if this could help her daughter. Ms. Shaw agreed to
find out more about his program.
Ms. Shaw
summarized the meeting and all were in agreement.
The meeting then ended.

A-78
APPENDIX I
Brunswick School
___________________
COURAGE – HONOR – TRUTH

THOMAS W. PHILIP
Headmaster
May 2019

Xxxx Irazu
10 Indian Pass
Greenwich, CT 06830
Dear Xxxx:
Congratulations on being awarded the BPA prize at
graduation!* We share in the pride you and your family
must have in this achievement, as well as all you have
accomplished during your high school years at
Brunswick.


We would like you to have a copy of the citation which
was read during the ceremony. In addition, your name
will be engraved on the Mahogany Board in the
Headmaster’s wing as a testament to all your hard
work and dedication.
* Brunswick Parents’ Association Prize, on graduation ceremony
of 5/22/2019. This prize is awarded to the senior who has attended
Brunswick for at least three years and whose improvement in
scholarship and development of fine character make him worthy
of citation.


A-79

On behalf of the School and the faculty, we wish you
much success and happiness at St. Andrews next fall.
Have a wonderful and restful summer, Xxxx …. you
deserve it!
Sincerely,
/s/ [illegible]

203.625.5810 direct | 203.625.5889 fax |tphilip@brunswick.org
100 Maher Avenue, Greenwich, CT 06830 | BrunswickSchool.org

A-80
APPENDIX J
SUPERIOR DISTRICT COURT
OF STAMFORD/NORWALK
STATE OF CONNECTICUT
CRO90165772S -)
SUPERIOR COURT
CRO90168728S
STATE OF CONNECTICUT ) J.D. OF STAMFORD/
V.
NORWALK
) AT STAMFORD
FERNANDO GABRIEL IRAZU
) January 13, 2012.
MOTION FOR RETURN AND DESTRUCTION
OF FINGERPRINTS, ARREST CARD,
PHOTOGRAPHS, PHYSICAL DESCRIPTION,
ELECTRONIC RECORDS AND ANCILLARY
DOCUMENTATION
Fernando Gabriel IRAZU, self-represented, on
the above-referenced matters, which were dismissed,
unsubstantiated and positively resolved without trial,
hereby files on due time this MOTION FOR RETURN
AND DESTRUCTION in order for the Greenwich
Police Department as well as all applicable State and
Federal agencies to return and de- stroy any
fingerprints, arrest cards, photographs, physical
description, electronic records as well as any ancillary
documentation and/or information related to them (cf.
Sec. 29-15, General Statutes of Connecticut).
As required by law, this Motion does not pertain
to any plea arrangement, trial and/or sentence before
the Superior Court of Stamford or otherwise, rather an
overall situation triggered within and for the occasion

A-81
of a lengthy and protracted marital dissolution process.
Thus, the petitioner respectfully moves this Court
within such frame.
During the trial pursued by the other party in the
marital dissolution process, the opinion of the Court,
on the criminal actions unduly initiated against the
petitioner, was heard via the sayings of the late
Honorable Judge Dennis F. Harrigan:
“THE COURT: The charges, whatever they
were, have all been expunged. The file has been
sealed. The arrest record of your arrest should be
expunged also. I don’t know whether you have to
move – file a motion for that, but – . . . . MR.
IRAZU: Thank You, Your Honor.”, Official
Transcripts in re Oliva Sainz de Aja, Margarita v.
Irazu, Fernando Gabriel, FST-FA-09-4017497-S,
Superior
Court,
Judicial
District
of
Stamford/Norwalk, at Stamford, Connecticut,
June 4, 2010, Trial Before Honorable Judge
Dennis F. Harrigan, Judge, 93.
As to the petitioner, he is a devoted and
committed father and no criminal record of any kind in
his entire life, as well as a former investment banker
and a non-practicing attorney who might be required
from time to time to produce fingerprints and
statements under oath before various federal and/or
state agencies, among other situations corroborating
under oath that he has in fact no criminal record
whatsoever related to this ignominy.
Such overall marital dissolution process, within
this very same context, has profoundly damaged the
petitioner’s professional career, hurt his own and
extended family, as well as at the time seriously

A-82
impacted his wellbeing.
DATED at Stamford, Connecticut, on January
13, 2012.
[Granted 1-30-12 (Comeford, J) /s/ [Illegible]
Clerk]

A-83
APPENDIX K
DEPARTMENT OF CHILDREN AND FAMILIES
STATE OF CONNECTICUT
Making a Difference for Children,
Families and Communities
[seal]
Susan I. Hamilton, M.S.W., J.D.
Commissioner

[seal]
M. Jodi Rell
Governor

February 20, 2009
Dear Mr. Irazu,
This letter is to inform you that the Department of
Children and Families has completed the investigation
that was reported on 1/8/09. The allegations of
physical neglect will not be substantiated against you.
This is based on interviews with you, your family, and
services connected to you.
As this time your case will be closed as of the date
above, with the following expectations:
Ensure that you will provide adequate
supervision, care, and attention to your children
xxxx, xxxx and xxxx Irazu.
Ensure that you will not expose your
children to any domestic violence.
For you and children’s mother follow up
with individual and marriage counseling
services.

A-84

Should you have any questions or concerns regarding
the outcome of this matter, please feel free to contact
me.
Respectfully,
/s/ Ethel Moore
_______________
Ethel Moore
Social Worker – Investigations
Department of Children and Families
401 Shippan Avenue
Stamford, CT 06902
(203) 965-0114

STATE OF CONNECTICUT
Phone (203) 348-4294 – Fax (203) 964-9501
401 Shippan Avenue, Suite 2, Stamford, Connecticut 06902
www.state.ct.us/dcf
An Equal Opportunity Employer
DCF-2210a Draft
State of Connecticut
11/05 (Revised) Department of Children and Families

A-85
NOTIFICATION OF INVESTIGATION RESULTS
(UNSUBSTANTIATED)
Date: 2/20/2009
Name: Mr. Fernando Irazu
Address: 10 Indian Pass, Greenwich, CT 06830
Re.: Investigation of Report(s) dated: 1/8/09
LINK NUMBER: 254514
Dear Mr. Irazu,
The mission of the Department of Children and
Families (DCF) is to protect children, improve child
and family well-being, and to support and preserve
families.
An important part of this mission is
investigating reports of alleged abuse or neglect of
children in our communities.
DCF recently
investigated reported allegation(s) that you abused or
neglected a child or children. The purpose of this letter
is to inform you of the decision made regarding that
investigation.
DCF has concluded that:
X Abuse or neglect has not been substantiated as a
result of this investigation.
Respectfully,
/s/ Ethel Moore
______________
Ethel Moore
Social Worker-Investigations

A-86
APPENDIX L
STATE OF CONNECTICUT
DEPARTMENT OF EMERGENCY SERVICES
AND PUBLIC PROTECTION
DIVISION OF STATE POLICE
BUREAU OF IDENTIFICATION
[seals]
Wednesday, July 10, 2013
FERNANDO IRAZU
1340 WASHINGTON BLVD
STAMFORD CT 06902
NO RECORD FOUND
Re.: Criminal History Record Request
Please be advised that a search of the files of the
Connecticut State Police Bureau of Identification
(SPBI) for a criminal history record on subject:
IRAZU, FERNANDO GABRIEL (07/08/1968)
has resulted in no record found. This search was based
on the information provided.
pkk
REF#: 157331-68101
Phone: (860) 685-8480 Fax: (860) 685-8361
1111 Country Club Road
Middletown, CT 06457-2389
An Affirmative Action/Equal Opportunity Employer

A-87
APPENDIX M
SUPERIOR DISTRICT COURT
OF STAMFORD/ NORWALK
STATE OF CONNECTICUT
D.N. FST-FA-09-4017497S

)

SUPERIOR COURT

OLIVA, MARGARITA

)

J.D.S.N.

VS.

)

AT STAMFORD

IRAZU, FERNANDO

)

October 20, 2009

STIPULATION*



The parties stipulate and agree that the Plaintiff shall
have exclusive possession of the premises at 10 Indian
Pass, Greenwich, Connecticut, pendente lite.
The Defendant shall be permitted to pick up the
parties children for his parenting time at the front door
of said premises, but shall not enter the premises.
THE PLAINTIFF
/s/ Signature
MARGARITA OLIVA
SAINZ DE AJA

THE DEFENDANT
/s/ Signature
FERNANDO IRAZU

* This Stipulation replaced an ex parte restraining order of
10/6/2009 (FST-FA-09-4017500-S; Schofield, J) in exchange for
the Petitioner’s access to his children. Please note the Respondent
triggered the marital dissolution process on 10/1/2009.


A-88
/s/ Signature
NANCY RAMER
HER ATTORNEY

/s/ Signature
ROBERT A. SKOVGAARD
HIS ATTORNEY
SO ORDERED BY THE COURT
/s/ Schofield
JUDGE / CLERK

Filed in Court
Date 10/29/09
Clerk /s/ [illegible]

A-89
APPENDIX N
DELIVERY BY HAND
June 1, 2009
Lt. Richard ‘Ricky’ Cochran
Greenwich Police Department
101 Field Point Road
Greenwich, CT 06830
c.c.:

Honorable Judge John Malone
Nancy Dolinsky, State Prosecutor
Stephanie Ewoodzie, Family Services
Joseph Colarusso, Attorney at Law

Dear Lt. Cochran:
I am writing to you because last January 15 I was
arrested by your personnel pursuant to an arrest
warrant directly processed and requested by your
police unit on domestic abuse charges, which were
secretively presented by my wife Margarita Oliva
Sainz de Aja the prior January 8, and apparently
thoroughly investigated by you, all based on one-side
claimed marital incident from December 26 of last
year.
Per the attached official documentation, those charges
were in fact dismissed on the merits by Judge John
Malone last April 7, considering in particular to that
effect the personal and written request of my same wife
Margarita Oliva Sainz de Aja. Please find attached the
nature and tenure of the missive submitted by her last
April 2, as well as some pictures of me after your

A-90
orchestrated arrest –despite my peaceful response and
attitude, duly attested in your own police report– in
front of my 69 year old diabetic mother –an old-fashion
lady, who almost fainted during this unjust ordeal–
and my younger brother. Moreover, please find
attached the decision of the Department of Children
and Families, which also got indirectly involved in this
process through such twisted narrative (Annex A).
Both of my immediate relatives –mentioned as
witnesses in your police report– were especially
brought to Greenwich from the Pampas, as in a horrific
blind and forceful date, to watch this despicable
spectacle. In this regard, please find attached copies of
their sworn statements –among with a few others–,
properly translated into English pursuant to the
Apostille procedure under the Hague Convention, of
which the United States of America is a signatory
party (Annex B).
Clearly, the purpose of this letter is to let you know
that I am doing the best I can to keep our family intact,
and my wife is also doing her part. However, your onesided participation in the events described above does
raise serious concerns on my part as to what might
happen in the future, even taken into account our
truthful on-going loving efforts. In simple words, your
advice, behavior and overall performance have been
extremely destructive and biased against the best
interest of our family –marital couple, me in particular,
and our children. Please see attached documentation
corroborating our efforts in this regard (Annex C).
Without engaging in any unnecessary dispute at this
stage, it is important for you to know that, way before

A-91
the date any presumable incidents were communicated
to you, my wife had had displayed a “separation
attitude.” It is imperative to highlight that those
allegations were completely uncorroborated by you at
all, as much as the status of our marital relationship
at the time, which could have helped for you to better
understand the overall frame and angle in this
sequence of events. In the corroborating area under a
criminal investigation, please find attached a sworn
statement by our in-house nanny for more than five
years, who was only interviewed by your personnel
during the course of my arrest last January 15.
Furthermore, I would like you to carefully read my
wife’s own statements in the aforesaid personal letter
as to my own personae –as father and husband– as well
as my professional disassociation from my last
employer HSBC, due to the on-going global financial
crisis, in full opposition to your police report. In
addition, attached you will my formal professional
record filed with all relevant regulatory and
supervisory authorities by HSBC itself and all of my
prior employers in the financial industry since 1997 –
easily and freely available through the Internet (Annex
D).
In connection with some of the structural traits
reflecting on such exclusive “separation attitude”
carried out by my wife, it should be noted her specific
request early last year for me to agree that the real
estate deed of our own house in Greenwich should be
registered under her sole and exclusive name, as well
as for me to buy under the same premises an
apartment for her putative aunt in Spain. Although I
did not agree to any of such unreasonable requests, she

A-92
did manage to quickly transfer $200,000 in cash last
January 9 from one of our joint bank accounts to a
secret bank account under he sole name and title
–money, as a matter of sheer fact, entirely earned by
me. After a difficult to endure process, this money was
finally transferred back to our same marital account
last March 27. Please find attached the pertinent
documentation on this maneuver (Annex E).
As a result of the multiple above, it is my current
intention to put you and the whole Greenwich Police
Department on legal notice of this picturing situation,
since I do not want to face again an undeserved, onesided and biased criminal process against me, in which
your unit could be recurrently used as the means to
ignite it. In this policing context, it is prudent and
worthwhile remembering that prejudices, biases and
willful mischief, when not gross professional
misconduct, are severely penalized by our judicial
system as such. My personal integrity, as father,
husband and professional, is extensively corroborated
by several personal and professional sources in the
attached documentation.
Indeed, it is impossible for me to believe that the word
of one single person –irrespective of the acting
performance on display, and whether it had been
communicated to multiple third-parties or not
following certain script–, coupled with some tainted
professional behavior, could suffice with total impunity
to destroy the lives of innocent and decent citizens
through our legal system.
Therefore, it seems
mandatory for you and your entire department to
understand the tenor of this restraining legal caveat.

A-93
If my wife and I were to finally face further marital
hurdles, it is transcendent for you to know that I am
committed to face such a process in an intimate
manner –resorting to our spiritual directors and
confessors as a third-party source for guidance and
strength–, always thinking about, and putting ahead
of ourselves, the best interest of our children –the most
profound motivation in my marital life–, with the
attentive respect that has characterized not only my
overall personality but also my marital relationship as
a whole.
Moreover, it is my understanding that my legal counsel
during this entire ordeal has already communicated to
you and other various agencies the decision of the
pertinent Court mandating the destruction and/or
elimination of any personal records (fingerprints,
pictures, reports, etc.) from your police system and
ancillary sources.* As you would understand, either
legal or financial employment in certain fields does
require full police background check, and this unjust
stain could severely impair my ability to provide for my
family as I should, regardless of the uncapped damage
already done on my reputation and family name –both
publicly via the outrageous police report published in
the local newspaper as well as via multiple private
means. On this matter, I would also especially
appreciate the full cooperation of the Greenwich Police
Department.


Finally, and without any desires to increase the
dramatic tone of this letter, I am compelled to inform
* Please see Appendix J, K, and L. The Petitioner’s record was
fully expunged due to his pro se efforts on 1/30/2012, not before,
as he was led to believe.


A-94
you that last May 10/11 I was suddenly hospitalized in
Greenwich Hospital due to the suffering all of the
symptoms concerning a grave cardiac unrest. I am
currently undergoing all necessary tests to determine
what measures should be taken, if any, though still
conducting my life with ordinary sporting ease (Annex
F).
In any case, I must highlight that I would like to be
able to continue expressing my healthy will in person
for years to come, thus making express reserve of any
legal rights held by me in this entire ignominy, instead
of having to plan one in advance due to some unending
harassing and extortive measures in my marital life
that could lethally force my heart to a full sudden
permanent stop, with or without the intervention of
the Greenwich Police Department.
Any doubts as to the content of this letter, as well as
the entire Greenwich Police Department’s unlikely
further potential involvement in our personal marital
situation, I would very much appreciate for you to
freely contact me first at 1 203 570-8318.** It seems
evident now that it would be not only in m best
interest, but, due to the aforesaid and all
documentation attached, in yours as well. I formally
request this letter and the attached documentation to
be kept on strict confidential terms and I thank you in


** The Greenwich Police Department illegally arrested the


Petitioner once more on 11/9/2009. These charges were also
unsubstantiated and discarded, as well as expunged from the
Petitioner’s record per immediate above. On 10/1/2009 the
Respondent triggered divorce proceedings and on 9/2/2010
judgment was rendered after a divorce trial without jury (Malone,
J; Harrigan, J).

A-95
advance for your consideration thereof. A failure to do
so can only aggravate the suffering, damage and
uncertainties generated by the way this process has
been carried out from your public side.
Sincerely yours,
/s/ Fernando Irazu
Fernando Irazu
Enclosures

A-96
APPENDIX O
SUPERIOR DISTRICT COURT
OF STAMFORD/NORWALK
STATE OF CONNECTICUT
JDNO NOTICE
FST-FA-09-4017497-S OLIVA SAINZ DE AJA,
M v. IRAZU, FERNANDO GABRI
Notice Issued: 04/25/2019
Court Address:
CLERK, SUPERIOR COURT
JUDICIAL DISTRICT OF STAMFORD-NORWALK
123 HOYT STREET
STAMFORD, CT 06905
Website: www.jud.ct.gov
Notice Content:
Notice Issued: 04/25/2019
Docket Number: FST-FA-09-4017497-S
Case Caption: OLIVA SAINZ DE AJA, M v. IRAZU,
FERNANDO GABRI
Notice Sequence #: 1
JDNO NOTICE
ORDER REGARDING:
04/05/2017 214.00 MOTION FOR ORDER POSTJUDGMENT
The foregoing, having been considered by the Court,
is hereby:
ORDER::DENIED

A-97
After a hearing on the plaintiff's motion, and after
careful review of the history of the pleadings in this
case, the court does not find good cause to grant the
motion.
The court agrees with the plaintiff that many of the
defendant's motions and other submissions are not in
proper form, and should be revised or stricken on that
basis alone.
.
Apart from form, however, the court does not find that
the defendant has engaged in a protracted pattern of
filing numerous intentionally vexatious, frivolous or
repetitive motions.
The motion is denied.
By the Court,
Hon. Truglia, A.
T. Vera, TAC

A-98
APPENDIX P
SUPERIOR DISTRICT COURT
OF STAMFORD/ NORWALK
STATE OF CONNECTICUT
D.N. FST-FA-09-4017497S

:

SUPERIOR COURT

MARGARITA OLIVA
SAINZ DE AJA

:
J.D. OF
STAMFORD/NORWALK

v.

:

AT STAMFORD

FERNANDO GABRIEL IRAZU : MARCH 20, 2019
PLAINTIFF’S MOTION FOR FEES/SANCTIONS
RESULTING FROM DEFENDANT’S
VEXATIOUS LITIGATION, POST-JUDGMENT
The Plaintiff in the above-captioned action
hereby moves this Court for reimbursement of legal
fees and costs resulting from Defendant’s vexatious
and spurious motions, appeals, and legal maneuvers
for the following reasons:
1.

The Defendant has filed numerous motions
and appeals relative to post-judgment
proceedings, all of which have been
summarily denied. Further, the Defendant
has often failed or refused to abide by
mandated Connecticut Practice Book
procedures causing Plaintiff to expend
unnecessary legal fees. Nonetheless, the
Plaintiff has been caused to expend
substantial amounts to defend such

A-99

2.

3.

4.

5.

6.

7.

proceedings which have had no merit
whatsoever.
The Defendant filed a Motion for Contempt
(#231.00) against the Plaintiff which
resulted in a two day hearing which was
ultimately DENIED by the Court (Heller, J).
(See MOD dated March 2, 2018; # 261.00).
Subsequently the Defendant, predictably
dissatisfied with the aforesaid result, filed a
Motion to Disqualify Judge Heller, the
defense of which required Plaintiff to expend
more funds. Said motion was denied by the
administrative judge for the Judicial District
of Stamford/Norwalk (Genuario, J.).
Further, the Defendant filed an Appeal of the
denial of his aforementioned Motion for
Contempt; the failed Motion to Disqualify
and the granting of a Restraining Order
pursuant to C.G.S. § 46b-15 entered by the
Court (Truglia, J.).
The foregoing Appeals, though consolidated
for judicial economy, required Plaintiff to
once again expend substantial funds for legal
fees to her detriment and to the detriment of
her family.
It bears consideration that Defendant is selfrepresented and incurs no legal fees in his
vexatious pursuits. Indeed, the apparently
unemployed Defendant has endless time to
draft rambling, non-linear, tangential
screeds which cannot go unaddressed by
Plaintiff despite their baseless legal efficacy.
A review of the court filings by Defendant
reveal his resort to baseless claims and
motions. Additionally, it should be noted

A-100
that Defendant’s history includes filing an
Appeal in this matter with the U.S. Supreme
Court several years ago which Defendant
now almost certainly views as an avenue as
the result of the recent denial of a Petition for
Certification by the Connecticut Supreme
Court.
WHEREFORE, it is respectfully requested that the
Defendant be ordered to reimburse Plaintiff for her
legal fees and costs expended by necessity to his
aforementioned
baseless
and
spectacularly
unsuccessful Motions and Appeals. It is further
requested that any award which results herefrom shall
constitute a lien on Defendant’s rights for distribution
of a portion of the equity of the sale of the marital
residence as set forth in the Separation Agreement and
subsequent Modification thereof, both of which are
court-ordered.
THE PLAINTIFF,
MARGARITA OLIVA SAINZ DE AJA
/s/ Kevin F. Collins
BY ________________
Kevin F. Collins, Esq.
Law Offices of Kevin F. Collins
1150 Summer Street
Stamford, CT 06905
Tel.: (203) 327-5400
Fax: (203) 327-5466
Juris No.: 300089

A-101
SUPERIOR DISTRICT COURT
OF STAMFORD/ NORWALK
STATE OF CONNECTICUT
D.N. FST-FA-09-4017497S

:

SUPERIOR COURT

MARGARITA OLIVA
SAINZ DE AJA

:
J.D. OF
STAMFORD/NORWALK

v.

:

AT STAMFORD

FERNANDO GABRIEL IRAZU : MARCH 15, 2019
SUPPLEMENT TO PLAINTIFF’S MOTION FOR
ORDER, POST-JUDGMENT DATED APRIL 4,
2017 (#214)
The Plaintiff, Margarita Oliva Sainz de Aja, through
her undersigned counsel, hereby submits the following
in further support of her Motion for Order (#214.00):
1. The aforesaid Motion dated April 4, 2017 seeks
relief pursuant to Strobel v. Strobel, 92 Conn. App. 662
(2005) thereby barring the Defendant from filing or
pursuing any motions in the Connecticut judicial
system without prior Court approval.
2. On July 11, 2017, and July 12, 2017, a hearing
was held before the Court (Heller, J.). Ostensibly, the
hearing concerned Defendant’s Motion for Contempt
(#231.00) which was denied. However, the Plaintiff’s
Motion for a “Strobel” order was not heard at that time.
Nonetheless, the Court was aware of said Plaintiff’s
Motion (#214.00) and directed as follows:

A-102
The Plaintiff has called the court’s attention
to her motion for order, post-judgment (#214.00),
filed on April 5, 2017, in which she seeks an order
directing that all future motions filed by the
defendant subject to a “leave to file” protocol
before getting allowed to proceed on the merits.
The court acknowledges the concerns raised by
the plaintiff but declines to address them without
affording the defendant an opportunity to
respond.
Accordingly, the court on its own motion
directs that the parties appear on a date certain
so that the court may consider whether to impose
sanctions pursuant to Practice Book §1-25 for the
defendant’s conduct on this matter, including
filing memoranda that exceed the page limits set
forth in the Practice Book withour leave of court.
The hearing shall be scheduled by Family
Caseflow.

3. As a result of the aforementioned Court decision
entered March 2, 2018 (#261.00) the Defendant filed a
Motion to Disqualify Judge Heller (#262.00) and an
appeal to the Connecticut Appellate Court (#264.00).
4. The Motion to Disqualify resulted in a hearing
before
the
Administrative
Judge
for
the
Stamford/Norwalk Judicial District (Genuario, J.)
which further resulted in Denial of Defendant’s Motion
to Disqualify (#262.01).
5. Nonetheless, Defendant pursued multiple
Appeals as to the aforesaid decisions of Judge Heller
and Genuario, respectively, as well as an Appeal of an
additional Order of the Court (Truglia, J.) which was
entered pursuant to a petition filed by Plaintiff
pursuant go CGS §46b-15.

A-103

6. Within three weeks of a combined oral argument
on the Defendant’s Appeals, the Appellate Court
affirmed all of the trial decisions which were the
subjects of Defendant’s consolidated Appeals (#276.00).
7. Predictably, the Defendant filed a petition for
Certification with the Connecticut Supreme Court
which was “DENIED” on March 13, 2019.
8. The Defendant has now exhausted his rights of
Appeal in the Connecticut Judicial system and there is
no legal impediment to Plaintiff’s pursuing her Motion
for a “Strobel” Order. Accordingly, the Plaintiff’s
Motion for such relief should be scheduled before the
Court at the Court’s earliest convenience per the
Orders contained relative thereto as aforementioned in
the Memorandum of Decision (#261.00) as stated more
fully hereinbefore.
WHEREFORE, it is respectfully requested that:
1. The Court set a date for a hearing on Plaintiff’s
Motion for Order (#214.00) at the Court’s earliest
convenience;
2. That the Defendant be stopped from filing any
Motions with this or any other Connecticut state Court
until Plaintiff’s aforestated Motion is heard and
decided;
3. The Court enter any further orders that is
deems just and proper in the interest of justice.

A-104
THE PLAINTIFF

MARGARITA OLIVA SAINZ DE AJA
/s/ Kevin F. Collins
By: ________________
Kevin F. Collins, Esq.
Law Offices of Kevin F. Collins
1150 Summer Street
Stamford, CT 06905
Tel.: (203) 327-5400
Fax: (203) 327-5466
Juris No.: 300089

A-105
APPENDIX Q
JUZGADO DE PRIMERA INSTANCIA No. 3
GRANADA, SPAIN
[Langalo seal]
Langalo Inc.
131 Essex Street, 2nd Floor
New York, NY 10002
tel. 646 867 1988|fax 212 677 5847
contact@langalo.com| www.langalo.com
__________________________________________________
EXEQUATUR OF FOREIGN DIVORCE
JUDGMENT, NULLITY OF DIVORCE
JUDGMENT PER MOTION TO DISMISS,
AND FINES FOR MALICIOUS AND
TEMERARIOUS CONDUCT*


TO THE DISTRICT COURT OF GRANADA No. 3
Complejo Judicial La Caleta
Avenida del Sur Numero 1, Cuarta Planta
NIG: 1808742C20160015376
Proceedings: Family. Contentious Divorce: 758/2016
Matter: Divorce
From: Mrs. Margarita OLIVA SAINZ de AJA
Court Clerk: Silvia MAS LUZON
Counsel: Emilio VICIANA TITOS
Against: Mr. Fernando Gabriel IRAZU ZUBILLAGA

* Exhibit H (marked for identification and later discarded),


Hearings of 7/11/13/2017 before Judge Heller, AC 41455 (AC
41598), Appellate Court, State of Connecticut.

A-106
Mr. Fernando Gabriel IRAZU ZUBILLAGA, pro se,
domiciled at 222 East 75th Street, Apt. 6C, New York,
New York, USA, telephone +1 203 570-8318 and email:
fgirazu@gmail.com, on June 9, 2017, docket “Mrs.
Margarita OLIVA SAINZ de AJA v. Mr. Fernando
Gabriel IRAZU ZUBILLAGA” supra, pursued before
this Court, appears himself before you, and according
to law, CLAIMS:
1. That this party was not properly notified of the
divorce complaint filed by the plaintiff –in fact, he does
not have a copy of it–, in violation of article 770 of the
Civil Procedure Act and the applicable normative from
the Hague Convention of October 5, 1961, for serving
legal process within the international law terrain
between Spain and USA.
2. That this party incidentally found out last June 6,
2017, via correspondence handed in by his minor
daughter xxxxx IRAZU, that the Court on May 24,
2017, declared him in contempt to court and
summoned both parties to the opening hearing of this
trial next June 29, 2017, at 11 am.
FACTS
FIRST. The domicile of 10 Indian Pass, Greenwich,
State of Connecticut, 06830, USA, belongs to the
plaintiff as her residence since 1997, and on an
exclusive basis since 2009, according to the divorce
judgment issued on September 2, 2010, by the Superior
District Court of Stamford/Norwalk, State of
Connecticut, USA. The defendant is co-owner of such
property but does not reside in it, all of it obviously
known by the plaintiff in this action as exclusive
resident in such address. –see annexes infra.

A-107
SECOND. None of the parties are residents of Spain,
and the plaintiff resides in the US since 1995, in the
State of Connecticut since 1997, holds US citizenship,
and works in the city of New York, New York, USA.
–see annexes infra.
THIRD. Based on the correspondence from the Court,
the plaintiff surreptitiously established this party’s
domicile in a fictitious way in Spain and in her own
domicile in the State of Connecticut, preventing in
such a manner this party from timely knowing of these
proceedings. –see annexes infra.
FOURTH. The plaintiff knows the true domicile of this
party, as well as his prior one, according to records in
the divorce proceedings carried out in the State of
Connecticut, USA –see annexes infra.
FIFTH. On October 6, 1995, the parties got married in
the city of New York, State of New York, USA, which
was registered in the Consulate of Spain in such city
on October 17, 1995, and fruit of such marriage three
children were born in USA: xxxxx, 4/11/98, xxxxx
xxxxx, 31/7/00, and xxxxx, 26/5/03, all of them born and
raised in US territory and of US citizenship. –see
annexes infra.
SIXTH. On October 1, 2009, the plaintiff initiated the
marital dissolution proceedings before the Superior
District Court of Stamford/Norwalk, State of
Connecticut, USA, and on September 2, 2010 such
court issued a divorce judgment, which is definitive
and final after having been notified to both parties and
without appeal on it by any of them. – see annexes
infra.

A-108
SEVENTH.
The Court lacks jurisdiction and
competence to rule on these proceedings, if it were not
for the process of an exequatur of foreign judgment, the
nullity via motion to dismiss of the plaintiff’s divorce
claim, as well as the fines against her due to her
malicious and temerarious conduct under the very
same Spanish law. –see infra.
LEGAL ARGUMENTS
LACK OF JURISDICTION IN LOCAL DIVORCE
PROCESS. Pursuant to what set forth in Article 117.3
of the Spanish Constitution, Articles 2.1, 9.2 and 22.3
of LO 6/1985 of July 1, Organic Law of the Judicial
Power, the Spanish Courts and Tribunals shall not be
competent to entertain divorce matters when both
Spouses do not have habitual residence in Spain at the
time of the claim.
LACK OF COMPETENCE IN LOCAL DIVORCE
PROCESS. Pursuant to Normative Additional Three
of law 30/81, from July 7, the District Court of this city
is not competent to rule on these divorce proceedings,
since the spouses reside in foreign jurisdiction, and
they never had in this city their last domicile of an
already dissolved marriage.
LACK OF PERSONAL JURISDICTION. Mrs.
Margarita OLIVA SAINZ de AJA has no personal
subject-matter jurisdiction to file the aforesaid divorce
claim because she is not a spouse of the plaintiff
anymore due to res iudicata, as attested by firm
divorced judgment of September 2, 2009, issued by a
competent judge under the jurisdiction of the Superior
District Court of Stamford/Norwalk, State of
Connecticut, USA, following the action that such party
voluntarily had initiated in this very same jurisdiction

A-109
and competence (art. 416 y s.s., Law of Civil
Procedure).
EXEQUATUR PROCEEDING OF FOREIGN
DIVORCE JUDGMENT. The defendant herein
requests, with valid personal subject-matter
jurisdiction, the acknowledgment via exequatur of the
aforesaid judgment dated September 2, 2010, issued by
courts of the State of Connecticut, as a result of a
divorce claim previously filed by the plaintiff, which
benefits both parties. Such judgment was issued
pursuant to law, through the intervention of the court
system, and based on proper jurisdiction and
competence of the officiating courts as well as the
intervening parties; it was duly notified to both; it is
firm and final; it is not opposed to local
and/international public policy; and it is not
incompatible with a prior or subsequent one (Arts. 81,
86, 89, 97 and s.s., Civil Code; Art. 96 and s.s., Civil
Registry Law; Arts. 22, 323.2, 144, and s.s, Civil
Procedure Act).
FINES FOR TEMERARIOUS AND MALICIOUS
CONDUCT. Through this judicial process the plaintiff
not only intends to deceit the Court about the
defendant’s domicile, for him not to be able to exercise
his due process rights timely, but at the same time
omits to mention the existence of prior, firm and final
judgment with the presumable goal of generating after
almost seven years a judgment under Spanish
jurisdiction presumably in conflict with the preexistent one in the US (Art. 247, Civil Procedure Act).
CORE OF THE SUBJECT MATTER. It is presumed
the plaintiff wishes to relocate from the US to Spain in
a near future; two of the couple’s children are still

A-110
minor; the plaintiff has assets in Spain that would be
subject to marital distribution; and as a result she
would like a new divorce judgment in conflict with the
one requested by her and obtained under US
jurisdiction almost seven years ago; now fraudulently
excluding the procedural participation of this party
under Spanish jurisdiction.
ANNEXES
ANNEX I. “Certificate of No Appeal” dated June 8,
2017, in connection with the divorce judgment in re
“Margarita OLIVA SAINZ de AJA v. Fernando
Gabriel IRAZU” before the Superior District Court of
Stamford/Norwalk, State of Connecticut, USA,
certifying that such a judgment is final, which has not
been interrupted, modified and/or declared null, and at
the same time that it is not subject to any appeal.
Moreover, attached find the summary orders of the
marital dissolution judgment, the Parenting Plan
proposed by the plaintiff (Margarita OLIVA SAINZ de
AJA), and the Memorandum of Decision (the Judgment
of Marital Dissolution in itself) dated September 2,
2010. All of the preceding documentation has been duly
legalized and subject to the Apostille of the Hague
convention of October 5, 1961. Private translation
under oath and duly notarized of such judgment is also
attached.
It is attested in this judicial judgment that from 1997
the plaintiff resides at 10 Indian Pass, Greenwich,
State of Connecticut, USA, and on an exclusive basis
from 2009 until the present date.
ANNEX II. Marriage Certificate of Fernando Gabriel
IRAZU and Margarita OLIVA SAINZ de AJA dated
October 6, 1995, issued by the City of New York, State

A-111
of New York, USA, duly legalized and subject to the
Apostille pursuant to the Hague Convention of October
5,1961.
ANNEX III. Case detail in re OLIVA SAINZ de AJA,
Margarita v. IRAZU, Fernando Gabriel, D.N. FST FA
09-4017497, before Superior Judicial District of
Stamford/Norwalk, State of Connecticut, USA,
certifying her current domicile before the Court, which
due to the aforesaid judicial judgment cannot and it is
not the one claimed by the plaintiff up to the present
date.
ANNEX IV. Copy of the Court’s resolution dated May
24, 2017, sent by mail to this party to the domicile of
the plaintiff at 10 Indian Pass, Greenwich, State of
Connecticut, USA.
As a result of the foregoing, I, PLEAD THIS COURT
that
(i)

having submitted this filing together with
the attached documentation, proceeds to
admit them, and have this party duly
impersonated in the domicile already
stated according to law;

(ii)

considers the proper proceeding of an
exequatur of a foreign divorce judgment
duly filed and with legal force in Spain,
and as a result orders its inscription in
the local Civil Registry (arts. 42, 43 and
s.s. of the Civil Registry Law);

(iii)

dismisses as null ipso facto et iure the
surreptitious divorce claim filed by the
plaintiff due to this motion to dismiss

A-112
because of lack of jurisdiction and
competence, as well as lack of personal
subject-matter jurisdiction in light of the
facts and legal arguments herein
described; and
(iv)

fines the plaintiff with legal fees and
court-related expenses as well as the
maximum applicable fine for her
malicious and temerarious conduct under
Spanish jurisdiction.

For justice to be in the place and date already
established.
/s/
________________________________________
Mr. Fernando Gabriel IRAZU ZUBILLAGA
Subscribed before me [illegible signature] Notary
Public. My commission expires 4-30-18.
- End of Translation Pursuant to U.S. Federal Regulations (59 FR 1900 Jan.
13, 1994, # 3.33) regarding translation of documents, I
[illegible] do hereby certify on behalf of Langalo Inc.
that we are competent to translate this document, and
that this translation is true and accurate to the best of
our knowledge and belief.
No inference or
determination regarding the validity of the source
document or its content is made.
Signature: s/ [illegible]
Date: 7/31/2017
/s/ Kathy Rosado

A-113
KATHY ROSADO
NOTARY PUBLIC – STATE OF NEW YORK
NO. 01RC6142270
QUALIFIED IN BRONX COUNTY
MY COMISSION EXPIRES MAR 13, 2018
7/31/2017

A-114
APPENDIX R
JUZGADO DE PRIMERA INSTANCIA No. 3
GRANADA, SPAIN
[Langalo seal]
Langalo Inc.
131 Essex Street, 2nd Floor
New York, NY 10002
tel. 646 867 1988|fax 212 677 5847
contact@langalo.com|www.langalo.com
__________________________________________________
Seal of the Kingdom of Spain. Administration of
Justice.
Proceedings N. 758D/16
ORDER. No. 295/17*



In the city of Granada, on the twenty-eight days of
June of two thousand seventeen. Informed; and
FACTS
FIRST. On behalf of DONA MARGARITA SAIZ AJA,
represented by Barrister Mrs. Mas Luzon, a Divorce
claim was filed against DON FERNANDO GABRIEL
AZAZU ZUBILLAGA.
SECOND. By decree of June 17, 2016 the claim was
admitted, ruling, as mandated by Art. 753 of the LCP,
to summon the State Prosecutor and the defendant to
* Exhibit C, Hearings of 7/11/13/2017 before Judge Heller, AC


41455 (AC 41598), Appellate Court, State of Connecticut.

A-115
appear before the Court and to answer it within the
period of twenty days.
SECOND. Submitted by the defendant a divorce
judgment dated September 2, 2010 from the Superior
District Court of Stamford/Norwalk, State of
Connecticut, USA; by resolution of June 16, 2016 the
plaintiff and the State Prosecutor were given five days
for allegations; with the outcome on the record.
LEGAL REASONING
FIRST. As determined by art. 240.2 of the Organic
Law of the Judicial Power and 225 and subsequent of
the Law of Civil Procedure, although the general rule
is that nullity under the law, in any case, and the
defects of form in the procedural acts carrying the
absence of the necessary requirements to achieve their
goal or to determine an effective defenselessness, shall
be argued through the means established by law
against the respective order and other means granted
by procedural laws, notwithstanding, the Judge or
Court can, ex parte or by request of a party before
rendering final judgment to put an end to the process
and always when purging is not appropriate, declare,
prior hearing of the parties, the nullity of the entire
proceedings or some part in particular.
Pursuant to articles 225 and subsequent of the Law of
Civil Procedure, as well as articles 238 and subsequent
of the Organic Law of the Judicial Power establishing
that:
The procedural acts shall be null per law in the
following cases:

A-116
1. When they are produced by or before the Court
lacking jurisdiction or competence, objective or
functional.
2. When they are done under violence or intimidation.
3. When the essential procedural rules are obviated,
always when, for such a reasons, defenselessness could
have been produced.
4. When they are done without the participation of an
attorney, in the cases the law commands it as
obligatory.
5. When resolutions take place without the mandated
intervention of the Law Clerk.
6. When through diligences or decrees matters are
resolved that, according to law, must be resolved by
judgment, orders and mandates.
7. In all of the other cases established by this law.
Article 226. How to proceed in case of intimidation or
violence:
1. The Courts’ proceedings that would have been
produced by intimidation or violence, as soon as they
see themselves free from it, shall declare null all that
has been done and promote a case against the guilty
ones, putting the State Attorney on notice of the facts.
2. The acts from parties or people participating in the
process shall also be declared null if it is proven that
they were produced under intimidation or violence.
The nullity of these acts shall carry the one of all of the
other ones related to, or that could have been seen.

A-117
SECOND. The problem arises from the efficacy that
the resolution of September 2, 2010 issued by the
Superior District Court of Stamford/Norwalk, State of
Connecticut, USA, could have in Spain; the
acknowledgment of such judgment in our country
requires to seek the exequatur proceeding, which can
be recognized; so a party cannot seek from the Spanish
Courts to admit a new divorce claim knowing that she
was divorced via a firm judgment, a process also
initiated at her request; it is thus coming to apply
“sensu contrario” ** article 85 of the CC in the sense
that it is not possible to dissolve an inexistent
marriage.


DECISORY PART
Due to the foregoing, I
DECIDE: 1. Declare nullity from the Decree dated
June 17, 2016, and, mandating to leave without effect
such order, it is ordered to LEAVE TO FILE these
proceedings.
Against this resolution an APPEAL is available before
the State Audience of Granada (art. 458 LCP). The
appeal shall be made via written brief filed with this
Court within the period of TWENTY working DAYS
from the following day of the notification, shall express
the allegations upon which the challenge is based, and
at the same time quote the appealed judgment and the
pronouncements being challenged.
For the appeal to be admitted a deposit of 50 Euros
must be made, to be deposited in the account of this
Court No. 1724, signaling in the Observations of the
**


Reverse interpretation.

A-118
filing document that it refers to an appeal pursuant to
code 02 and the sort of appeal, according to what is
established in the OL 1/2009 of November 3, provided
the exceptions of exclusion foreseen by numeral 5 of the
fifteenth additional rule of such normative or
beneficiaries of free legal assistance.
So it is ordered, mandated and signed by Honorable
Mrs. Dona MARIA DEL CARMEN SILES ORTEGA,
Magistrate-Judge of the District Court No. 3 of this
City and Judicial District.
“In connection with data of personal nature, about its
confidentiality and prohibition to be transmitted or
communicated by any means or proceeding, it shall be
treated exclusively for the proper goals of the
Administration of Justice (ex Organic Law 15/99, from
December 13, about protection of data of personal
nature).”
Signed by Maria del Carmen Siles Ortega 29/06/2017
10:08:40. Victoria Santos Ortuno 29/06/2017 10:30:10.
- End of Translation Pursuant to U.S. Federal Regulations (59 FR 1900 Jan.
13, 1994, # 3.33) regarding translation of documents, I
[illegible] do hereby certify on behalf of Langalo Inc.
that we are competent to translate this document, and
that this translation is true and accurate to the best of
our knowledge and belief.
No inference or
determination regarding the validity of the source
document or its content is made.
Signature: s/ [illegible]
Date: 7/31/2017

A-119
/s/ Kathy Rosado
KATHY ROSADO
NOTARY PUBLIC – STATE OF NEW YORK
NO. 01RC6142270
QUALIFIED IN BRONX COUNTY
MY COMISSION EXPIRES MAR 13, 2018
7/31/2017

A-120
APPENDIX S
JUZGADO DE PRIMERA INSTANCIA No. 3
GRANADA, SPAIN
TO THE SUPERIOR DISTRICT COURT OF
GRANADA No. 3*
Silvia Mas Luzón, Barrister of the Courts, on behalf of
Margarita Oliva Sainz de Aja, as verified on record
in re CONTENTIOUS DIVORCIO 758/2016, I appear
and SAY:
As a matter of law this party is interested in obtaining
certified copies of documentary evidence in these
proceedings per the other side’s filing of June 16, 2010,
in order to comply with, as described in such filing, the
exequatur of those judicial rulings.
As a result of the aforementioned,
I PLEAD: for the present filing to be admitted and the
acknowledgment herein to be included in the record,
and as a result for the aforesaid certified copies to be
issued.
To be Justice, in Granada, July 26, 2018.

NAME
MAS
LUZON
SILVIA – NIF
24213561N


Digitally signed by NAME
MAS LUZON SILVIA
NIF 24213561N
Date: 2018.07.26 9:30
9:30:53

* Translated from Spanish to English by the Petitioner.

A-121
APPENDIX T
JUZGADO DE PRIMERA INSTANCIA No. 3
GRANADA, SPAIN
[Seal of the Kingdom of Spain]
Administration of Justice
SUPERIOR DISTRICT COURT
OF GRANADA No. 3* 
COMPLEJO JUDICIAL LA CALETA
AVDA. DEL SUR NUM. 1, 4th FLOOR
GRANADA
Tel. : Fax:
Email
NIG: 1808742120180022764
Proceedings: Exequatur: 1022/2018 Case: AA
Matter: Compliance
From: Mrs. Margarita OLIVA SAINZ de AJA
Court Clerk: Silvia MAS LUZON
Counsel: Emilio VICIANA TITOS
Against: Mr. Fernando Gabriel IRAZU ZUBILLAGA
Court Clerk:
Counsel:
ORDER ABOUT INSTITUTING PROCEEDINGS
COURT ISSUING ORDER: SUPERIOR DISTRCIT
COURT OF GRANADA No. 3
MATTER RESOLVED: Above-referenced.
PERSON SUBJECT TO ORDER: FERNANDO
GABRIEL IRAZU ZUBILLAGA as Defendant.
*

Translated from Spanish to English by the Petitioner.

A-122
Domicile: BILLINGHURST POSTAL CODE 1425
1656 2A BUENOS AIRES (ARGENTINA) Argentina
OBJECT OF THE ORDER: To appear in the
aforementioned trial to answer in writing the
pleadings, in which he is designated as Defendant.
Attached copy of the demand, the annexed documents,
and the order admitting it.
COURT IN WHICH MUST APPEAR: The premises
of this Court.
TERM TO APPEAR: TWENTY WORKING DAYS
from the day following this order.
LEGAL WARNINGS
If he does not appear, he will be declared in contempt
to court, and after notifying this ruling not any other
will take place but the judgment concluding these
proceedings (articles 496 and 497 of Law 1/2000, of
Civil Proceedings –LEC).
The appearence before trial must be made through
Barrister, with the assistance of Counsel (article 750 of
LEC).
Any changes of domicile during the course of this
process must be communicated to the Court (article
155.5, first paragraph, LEC).
In Granada, May 7, 2019.

LAW CLERK OF ADMINISTRATION OF JUSTICE.

A-123
“In connection with data of personal nature, about its
confidentiality and prohibition to be transmitted or
communicated by any means or proceeding, it shall be
treated exclusively for the proper goals of the
Administration of Justice (ex Organic Law 15/99, from
December 13, about protection of data of personal
nature).”

/s/
VICTORIA SANTOS
11:19:05 2 PAGES

ORTUNO

05/07/2019

A-124
APPENDIX U
CONSTITUTIONAL AND STATUTORY
PROVISIONS
First Amendment, US Constitution.
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
Second Amendment, US Constitution.
A well regulated Militia, being necessary to the
security of a free State, the right of the people to keep
and bear Arms, shall not be infringed.
Fourth Amendment, US Constitution.
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.
Fifth Amendment, US Constitution.
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall

A-125
any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.
Sixth Amendment, US Constitution.
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for
his defence.
Eight Amendment, US Constitution.
Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishments inflicted.
Ninth Amendment, US Constitution.
The enumeration in the Constitution, of certain rights,
shall not be construed to deny or disparage others
retained by the people.
Tenth Amendment, US Constitution.
The powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.

A-126
Fourteenth Amendment, Section 1 and 5, US
Constitution.
1. All persons born or naturalized in the United States,

and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside.
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
5. The Congress shall have power to enforce, by

appropriate legislation, the provisions of this article.
Article I, Section 8, Clause 3, US Constitution.
The Congress shall have power … To regulate
commerce with foreign Nations, and among the several
States, and with the Indian Tribes.
Article IV, Sections 1 and 2, US Constitution.
1. Full Faith and Credit shall be given in each State to
the public Acts, Records, and judicial Proceedings of
every other State. And the Congress may by general
Laws prescribe the Manner in which such Acts,
Records and Proceedings shall be proved, and the
Effect thereof.
2. The Citizens of each State shall be entitled to all
Privileges and Immunities of Citizens in the several
States.
_________________________

A-127
18 U.S. Code § 2265. Full faith and credit given to
protection orders.
(a) FULL FAITH AND CREDIT.—
Any protection order issued that is consistent
with subsection (b) of this section by the court of one
State, Indian tribe, or territory (the issuing
State, Indian tribe, or territory) shall be accorded full
faith and credit by the court of another State, Indian
tribe, or territory (the enforcing State, Indian tribe, or
territory) and enforced by the court and law
enforcement personnel of the other State, Indian tribal
government or Territory as if it were the order of the
enforcing State, or tribe.
(b) PROTECTION ORDER.—
A protection order issued by a State, tribal, or
territorial court is consistent with this subsection if—
(1) such court has jurisdiction over the parties
and matter under the law of such State, Indian tribe,
or territory; and
(2) reasonable notice and opportunity to be
heard is given to the person against whom the order is
sought sufficient to protect that person’s right to due
process. In the case of ex parte orders, notice and
opportunity to be heard must be provided within the
time required by State, tribal, or territorial law, and in
any event within a reasonable time after the order is
issued, sufficient to protect the respondent’s due
process rights.

A-128
(c) CROSS OR COUNTER PETITION.—
A protection order issued by a State, tribal, or
territorial court against one who has petitioned, filed a
complaint, or otherwise filed a written pleading for
protection against abuse by a spouse or intimate
partner is not entitled to full faith and credit if—
(1) no cross or counter petition, complaint, or
other written pleading was filed seeking such a
protection order; or
(2) a cross or counter petition has been filed and
the court did not make specific findings that each party
was entitled to such an order.
(d) NOTIFICATION AND REGISTRATION.
(1) NOTIFICATION.— A State, Indian tribe, or
territory according full faith and credit to an order by
a court of another State, Indian tribe, or territory shall
not notify or require notification of the party against
whom a protection order has been issued that the
protection order has been registered or filed in that
enforcing State, tribal, or territorial jurisdiction unless
requested to do so by the party protected under such
order.
(2) NO

PRIOR REGISTRATION OR FILING AS

PREREQUISITE FOR ENFORCEMENT.—

Any protection
order that is otherwise consistent with this section
shall be accorded full faith and credit, notwithstanding
failure to comply with any requirement that the order
be registered or filed in the enforcing State, tribal, or
territorial jurisdiction.

A-129
(3) LIMITS ON PUBLICATION OF REGISTRATION
INFORMATION.— A State, Indian tribe, or territory
shall not make available publicly on the Internet any
information regarding the registration, filing of a
petition for, or issuance of a protective order,
restraining order or injunction, restraining order, or
injunction in either the issuing or enforcing
State, tribal or territorial jurisdiction, if such
publication would be likely to publicly reveal the
identity or location of the party protected under such
order. A State, Indian tribe, or territory may share
court-generated and law enforcement-generated
information contained in secure, governmental
registries for protection order enforcement purposes.
(e) TRIBAL COURT JURISDICTION.—
For purposes of this section, a court of an Indian
tribe shall have full civil jurisdiction to issue and
enforce protection orders involving any person,
including the authority to enforce any orders through
civil contempt proceedings, to exclude violators from
Indian land, and to use other appropriate mechanisms,
in matters arising anywhere in the Indian country of
the Indian tribe (as defined in section 1151) or
otherwise within the authority of the Indian tribe.
_________________________

A-130
18 U.S. Code § 2262.
protection order.

Interstate

violation

of

(a) OFFENSES.—
(1) TRAVEL OR CONDUCT OF OFFENDER.— A
person who travels in interstate or foreign commerce,
or enters or leaves Indian country or is present within
the special maritime and territorial jurisdiction of the
United States, with the intent to engage in conduct
that violates the portion of a protection order that
prohibits or provides protection against violence,
threats, or harassment against, contact or
communication with, or physical proximity to, another
person or the pet, service, animal, emotional support
animal, or horse of that person, or that would violate
such a portion of a protection order in the jurisdiction
in which the order was issued, and subsequently
engages in such conduct, shall be punished as provided
in subsection (b).
(2) CAUSING TRAVEL OF VICTIM.— A person
who causes another person to travel in interstate or
foreign commerce or to enter or leave Indian country
by force, coercion, duress, or fraud, and in the course
of, as a result of, or to facilitate such conduct or travel
engages in conduct that violates the portion of a
protection order that prohibits or provides protection
against violence, threats, or harassment against,
contact or communication with, or physical proximity
to, another person or the pet, service animal, emotional
support animal, or horse of that person, or that would
violate such a portion of a protection order in the
jurisdiction in which the order was issued, shall be
punished as provided in subsection (b).

A-131
(b) PENALTIES.— A person who violates this section
shall be fined under this title, imprisoned—
(1) for life or any term of years, if death of the
victim results;
(2) for not more than 20 years if permanent
disfigurement or life threatening bodily injury to the
victim results;
(3) for not more than 10 years, if serious bodily
injury to the victim results or if the offender uses a
dangerous weapon during the offense;
(4) as provided for the applicable conduct under
chapter 109A if the offense would constitute an offense
under chapter 109A (without regard to whether the
offense was committed in the special maritime and
territorial jurisdiction of the United States or in a
Federal prison); and
(5) for not more than 5 years, in any other case,
including any case in which the offense is committed
against a pet, service animal, emotional support
animal, or horse, or both fined and imprisoned.
_________________________

Rule 65, Federal Rules of Civil Procedure.
Injunctions and Restraining Orders.
(a) PRELIMINARY INJUNCTION.
(1) Notice. The court may issue a preliminary
injunction only on notice to the adverse party.

A-132
(2) Consolidating the Hearing with the Trial on the
Merits. Before or after beginning the hearing on a
motion for a preliminary injunction, the court may
advance the trial on the merits and consolidate it
with the hearing. Even when consolidation is not
ordered, evidence that is received on the motion and
that would be admissible at trial becomes part of the
trial record and need not be repeated at trial. But the
court must preserve any party's right to a jury trial.
(b) TEMPORARY RESTRAINING ORDER.
(1) Issuing Without Notice. The court may issue a
temporary restraining order without written or oral
notice to the adverse party or its attorney only if:
(A) specific facts in an affidavit or a verified
complaint clearly show that immediate and
irreparable injury, loss, or damage will result to
the movant before the adverse party can be heard
in opposition; and
(B) the movant's attorney certifies in writing
any efforts made to give notice and the reasons
why it should not be required.
(2) Contents; Expiration.
Every temporary
restraining order issued without notice must state
the date and hour it was issued; describe the injury
and state why it is irreparable; state why the order
was issued without notice; and be promptly filed in
the clerk's office and entered in the record. The order
expires at the time after entry—not to exceed 14
days—that the court sets, unless before that time the
court, for good cause, extends it for a like period or
the adverse party consents to a longer extension. The

A-133
reasons for an extension must be entered in the
record.
(3) Expediting the Preliminary - Injunction
Hearing. If the order is issued without notice, the
motion for a preliminary injunction must be set for
hearing at the earliest possible time, taking
precedence over all other matters except hearings on
older matters of the same character. At the hearing,
the party who obtained the order must proceed with
the motion; if the party does not, the court must
dissolve the order.
(4) Motion to Dissolve. On 2 days’ notice to the
party who obtained the order without notice—or on
shorter notice set by the court—the adverse party
may appear and move to dissolve or modify the order.
The court must then hear and decide the motion as
promptly as justice requires.
(c) SECURITY. The court may issue a preliminary
injunction or a temporary restraining order only if the
movant gives security in an amount that the court
considers proper to pay the costs and damages
sustained by any party found to have been wrongfully
enjoined or restrained. The United States, its officers,
and its agencies are not required to give security.
(d) CONTENTS AND SCOPE
RESTRAINING ORDER.

OF

EVERY INJUNCTION

AND

(1) Contents. Every order granting an injunction
and every restraining order must:
(A) state the reasons why it issued;
(B) state its terms specifically; and

A-134
(C) describe in reasonable detail—and not by
referring to the complaint or other document—the
act or acts restrained or required.
(2) Persons Bound. The order binds only the
following who receive actual notice of it by personal
service or otherwise:
(A) the parties;
(B) the parties’ officers, agents, servants,
employees, and attorneys; and
(C) other persons who are in active concert or
participation with anyone described in Rule
65(d)(2)(A) or (B).
(e) OTHER LAWS NOT MODIFIED. These rules do not
modify the following:
(1) any federal statute relating to temporary
restraining orders or preliminary injunctions in
actions affecting employer and employee;
(2) 28 U.S.C. §2361, which relates to preliminary
injunctions in actions of interpleader or in the nature
of interpleader; or
(3) 28 U.S.C. §2284, which relates to actions that
must be heard and decided by a three-judge district
court.
(f) COPYRIGHT IMPOUNDMENT. This rule applies to
copyright-impoundment proceedings.
_________________________

A-135
Rule 37 of Federal Rules of Civil Procedure.
Failure to Make Disclosures or to Cooperate in
Discovery; Sanctions.
(a) MOTION FOR AN ORDER COMPELLING DISCLOSURE OR
DISCOVERY.
(1) In General. On notice to other parties and all
affected persons, a party may move for an order
compelling disclosure or discovery. The motion must
include a certification that the movant has in good
faith conferred or attempted to confer with the
person or party failing to make disclosure or
discovery in an effort to obtain it without court
action.
(2) Appropriate Court. A motion for an order to a
party must be made in the court where the action is
pending. A motion for an order to a nonparty must
be made in the court where the discovery is or will be
taken.
(3) Specific Motions.
(A) To Compel Disclosure. If a party fails to
make a disclosure required by Rule 26(a), any
other party may move to compel disclosure and for
appropriate sanctions.
(B) To Compel a Discovery Response. A party
seeking discovery may move for an order
compelling an answer, designation, production, or
inspection. This motion may be made if:
(i) a deponent fails to answer a question asked
under Rule 30 or 31;

A-136
(ii) a corporation or other entity fails to make
a designation under Rule 30(b)(6) or 31(a)(4);
(iii) a party fails to answer an interrogatory
submitted under Rule 33; or
(iv) a party fails to produce documents or fails
to respond that inspection will be permitted—or
fails to permit inspection—as requested under
Rule 34.
(C) Related to a Deposition. When taking an oral
deposition, the party asking a question may
complete or adjourn the examination before
moving for an order.
(4) Evasive or Incomplete Disclosure, Answer, or
Response. For purposes of this subdivision (a), an
evasive or incomplete disclosure, answer, or
response must be treated as a failure to disclose,
answer, or respond.
(5) Payment of Expenses; Protective Orders.
(A) If the Motion Is Granted (or Disclosure or
Discovery Is Provided After Filing). If the motion
is granted—or if the disclosure or requested
discovery is provided after the motion was filed—
the court must, after giving an opportunity to be
heard, require the party or deponent whose
conduct necessitated the motion, the party or
attorney advising that conduct, or both to pay the
movant's reasonable expenses incurred in making
the motion, including attorney's fees. But the court
must not order this payment if:

A-137
(i) the movant filed the motion before
attempting in good faith to obtain the disclosure
or discovery without court action;
(ii) the opposing party's nondisclosure,
response, or objection was substantially
justified; or
(iii) other circumstances make an award of
expenses unjust.
(B) If the Motion Is Denied. If the motion is
denied, the court may issue any protective order
authorized under Rule 26(c) and must, after giving
an opportunity to be heard, require the movant,
the attorney filing the motion, or both to pay the
party or deponent who opposed the motion its
reasonable expenses incurred in opposing the
motion, including attorney's fees. But the court
must not order this payment if the motion was
substantially justified or other circumstances
make an award of expenses unjust.
(C) If the Motion Is Granted in Part and Denied
in Part. If the motion is granted in part and denied
in part, the court may issue any protective order
authorized under Rule 26(c) and may, after giving
an opportunity to be heard, apportion the
reasonable expenses for the motion.
(b) FAILURE TO COMPLY WITH A COURT ORDER.
(1) Sanctions Sought in the District Where the
Deposition Is Taken. If the court where the discovery
is taken orders a deponent to be sworn or to answer
a question and the deponent fails to obey, the failure
may be treated as contempt of court. If a deposition-

A-138
related motion is transferred to the court where the
action is pending, and that court orders a deponent
to be sworn or to answer a question and the deponent
fails to obey, the failure may be treated as contempt
of either the court where the discovery is taken or
the court where the action is pending.
(2) Sanctions Sought in the District Where the
Action Is Pending.
(A) For Not Obeying a Discovery Order. If a
party or a party's officer, director, or managing
agent—or a witness designated under Rule
30(b)(6) or 31(a)(4)—fails to obey an order to
provide or permit discovery, including an order
under Rule 26(f), 35, or 37(a), the court where the
action is pending may issue further just orders.
They may include the following:
(i) directing that the matters embraced in the
order or other designated facts be taken as
established for purposes of the action, as the
prevailing party claims;
(ii) prohibiting the disobedient party from
supporting or opposing designated claims or
defenses, or from introducing designated
matters in evidence;
(iii) striking pleadings in whole or in part;
(iv) staying further proceedings until the
order is obeyed;
(v) dismissing the action or proceeding in
whole or in part;

A-139
(vi) rendering a default judgment against the
disobedient party; or
(vii) treating as contempt of court the failure
to obey any order except an order to submit to a
physical or mental examination.
(B) For Not Producing a Person for
Examination. If a party fails to comply with an
order under Rule 35(a) requiring it to produce
another person for examination, the court may
issue any of the orders listed in Rule
37(b)(2)(A)(i)—(vi), unless the disobedient party
shows that it cannot produce the other person.
(C) Payment of Expenses. Instead of or in
addition to the orders above, the court must order
the disobedient party, the attorney advising that
party, or both to pay the reasonable expenses,
including attorney's fees, caused by the failure,
unless the failure was substantially justified or
other circumstances make an award of expenses
unjust.
(c) FAILURE TO DISCLOSE,
RESPONSE, OR TO ADMIT.

TO

SUPPLEMENT

AN

EARLIER

(1) Failure to Disclose or Supplement. If a party
fails to provide information or identify a witness as
required by Rule 26(a) or (e), the party is not allowed
to use that information or witness to supply evidence
on a motion, at a hearing, or at a trial, unless the
failure was substantially justified or is harmless. In
addition to or instead of this sanction, the court, on
motion and after giving an opportunity to be heard:

A-140
(A) may order payment of the reasonable
expenses, including attorney's fees, caused by the
failure;
(B) may inform the jury of the party's failure;
and
(C) may impose other appropriate sanctions,
including any of the orders listed in Rule
37(b)(2)(A)(i)—(vi).
(2) Failure to Admit. If a party fails to admit what
is requested under Rule 36 and if the requesting
party later proves a document to be genuine or the
matter true, the requesting party may move that the
party who failed to admit pay the reasonable
expenses, including attorney's fees, incurred in
making that proof. The court must so order unless:
(A) the request was held objectionable under
Rule 36(a);
(B) the admission sought was of no substantial
importance;
(C) the party failing to admit had a reasonable
ground to believe that it might prevail on the
matter; or
(D) there was other good reason for the failure
to admit.
(d) PARTY'S FAILURE TO ATTEND ITS OWN DEPOSITION,
SERVE ANSWERS TO INTERROGATORIES, OR RESPOND TO
A REQUEST FOR INSPECTION.

A-141
(1) In General.
(A) Motion; Grounds for Sanctions. The court
where the action is pending may, on motion, order
sanctions if:
(i) a party or a party's officer, director, or
managing agent—or a person designated under
Rule 30(b)(6) or 31(a)(4)—fails, after being
served with proper notice, to appear for that
person's deposition; or
(ii) a party, after being properly served with
interrogatories under Rule 33 or a request for
inspection under Rule 44, fails to serve its
answers, objections, or written response.
(B) Certification. A motion for sanctions for
failing to answer or respond must include a
certification that the movant has in good faith
conferred or attempted to confer with the party
failing to act in an effort to obtain the answer or
response without court action.
(2) Unacceptable Excuse for Failing to Act. A
failure described in Rule 37(d)(1)(A) is not excused
on the ground that the discovery sought was
objectionable, unless the party failing to act has a
pending motion for a protective order under Rule
26(c).
(3) Types of Sanctions. Sanctions may include any
of the orders listed in Rule 37(b)(2)(A)(i)—(vi).
Instead of or in addition to these sanctions, the court
must require the party failing to act, the attorney
advising that party, or both to pay the reasonable
expenses, including attorney's fees, caused by the

A-142
failure, unless the failure was substantially justified
or other circumstances make an award of expenses
unjust.
(e) FAILURE TO PRESERVE ELECTRONICALLY STORED
INFORMATION. If electronically stored information that
should have been preserved in the anticipation or
conduct of litigation is lost because a party failed to
take reasonable steps to preserve it, and it cannot be
restored or replaced through additional discovery, the
court:
(1) upon finding prejudice to another party from
loss of the information, may order measures no
greater than necessary to cure the prejudice; or
(2) only upon finding that the party acted with the
intent to deprive another party of the information’s
use in the litigation may:
(A) presume that the lost information was
unfavorable to the party;
(B) instruct the jury that it may or must
presume the information was unfavorable to the
party; or
(C) dismiss the action or enter a default
judgment.
(f) FAILURE TO PARTICIPATE IN FRAMING A DISCOVERY
PLAN. If a party or its attorney fails to participate in
good faith in developing and submitting a proposed
discovery plan as required by Rule 26(f), the court may,
after giving an opportunity to be heard, require that
party or attorney to pay to any other party the
reasonable expenses, including attorney's fees, caused
by the failure.

A-143
_________________________

28 U.S. Code § 1927.
excessive costs.

Counsel’s

liability

for

Any attorney or other person admitted to conduct cases
in any court of the United States or any Territory
thereof who so multiplies the proceedings in any case
unreasonably and vexatiously may be required by the
court to satisfy personally the excess costs, expenses,
and attorneys’ fees reasonably incurred because of
such conduct.
_________________________

Connecticut General Statutes 46b-15. Relief from
physical abuse, stalking or pattern of
threatening by family or household member.
(a) Any family or household member, as defined in
section 46b-38a, who has been subjected to a
continuous threat of present physical pain or physical
injury, stalking or a pattern of threatening, including,
but not limited to, a pattern of threatening, as
described in section 53a-62, by another family or
household member may make an application to the
Superior Court for relief under this section. The court
shall provide any person who applies for relief under
this section with the information set forth in section
46b-15b.
(b) The application form shall allow the applicant, at
the applicant’s option, to indicate whether the

A-144
respondent holds a permit to carry a pistol or revolver,
an eligibility certificate for a pistol or revolver, a long
gun eligibility certificate or an ammunition certificate
or possesses one or more firearms or ammunition. The
application shall be accompanied by an affidavit made
under oath which includes a brief statement of the
conditions from which relief is sought. Upon receipt of
the application the court shall order that a hearing on
the application be held not later than fourteen days
from the date of the order except that, if the application
indicates that the respondent holds a permit to carry a
pistol or revolver, an eligibility certificate for a pistol
or revolver, a long gun eligibility certificate or an
ammunition certificate or possesses one or more
firearms or ammunition, and the court orders an ex
parte order, the court shall order that a hearing be held
on the application not later than seven days from the
date on which the ex parte order is issued. The court,
in its discretion, may make such orders as it deems
appropriate for the protection of the applicant and such
dependent children or other persons as the court sees
fit. In making such orders ex parte, the court, in its
discretion, may consider relevant court records if the
records are available to the public from a clerk of the
Superior Court or on the Judicial Branch’s Internet
web site. In addition, at the time of the hearing, the
court, in its discretion, may also consider a report
prepared by the family services unit of the Judicial
Branch that may include, as available: Any existing or
prior orders of protection obtained from the protection
order registry; information on any pending criminal
case or past criminal case in which the respondent was
convicted of a violent crime; any outstanding arrest
warrant for the respondent; and the respondent’s level
of risk based on a risk assessment tool utilized by the

A-145
Court Support Services Division. The report may also
include information pertaining to any pending or
disposed family matters case involving the applicant
and respondent. Any report provided by the Court
Support Services Division to the court shall also be
provided to the applicant and respondent. Such orders
may include temporary child custody or visitation
rights, and such relief may include, but is not limited
to, an order enjoining the respondent from (1) imposing
any restraint upon the person or liberty of the
applicant; (2) threatening, harassing, assaulting,
molesting, sexually assaulting or attacking the
applicant; or (3) entering the family dwelling or the
dwelling of the applicant. Such order may include
provisions necessary to protect any animal owned or
kept by the applicant including, but not limited to, an
order enjoining the respondent from injuring or
threatening to injure such animal. If an applicant
alleges an immediate and present physical danger to
the applicant, the court may issue an ex parte order
granting such relief as it deems appropriate. If a
postponement of a hearing on the application is
requested by either party and granted, the ex parte
order shall not be continued except upon agreement of
the parties or by order of the court for good cause
shown. If a hearing on the application is scheduled or
an ex parte order is granted and the court is closed on
the scheduled hearing date, the hearing shall be held
on the next day the court is open and any such ex parte
order shall remain in effect until the date of such
hearing. If the applicant is under eighteen years of age,
a parent, guardian or responsible adult who brings the
application as next friend of the applicant may not
speak on the applicant’s behalf at such hearing unless
there is good cause shown as to why the applicant is

A-146
unable to speak on his or her own behalf, except that
nothing in this subsection shall preclude such parent,
guardian or responsible adult from testifying as a
witness at such hearing. As used in this subsection,
“violent crime” includes: (A) An incident resulting in
physical harm, bodily injury or assault; (B) an act of
threatened violence that constitutes fear of imminent
physical harm, bodily injury or assault, including, but
not limited to, stalking or a pattern of threatening; (C)
verbal abuse or argument if there is a present danger
and likelihood that physical violence will occur; and (D)
cruelty to animals as set forth in section 53-247.
(c) If the court issues an ex parte order pursuant to
subsection (b) of this section and service has not been
made on the respondent in conformance with
subsection (h) of this section, upon request of the
applicant, the court shall, based on the information
contained in the original application, extend any ex
parte order for an additional period not to exceed
fourteen days from the originally scheduled hearing
date. The clerk shall prepare a new order of hearing
and notice containing the new hearing date, which
shall be served upon the respondent in accordance with
the provisions of subsection (h) of this section.
(d) Any ex parte restraining order entered under
subsection (b) of this section in which the applicant and
respondent are spouses, or persons who have a
dependent child or children in common and who live
together, may include, if no order exists, and if
necessary to maintain the safety and basic needs of the
applicant or the dependent child or children in common
of the applicant and respondent, in addition to any
orders authorized under subsection (b) of this section,
any of the following: (1) An order prohibiting the

A-147
respondent from (A) taking any action that could result
in the termination of any necessary utility services or
necessary services related to the family dwelling or the
dwelling of the applicant, (B) taking any action that
could result in the cancellation, change of coverage or
change of beneficiary of any health, automobile or
homeowners insurance policy to the detriment of the
applicant or the dependent child or children in common
of the applicant and respondent, or (C) transferring,
encumbering, concealing or disposing of specified
property owned or leased by the applicant; or (2) an
order providing the applicant with temporary
possession
of
an
automobile,
checkbook,
documentation of health, automobile or homeowners
insurance, a document needed for purposes of proving
identity, a key or other necessary specified personal
effects.
(e) At the hearing on any application under this
section, if the court grants relief pursuant to subsection
(b) of this section and the applicant and respondent are
spouses, or persons who have a dependent child or
children in common and who live together, and if
necessary to maintain the safety and basic needs of the
applicant or the dependent child or children in common
of the applicant and respondent, any orders entered by
the court may include, in addition to the orders
authorized under subsection (b) of this section, any of
the following: (1) An order prohibiting the respondent
from (A) taking any action that could result in the
termination of any necessary utility services or
services related to the family dwelling or the dwelling
of the applicant, (B) taking any action that could result
in the cancellation, change of coverage or change of
beneficiary of any health, automobile or homeowners
insurance policy to the detriment of the applicant or

A-148
the dependent child or children in common of the
applicant and respondent, or (C) transferring,
encumbering, concealing or disposing of specified
property owned or leased by the applicant; (2) an order
providing the applicant with temporary possession of
an automobile, checkbook, documentation of health,
automobile or homeowners insurance, a document
needed for purposes of proving identity, a key or other
necessary specified personal effects; or (3) an order
that the respondent: (A) Make rent or mortgage
payments on the family dwelling or the dwelling of the
applicant and the dependent child or children in
common of the applicant and respondent, (B) maintain
utility services or other necessary services related to
the family dwelling or the dwelling of the applicant and
the dependent child or children in common of the
applicant and respondent, (C) maintain all existing
health, automobile or homeowners insurance coverage
without change in coverage or beneficiary designation,
or (D) provide financial support for the benefit of any
dependent child or children in common of the applicant
and the respondent, provided the respondent has a
legal duty to support such child or children and the
ability to pay. The court shall not enter any order of
financial support without sufficient evidence as to the
ability to pay, including, but not limited to, financial
affidavits. If at the hearing no order is entered under
this subsection or subsection (d) of this section, no such
order may be entered thereafter pursuant to this
section. Any order entered pursuant to this subsection
shall not be subject to modification and shall expire one
hundred twenty days after the date of issuance or upon
issuance of a superseding order, whichever occurs first.
Any amounts not paid or collected under this
subsection or subsection (d) of this section may be

A-149
preserved and collectible in an action for dissolution of
marriage, custody, paternity or support.
(f) Every order of the court made in accordance with
this section shall contain the following language: (1)
“This order may be extended by the court beyond one
year. In accordance with section 53a-107 of the
Connecticut general statutes, entering or remaining in
a building or any other premises in violation of this
order constitutes criminal trespass in the first degree.
This is a criminal offense punishable by a term of
imprisonment of not more than one year, a fine of not
more than two thousand dollars or both.”; and (2) “In
accordance with section 53a-223b of the Connecticut
general statutes, any violation of subparagraph (A) or
(B) of subdivision (2) of subsection (a) of section 53a223b constitutes criminal violation of a restraining
order which is punishable by a term of imprisonment
of not more than five years, a fine of not more than five
thousand dollars, or both. Additionally, any violation
of subparagraph (C) or (D) of subdivision (2) of
subsection (a) of section 53a-223b constitutes criminal
violation of a restraining order which is punishable by
a term of imprisonment of not more than ten years, a
fine of not more than ten thousand dollars, or both.”.
(g) No order of the court shall exceed one year, except
that an order may be extended by the court upon
motion of the applicant for such additional time as the
court deems necessary. If the respondent has not
appeared upon the initial application, service of a
motion to extend an order may be made by first-class
mail directed to the respondent at the respondent’s
last-known address.

A-150
(h) (1) The applicant shall cause notice of the hearing
pursuant to subsection (b) of this section and a copy of
the application and the applicant’s affidavit and of any
ex parte order issued pursuant to subsection (b) of this
section to be served on the respondent not less than
three days before the hearing. The cost of such service
shall be paid for by the Judicial Branch.
(2) When (A) an application indicates that a
respondent holds a permit to carry a pistol or revolver,
an eligibility certificate for a pistol or revolver, a long
gun eligibility certificate or an ammunition certificate
or possesses one or more firearms or ammunition, and
(B) the court has issued an ex parte order pursuant to
this section, the proper officer responsible for executing
service shall, whenever possible, provide in-hand
service and, prior to serving such order, shall (i)
provide notice to the law enforcement agency for the
town in which the respondent will be served concerning
when and where the service will take place, and (ii)
send, or cause to be sent by facsimile or other means, a
copy of the application, the applicant’s affidavit, the ex
parte order and the notice of hearing to such law
enforcement agency, and (iii) request that a police
officer from the law enforcement agency for the town
in which the respondent will be served be present when
service is executed by the proper officer. Upon
receiving a request from a proper officer under the
provisions of this subdivision, the law enforcement
agency for the town in which the respondent will be
served may designate a police officer to be present
when service is executed by the proper officer.
(3) Upon the granting of an ex parte order, the clerk of
the court shall provide two copies of the order to the
applicant. Upon the granting of an order after notice

A-151
and hearing, the clerk of the court shall provide two
copies of the order to the applicant and a copy to the
respondent. Every order of the court made in
accordance with this section after notice and hearing
shall be accompanied by a notification that is
consistent with the full faith and credit provisions set
forth in 18 USC 2265(a), as amended from time to time.
Immediately after making service on the respondent,
the proper officer shall (A) send or cause to be sent, by
facsimile or other means, a copy of the application, or
the information contained in such application, stating
the date and time the respondent was served, to the
law enforcement agency or agencies for the town in
which the applicant resides, the town in which the
applicant is employed and the town in which the
respondent resides, and (B) as soon as possible, but not
later than two hours after the time that service is
executed, input into the Judicial Branch’s Internetbased service tracking system the date, time and
method of service. If, prior to the date of the scheduled
hearing, service has not been executed, the proper
officer shall input into such service tracking system
that service was unsuccessful. The clerk of the court
shall send, by facsimile or other means, a copy of any
ex parte order and of any order after notice and
hearing, or the information contained in any such
order, to the law enforcement agency or agencies for
the town in which the applicant resides, the town in
which the applicant is employed and the town in which
the respondent resides, within forty-eight hours of the
issuance of such order. If the victim, or victim’s minor
child protected by such order, is enrolled in a public or
private elementary or secondary school, including a
technical education and career school, or an institution
of higher education, as defined in section 10a-55, the

A-152
clerk of the court shall, upon the request of the victim,
send, by facsimile or other means, a copy of such ex
parte order or of any order after notice and hearing, or
the information contained in any such order, to such
school or institution of higher education, the president
of any institution of higher education at which the
victim, or victim’s minor child protected by such order,
is enrolled and the special police force established
pursuant to section 10a-156b, if any, at the institution
of higher education at which the victim, or victim’s
minor child protected by such order, is enrolled, if the
victim provides the clerk with the name and address of
such school or institution of higher education.
(i) A caretaker who is providing shelter in his or her
residence to a person sixty years or older shall not be
enjoined from the full use and enjoyment of his or her
home and property. The Superior Court may make any
other appropriate order under the provisions of this
section.
(j) When a motion for contempt is filed for violation of
a restraining order, there shall be an expedited
hearing. Such hearing shall be held within five court
days of service of the motion on the respondent,
provided service on the respondent is made not less
than twenty-four hours before the hearing. If the court
finds the respondent in contempt for violation of an
order, the court may impose such sanctions as the court
deems appropriate.
(k) An action under this section shall not preclude the
applicant from seeking any other civil or criminal
relief.
(l) For purposes of this section, “police officer” means a
state police officer or a sworn member of a municipal

A-153
police department and “law enforcement agency”
means the Division of State Police within the
Department of Emergency Services and Public
Protection or any municipal police department.

_________________________

Connecticut General Statutes, § 45a-717, (a)
through (k). Termination of parental rights.
Conduct of hearing. Investigation and report.
Grounds for termination.
(a) At the hearing held on any petition for the
termination of parental rights filed in the Court of
Probate under section 45a-715, or filed in the Superior
Court under section 17a-112, or transferred to the
Superior Court from the Court of Probate under section
45a-715, any party to whom notice was given shall
have the right to appear and be heard with respect to
the petition. If a parent who is consenting to the
termination of such parent’s parental rights appears at
the hearing on the petition for termination of parental
rights, the court shall explain to the parent the
meaning and consequences of termination of parental
rights. Nothing in this subsection shall be construed to
require the appearance of a consenting parent at the
hearing regarding the termination of such parent’s
parental rights except as otherwise provided by court
order.
(b) If a respondent parent appears without counsel, the
court shall inform such respondent parent of his or her
right to counsel and upon request, if he or she is unable
to pay for counsel, shall appoint counsel to represent

A-154
such respondent parent. No respondent parent may
waive counsel unless the court has first explained the
nature and meaning of a petition for the termination of
parental rights. Unless the appointment of counsel is
required under section 46b-136, the court may appoint
counsel to represent or appear on behalf of any child in
a hearing held under this section to speak on behalf of
the best interests of the child. If the respondent parent
is unable to pay for his or her own counsel or if the child
or the parent or guardian of the child is unable to pay
for the child’s counsel, in the case of a Superior Court
matter, the reasonable compensation of counsel
appointed for the respondent parent or the child shall
be established by, and paid from funds appropriated to,
the Judicial Department and, in the case of a Probate
Court matter, the reasonable compensation of counsel
appointed for the respondent parent or the child shall
be established by, and paid from funds appropriated to,
the Judicial Department, however, in the case of a
Probate Court matter, if funds have not been included
in the budget of the Judicial Department for such
purposes, such compensation shall be established by
the Probate Court Administrator and paid from the
Probate Court Administration Fund.
(c) The court shall, if a claim for paternity has been
filed in accordance with section 46b-172a, continue the
hearing under the provisions of this section until the
claim for paternity is adjudicated, provided the court
may combine the hearing on the claim for paternity
with the hearing on the termination of parental rights
petition.
(d) Upon finding at the hearing or at any time during
the pendency of the petition that reasonable cause
exists to warrant an examination, the court, on its own

A-155
motion or on motion by any party, may order the child
to be examined at a suitable place by a physician,
psychiatrist or licensed clinical psychologist appointed
by the court. The court may also order examination of
a parent or custodian whose competency or ability to
care for a child before the court is at issue. The
expenses of any examination if ordered by the court on
its own motion shall be paid for by the petitioner or, if
ordered on motion by a party, shall be paid for by the
party moving for such an examination unless such
party or petitioner is unable to pay such expenses in
which case, they shall be paid for by funds
appropriated to the Judicial Department, however, in
the case of a Probate Court matter, if funds have not
been included in the budget of the Judicial Department
for such purposes, such expenses shall be established
by the Probate Court Administrator and paid from the
Probate Court Administration Fund. The court may
consider the results of the examinations in ruling on
the merits of the petition.
(e) (1) The court may, and in any contested case shall,
request the Commissioner of Children and Families or
any child-placing agency licensed by the commissioner
to make an investigation and written report to it,
within ninety days from the receipt of such request.
The report shall indicate the physical, mental and
emotional status of the child and shall contain such
facts as may be relevant to the court’s determination of
whether the proposed termination of parental rights
will be in the best interests of the child, including the
physical, mental, social and financial condition of the
biological parents, and any other factors which the
commissioner or such child-placing agency finds
relevant to the court’s determination of whether the
proposed termination will be in the best interests of the

A-156
child. (2) If such a report has been requested, upon the
expiration of such ninety-day period or upon receipt of
the report, whichever is earlier, the court shall set a
day for a hearing not more than thirty days thereafter.
The court shall give reasonable notice of such
adjourned hearing to all parties to the first hearing,
including the child, if over fourteen years of age, and to
such other persons as the court shall deem
appropriate. (3) The report shall be admissible in
evidence, subject to the right of any interested party to
require that the person making it appear as a witness,
if available, and subject himself to examination.
(f) At the adjourned hearing or at the initial hearing
where no investigation and report has been requested,
the court may approve a petition for termination of
parental rights based on consent filed pursuant to this
section terminating the parental rights and may
appoint a guardian of the person of the child, or if the
petitioner requests, the court may appoint a statutory
parent, if it finds, upon clear and convincing evidence
that (1) the termination is in the best interest of the
child and (2) such parent has voluntarily and
knowingly consented to termination of the parent’s
parental rights with respect to such child. If the court
denies a petition for termination of parental rights
based on consent, it may refer the matter to an agency
to assess the needs of the child, the care the child is
receiving and the plan of the parent for the child.
Consent for the termination of the parental right of one
parent does not diminish the parental rights of the
other parent of the child nor does it relieve the other
parent of the duty to support the child.
(g) At the adjourned hearing or at the initial hearing
where no investigation and report has been requested,

A-157
the court may approve a petition terminating the
parental rights and may appoint a guardian of the
person of the child, or, if the petitioner requests, the
court may appoint a statutory parent, if it finds, upon
clear and convincing evidence, that (1) the termination
is in the best interest of the child, and (2) (A) the child
has been abandoned by the parent in the sense that the
parent has failed to maintain a reasonable degree of
interest, concern or responsibility as to the welfare of
the child; (B) the child has been denied, by reason of an
act or acts of parental commission or omission,
including, but not limited to, sexual molestation and
exploitation, severe physical abuse or a pattern of
abuse, the care, guidance or control necessary for the
child’s physical, educational, moral or emotional wellbeing. Nonaccidental or inadequately explained
serious physical injury to a child shall constitute prima
facie evidence of acts of parental commission or
omission sufficient for the termination of parental
rights; (C) there is no ongoing parent-child relationship
which is defined as the relationship that ordinarily
develops as a result of a parent having met on a
continuing, day-to-day basis the physical, emotional,
moral and educational needs of the child and to allow
further time for the establishment or reestablishment
of the parent-child relationship would be detrimental
to the best interests of the child; (D) a child of the
parent (i) was found by the Superior Court or the
Probate Court to have been neglected, abused or
uncared for, as those terms are defined in section 46b120, in a prior proceeding, or (ii) is found to be
neglected, abused or uncared for and has been in the
custody of the commissioner for at least fifteen months
and such parent has been provided specific steps to
take to facilitate the return of the child to the parent

A-158
pursuant to section 46b-129 and has failed to achieve
such degree of personal rehabilitation as would
encourage the belief that within a reasonable time,
considering the age and needs of the child, such parent
could assume a responsible position in the life of the
child; (E) a child of the parent, who is under the age of
seven years is found to be neglected, abused or uncared
for, and the parent has failed, is unable or is unwilling
to achieve such degree of personal rehabilitation as
would encourage the belief that within a reasonable
amount of time, considering the age and needs of the
child, such parent could assume a responsible position
in the life of the child and such parent’s parental rights
of another child were previously terminated pursuant
to a petition filed by the Commissioner of Children and
Families; (F) the parent has killed through deliberate,
nonaccidental act another child of the parent or has
requested, commanded, importuned, attempted,
conspired or solicited such killing or has committed an
assault, through deliberate, nonaccidental act that
resulted in serious bodily injury of another child of the
parent; (G) except as provided in subsection (h) of this
section, the parent committed an act that constitutes
sexual assault as described in section 53a-70, 53a-70a,
53a-70c, 53a-71, 53a-72a, 53a-72b or 53a-73a or
compelling a spouse or cohabitor to engage in sexual
intercourse by the use of force or by the threat of the
use of force as described in section 53a-70b, if such act
resulted in the conception of the child; or (H) the parent
was finally adjudged guilty of sexual assault under
section 53a-70, 53a-70a, 53a-70c, 53a-71, 53a-72a, 53a72b or 53a-73a or of compelling a spouse or cohabitor
to engage in sexual intercourse by the use of force or by
the threat of the use of force under section 53a-70b, if
such act resulted in the conception of the child.

A-159
(h) If the petition alleges an act described in
subparagraph (G) of subdivision (2) of subsection (g) of
this section that resulted in the conception of the child
as a basis for termination of parental rights and the
court determines that the respondent parent was
finally adjudged not guilty of such act of sexual assault
under section 53a-70, 53a-70a, 53a-70c, 53a-71, 53a72a, 53a-72b or 53a-73 or of compelling a spouse or
cohabitor to engage in sexual intercourse by the use of
force or by the threat of the use of force under section
53a-70b, the court shall transfer the case to the
Superior Court and the clerk of the Probate Court shall
transmit to the clerk of the Superior Court to which the
case was transferred, the original files and papers in
the case. The Superior Court, upon hearing after notice
as provided in this section and section 45a-716, may
grant the petition as provided in this section.
(i) Except in the case where termination is based on
consent, in determining whether to terminate parental
rights under this section, the court shall consider and
shall make written findings regarding: (1) The
timeliness, nature and extent of services offered,
provided and made available to the parent and the
child by a child-placing agency to facilitate the reunion
of the child with the parent; (2) the terms of any
applicable court order entered into and agreed upon by
any individual or child-placing agency and the parent,
and the extent to which all parties have fulfilled their
obligations under such order; (3) the feelings and
emotional ties of the child with respect to the child’s
parents, any guardian of the child’s person and any
person who has exercised physical care, custody or
control of the child for at least one year and with whom
the child has developed significant emotional ties; (4)
the age of the child; (5) the efforts the parent has made

A-160
to adjust such parent’s circumstances, conduct or
conditions to make it in the best interest of the child to
return the child to the parent’s home in the foreseeable
future, including, but not limited to, (A) the extent to
which the parent has maintained contact with the
child as part of an effort to reunite the child with the
parent, provided the court may give weight to
incidental
visitations,
communications
or
contributions and (B) the maintenance of regular
contact or communication with the guardian or other
custodian of the child; and (6) the extent to which a
parent has been prevented from maintaining a
meaningful relationship with the child by the
unreasonable act or conduct of the other parent of the
child, or the unreasonable act of any other person or by
the economic circumstances of the parent.
(j) If the parental rights of only one parent are
terminated, the remaining parent shall be sole parent
and, unless otherwise provided by law, guardian of the
person.
(k) In the case where termination of parental rights is
granted, the guardian of the person or statutory parent
shall report to the court within thirty days of the date
judgment is entered on a case plan, as defined by the
federal Adoption and Safe Families Act of 1997, as
amended from time to time, for the child. At least every
three months thereafter, such guardian or statutory
parent shall make a report to the court on the
implementation of the plan. The court may convene a
hearing upon the filing of a report and shall convene a
hearing for the purpose of reviewing the plan no more
than twelve months from the date judgment is entered
or from the date of the last permanency hearing held
pursuant to subsection (k) of section 46b-129 if the

A-161
child or youth is in the care and custody of the
Commissioner of Children and Families, whichever is
earlier, and at least once a year thereafter until such
time as any proposed adoption plan has become
finalized. If the Commissioner of Children and
Families is the statutory parent for the child, at such a
hearing the court shall determine whether the
department has made reasonable efforts to achieve the
permanency plan. In the case where termination of
parental rights is granted, the guardian of the person
or statutory parent shall obtain the approval of the
court prior to placing the child or youth for adoption
outside the state. Before ordering or approving such
placement, the court shall make findings concerning
compliance with the provisions of section 17a-175.
Such findings shall include, but not be limited to: (1) A
finding that the state has received notice in writing
from the receiving state, in accordance with subsection
(d) of Article III of section 17a-175, indicating that the
proposed placement does not appear contrary to the
interests of the child, (2) the court has reviewed such
notice, (3) whether or not an interstate compact study
or other home study has been completed by the
receiving state, and (4) if such a study has been
completed, whether the conclusions reached by the
receiving state as a result of such study support the
placement.
_________________________

